                                         United States Army
Two thousand Twelve




                      Fiscal Year 2012 United States Army Annual Financial Report

                      U.S. Army Corps of Engineers – Civil Works
Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




On the Cover (From Left to Right, Top to Bottom): Combat engineers prepare to maneuver sections of an improved ribbon bridge in a bridge erection
boat / Two U.S. Army Soldiers breach a wire obstacle during a situational training exercise. (U.S. Army Photo by Visual Information Specialist Gertrud
Zach, Released) / A Soldier performs a foot march during a training event. (U.S. Army photo by Visual Information Specialist Gertrud Zach/Released) /
A U.S. Army AH-64 Apache attack helicopter prepares to depart Bagram Air Field, Afghanistan. (U.S. Air Force photo, Tech. Sgt. Matt Hecht) / A
paratrooper provides overwatch security to fellow paratroopers. (U.S. Army photo by Sgt. Michael J. MacLeod) / A combat engineer places a Bangalore
torpedo during a platoon concertina wire breach. (U.S. Army photo by Sgt. Heather Denby) / An Afghan company executive officer suggests a route
of approach into a village to a platoon leader. (U.S. Army photo by Sgt. Michael J. MacLeod) / A U.S. Army sergeant goes across the rope bridge at an
obstacle course. (U.S. Army photo by Visual Information Specialist Markus Rauchenberger/Released)
*Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)
                                                                                              United States Army
                                                                Two thousand Twelve




FY 2012 Contents
Message from the Assistant Secretary of the Army (Civil Works) .  .  .  .                                          iii

Message from the USACE Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  . v


Management’s Discussion and Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                       1

Civil Works Program
Principal Financial Statements, Notes, Supplementary Information,
and Auditor’s Report .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .         35
ii   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




                                      “In keeping with the President’s
                                       commitment to cut waste and make
                                       targeted investments in critical
                                       priorities, the Army has undertaken
                                       a major effort to improve the
                                       performance and responsiveness
                                       of the Civil Works program and to
                                       increase customer satisfaction and
                                       public confidence.”
                                                                                 – Jo-Ellen Darcy, Assistant Secretary of the Army
                                      		                                                                             (Civil Works)
                                                                            Message iii
                                               Assistant Secretary of the Army (Civil Works)

Throughout its long history, the Army Corps of Engineers has been committed to
serving the Nation in peace and war, with its Civil Works mission critical to the safety,
security, and economy of our great Nation. Shifting national priorities for public water
management have necessitated a concomitant shift in the focus of the Corps’ activities
and operations.

As described in these pages, the majority of the Army Civil Works program is
heavily focused on the operation, maintenance, repair and replacement of major
navigation, flood risk management and hydropower infrastructure systems and on the
environmental mitigation and restoration of resources affected in the past by these
systems. Within the flood risk management business line, priority continues to be given
to infrastructure maintenance and repair, reflecting the Army’s concern about the risks
associated with aging dams and levee systems. Within the navigation business line, the
Army continues to partner with the Department of Transportation to better align federal
infrastructure investments to improve the economy and foster a competitive, efficient,
and environmentally sustainable freight movement infrastructure.

Each year as we execute our multi-billion dollar program, the Army considers the
integrity of the existing Civil Works infrastructure, the associated risks to the economy,
safety, and the environment, and the development of sustainable solutions to America’s
water resources needs. The Army continues to work closely with other federal, state
and local agencies to develop integrated water resources management outcomes across
mission areas that leverage taxpayer dollars and strives to return the highest value to the
Nation in terms of economic, social, and environmental benefits.

In keeping with the President’s commitment to cut waste and make targeted investments
in critical priorities, the Army has undertaken a major effort to improve the performance
and responsiveness of the Civil Works program and to increase customer satisfaction
and public confidence. These goals will be accomplished through the following on-going
focus areas:

     •	   Modernize the project planning process.

     •	   Enhance the budget development process through a systems-oriented
          watershed approach and pursue new opportunities for collaboration, and
          innovative financing.

     •	   Evaluate the current and potential portfolio of water resources infrastructure to
          deliver smart solutions for water resources problems.

     •	   Improve methods of delivery to produce and deliver critical water resources
          products and services.

Together, these initiatives will enhance the ability of the Corps of Engineers to meet
current and future challenges and address the water resources needs of our Nation.




		                                      Jo-Ellen Darcy
		                                      Assistant Secretary of the Army
		                                      (Civil Works)
iv   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




                                     “We have created an environment
                                      of transparency and accountability
                                      that has transformed us from a
                                      state of audit readiness to audit
                                      sustainability.”
                                                                                      – Wesley C. Miller, Chief Financial Officer
                                                                           Message v
                                                             USACE Chief Financial Officer

The United States Army Corps of Engineers (USACE) Civil Works Annual Financial
Report provides stakeholders our financial position and results of operations for fiscal
year (FY) 2012. During this past fiscal year we continued to build on our strong
commitment to accountability, effective management of financial resources and sound
business processes. Our commitment to our financial business processes resulted in our
fifth consecutive “clean” audit opinion and for the first time we can report our operations
are free from material weaknesses.

The importance of and emphasis on fiscal responsibility in the financial environment
continually increases. USACE Civil Works contributes to the fiscal responsibility of the
Department of the Army by making financial decisions based on relevant and reliable
information. Our responsibility includes accounting for and making fiscally responsible
decisions for the approximately $18.4 billion obligated during FY 2012.

Our results in FY 2012 clearly demonstrate our steadfast commitment to improving our
end-to-end business processes, embedding them into our financial management system,
and providing sound governance and oversight. We have created an environment of
transparency and accountability that has transformed us from a state of audit readiness
to audit sustainability. Moving forward we will continue the integration of our Quality
Management System, Continuous Process Improvement Program, and Governance and
Internal Controls to enhance outcomes, drive performance, and increase accountability.

Today, because of strong senior leadership, exceptional working relationships with the
auditors and improvements to our documented processes and controls, we have created
the conditions for enduring success in the Chief Financial Officer audit. Our focus and
synchronization of resources across the Command have allowed us to change the culture
of our internal controls from a reactive to a proactive process, which has helped us to
proactively prevent problems that could occur with our financial management process.
Due to our strengthened internal controls program and reliable financial management
system, I am confident that the financial information presented accurately reflects the
results of our operations.

I am proud of everyone within USACE Civil Works who continues to strive toward
greatness in financial management. This report and the accomplishments it describes
reflect their extraordinary dedication to duty.




	   	                                  Wesley C. Miller
	   	                                  Chief Financial Officer
vi    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




      “The strength of                                    Rough River Lake. Photo
         our democracy                                    courtesy of the U.S. Army
                                                          Corps of Engineers.
     has always rested
     on the willingness
           of those who
           believe in its                                 Geese on Bennington Lake.
                                                          Photo courtesy of the U.S.

           values and in
                                                          Army Corps of Engineers.


     their will to serve,
     to give something
            back to this
       country, to fight
       and to sacrifice;
         above all, to do
        that in times of
                  crisis.”
 – The Honorable Leon E. Panetta (Secretary of Defense)
                                                                                                                        Civil Works 1
                                                                                                    Management’s Discussion and Analysis




Mosquito Creek Lake. Photo courtesy of the U.S. Army Corps of Engineers.



Overview
The United States Army Corps of Engineers (USACE) is                  Protecting, Restoring and Managing the
comprised of two major programs: the Civil Works Program              Environment
and the Military Program. These financial statements represent        The Rivers and Harbors Act of 1890 required the Corps to
only the Civil Works Program here in referred to as Corps; the        prevent the obstruction of navigable waterways. As environmental
Military Program is reported within the Army General Fund             concerns grew in the late 20th century, the National
Financial Statements.                                                 Environmental Policy Act of 1969 and the Clean Water Act of
                                                                      1972 greatly broadened the scope of the Corps’ responsibility for
                                                                      regulating discharges into United States (U.S.) waters, including
Mission                                                               the country’s wetlands. The Civil Works Program’s environmental
The Civil Works mission of the USACE is to (1) contribute to          responsibilities have continued to increase through legislation,
the national welfare and serve the nation with quality, responsive    and now include aquatic ecosystem restoration, remedial activities
development and management of the country’s water resources;          at former defense sites, and overall stewardship responsibilities.
(2) protect, restore, and manage the environment; (3) respond to
disasters and aid in recovery efforts; and, (4) provide engineering
and technical services. This multi-faceted mission is accomplished    Responding and Assisting in Disaster Relief
in an environmentally-sustainable and economically- and               Throughout USACE history, the United States has relied on the
technically-sound manner through partnerships with other              Civil Works Program for help both in times of natural and man-
                                                                      made disasters. The Corps responds to natural disasters under the
government agencies and nongovernment organizations.
                                                                      Flood Control and Coastal Emergency Act (Public Law [P.L.]
                                                                      84-99, as amended) and to man-made disasters under the Robert
Developing and Managing Water Resources                               T. Stafford Disaster Relief and Emergency Assistance Act (P.L. 93-
The original role of the USACE in Civil Works, as it related          288, as amended). The Civil Works Program’s primary role in
to developing and managing water resources, was to support            emergency relief and recovery operations is to provide public
lake, riverine, coastal, and island navigation by maintaining         works and engineering support.
and improving federal navigation channels. Over the years, and
through subsequent legislation, the Corps’ role expanded to           Providing Engineering Support and Technical
include (1) flood risk management; (2) improvement of aquatic         Services
habitat; (3) generation of hydroelectric power; (4) creation          In Titles 10 and 33 of the U.S. Code (U.S.C.), Congress
of recreation opportunities; (5) provision of water storage           expresses its intent for the Corps to provide services on a
for municipal and industrial water supplies; (6) regulation of        reimbursable basis to other federal entities; state, local, and tribal
discharges into navigable waters; and, (7) emergency planning         governments; private firms; and international organizations.
and management.                                                       Additional authority to provide services to all federal agencies is
                                                                      found in Titles 15, 22, and 31, which include providing services
                                                                      to foreign governments.
2    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


The Civil Works Program
The Corps operates multiple business lines to accomplish its              direct appropriations and the funds used for executive direction
mission. Each business line specifically addresses a single mission       and management for fiscal year (FY) 2012.
component, but may also contribute to one or more missions in
other business lines. Figure 1 lists the business lines that receive


Figure 1. FY 2012 Civil Works Initial Appropriations by Business Line

                                      $6
                                           $190
                                    $24




                             $1
                                       3




                               92
                        $1
                          19
                                                                                            Navigation
                 $1
                     93                                                                     Flood Risk Management
               $10                                                                          Environment-Ecosystem Restoration
                    9
                                                                   $1,883                   Environment-Stewardship
              $97
                                                                                            Environment-FUSRAP*
                                                                                            Regulatory
                                                                                            Emergency Management
                   4
                $52                                                                         Hydropower
                                                                                            Recreation
                                                                                            Water Storage for Water Supply
                                                                                            Executive Direction and Management



                                           $1,425
                                                                                            *Formerly Utilized Sites Remedial Action Program.




Through the American Recovery and Reinvestment Act of                     through its ports. Our nation’s Marine Transportation System
2009 (ARRA), USACE received $4.6 billion for its Civil Works              (MTS) encompasses a network of Corps-maintained navigable
Program. All of the Corps’ business lines, except emergency               channels, waterways, and infrastructure as well as publicly-
management, received ARRA funding for various programs,                   and privately-owned vessels, marine terminals, intermodal
projects, and activities. Specific information on ARRA funding            connections, shipyards, and repair facilities. The MTS consists of
may be found at the USACE Recovery website at http://usace.               approximately 12,000 miles of inland and intracoastal waterways
army.mil/recovery. The Corps continues to expend the ARRA                 with 220 locks at 171 sites; approximately 300 deep-draft and
funds received in FY 2009; these funds are included in the                over 600 shallow-draft coastal and Great Lakes channels and
expenditure totals in the business line performance tables.               harbors, extending 13,000 miles, and including 21 locks; and
                                                                          more than 900 coastal structures and 800 bridges. The Corps
                                                                          maintains all of these entities.
Navigation
The Navigation business line is responsible for ensuring safe,            In FY 2012, Navigation, estimated at $1.88 billion, accounted
reliable, efficient, and environmentally sustainable waterborne           for almost 38 percent of Civil Works appropriations.
transportation systems for the movement of commercial goods, as
well as for national security purposes. It fulfills this responsibility
through a combination of capital improvements and the                     Flood Risk Management
operation and maintenance of existing infrastructure projects.            The Flood Risk Management (FRM) business line reduces the
The Navigation business line is vital to the nation’s economic            risk to human safety and property damage in the event of floods
prosperity; 97 percent of America’s overseas international                and coastal storms. The Civil Works Program has constructed
trade, by volume, and 64 percent of its trade, by value, moves            8,500 miles of levees and dikes, 383 reservoirs, and more than 90
                                                                          storm damage reduction projects along 240 miles of the nation’s
                                                                                                                      Civil Works 3
                                                                                                    Management’s Discussion and Analysis

2,700 miles of shoreline. With the exception of reservoirs, upon         Environmental Stewardship. Environmental Stewardship
completion, most infrastructure built under the auspices of FRM          focuses on managing, conserving, and preserving natural
is transferred to the sponsoring cities, towns, and special use          resources on 11.5 million acres of land and water at 456
districts that own and operate the projects.                             multipurpose Corps’ projects. Corps’ personnel monitor
                                                                         water quality at the Corps’ dams and operate fish hatcheries
Over the years, the Corps’ mission of addressing the causes              in cooperation with state wildlife agencies. This business line
and impacts of flooding has evolved from flood control and               encompasses compliance measures to ensure Corps’ projects
prevention to more comprehensive FRM. These changes reflect              (1) meet federal, state and local environmental requirements;
a greater appreciation for the complexity and dynamics of                (2) sustain environmental quality; and, (3) conserve natural
flood problems—the interaction of natural forces and human               and cultural resources. In FY 2012, Environmental Stewardship
development—as well as for the federal, state, local, and                received $97 million, an amount comprising 1.9 percent of
individual partnerships needed to thoroughly manage the risks            the appropriation.
caused by coastal storms and heavy rains.
                                                                         FUSRAP. Under the FUSRAP, the Corps cleans up former
FRM is the process of identifying, evaluating, selecting,                Manhattan Project and Atomic Energy Commission sites,
implementing, and monitoring actions to mitigate levels of               making use of expertise gained in cleansing former military sites
risk. Its goal is to ensure scientifically sound, cost-effective,        and civilian hazardous waste sites under the Environmental
integrated actions that reduce risks while taking into account           Protection Agency’s Superfund Program. In FY 2012, the
social, cultural, environmental, ethical, political, and legal           FUSRAP received $109 million, or approximately 2.2 percent of
considerations. The Corps’ approach to FRM relies on                     the total appropriation.
productive collaborations with partners and stakeholders,
i.e., the Federal Emergency Management Agency (FEMA),
the Department of Housing and Urban Development, the
National Oceanic and Atmospheric Administration, affected
state agencies, sponsors, and citizens. Effectively and efficiently,
these collaborations heighten the nation’s awareness of flood risks
and consequences.

The FRM business line has compiled an impressive record of
performance, yielding a six-to-one return on investment; that is,
the business line saves six dollars for each dollar spent. It has also
helped reduce the risk to human safety by providing timely flood
warnings that afford sufficient time for evacuation.

In FY 2012, the FRM business line was estimated at
$1.43 billion and accounted for slightly more than 28 percent of
the Civil Works Program appropriation.


Environment
The Corps has three distinct areas that are focused on the
environment: (1) aquatic ecosystem restoration; (2) stewardship
of Corps’ lands; and, (3) the Formerly Utilized Sites Remedial
Action Program (FUSRAP).

Aquatic Ecosystem Restoration. The Corps’ mission in aquatic
ecosystem restoration is to help restore aquatic habitat to a more
natural condition in ecosystems in which structure, function,
and dynamic processes have become degraded. The emphasis
is on restoration of nationally- or regionally-significant habitats
                                                                         A helicopter prepares to land on the refueling platform after
where the solution primarily involves modifying the hydrology            spraying an EPA-approved herbicide on one of the Interior Least
and geomorphology. In FY 2012, Aquatic Ecosystem Restoration             Tern islands along the McClellan-Kerr Arkansas River Navigation
received approximately $524 million, which translates to just            System in Oklahoma. U.S. Army Corps of Engineers photo by
                                                                         Nate Herring.
over 10 percent of the total appropriation.
4    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




Discussing ways to capture how dredging works in Reeds                Native American fishing scaffolds on the Columbia River. Photo
Landing. Photo by Laura Bremer.                                       courtesy of the U.S. Army Corps of Engineers.


Regulation of Aquatic Resources
In accordance with the Rivers and Harbors Act of 1899                  Homeland Security in carrying out the National Response
(Section 10) and the Clean Water Act of 1972 (Section 404), as         Framework. It does this by providing emergency support in
amended, the Corps’ regulatory program regulates work in, over,        public works and engineering and by conducting emergency
and under navigable rivers as well as the discharge of dredged         response and recovery activities under authority of P.L. 84-99.
and fill material into U.S. waters, including wetlands. The Corps      In a typical year, the Corps responds to more than 30 presidential
implements many of its oversight responsibilities by means of a        disaster declarations; its highly-trained workforce is prepared to
permit process. Throughout the permit evaluation process, the          deal with both man-made and natural disasters.
Corps complies with the National Environmental Policy Act
and other applicable environmental and historic preservation           The Corps not only contributes to domestic emergency
laws. In addition to federal statutes, the Corps also considers        management efforts, but it also plays a major role on the
the views of other federal, tribal, state and local governments,       international stage through its participation in civil-military
agencies, and interest groups, as well as the general public when      emergency preparedness. In support of the Department of
rendering its final permit decisions. Regulatory responsibilities      Defense, the Corps shares emergency management knowledge
include evaluating minor activities, such as driveways for small       and expertise with U.S. allies and partners in the former Soviet
landowners as well as large water supply and energy project            Republics and Eastern Europe. This valuable program brings
proposals which affect billions of dollars of the nation’s economy.    together key leaders, and builds relationships among nations in
                                                                       direct support of the National Defense Strategy.
In FY 2012, at $193 million, the Regulatory appropriation
accounted for 3.8 percent of total Civil Works Program                 In FY 2012, Emergency Management received approximately
appropriations.                                                        $85 million for repairs to eligible damaged projects. It also
                                                                       received $34 million for Continuity of Operations activities, non-
                                                                       natural disaster preparedness activities, and Facility Protection.
Emergency Management                                                   The $119 million received by Emergency Management
Throughout USACE history, the United States has relied on the          accounted for 2.4 percent of total appropriations for the Civil
Civil Works Program in times of national disaster. Emergency           Works Program.
management continues to be an important part of the Civil
Works Program, which directly supports the Department of
                                                                                                                    Civil Works 5
                                                                                                  Management’s Discussion and Analysis

Hydropower                                                            (3) manage and conserve natural resources consistent with
The Corps’ multipurpose authorities provide hydroelectric             ecosystem management principles.
power as an additional benefit of projects built for navigation
                                                                      The Corps administers 4,248 recreation sites at 422 projects on
and flood control. The Corps is the largest owner-operator of
                                                                      12 million acres of land. During FY 2012, 10 percent of the U.S.
hydroelectric power plants in the United States, and one of the
                                                                      population visited a Corps’ project at least once. These visitors
largest in the world. The Corps operates 350 generating units
                                                                      spent $16 billion pursuing their favorite outdoor recreation
at 75 multipurpose reservoirs, mostly in the Pacific Northwest;
                                                                      activities, which, in turn, supported some 270,000 full- and part-
they account for about 24 percent of America’s hydroelectric
                                                                      time jobs.
power and approximately 3 percent of the country’s total
electric-generating capacity. Its hydroelectric plants produce        In FY 2012, the Recreation business line accounted for
nearly 70 billion kilowatt-hours each year, which is sufficient to    approximately $243 million, or 4.8 percent of the Civil Works
serve nearly 7 million households, or roughly 11 cities the size of   Program appropriations.
Seattle, Washington. Hydropower is a renewable source of energy,
producing none of the airborne emissions that contribute to acid
rain or the greenhouse effect.                                        Water Storage for Water Supply
                                                                      Conscientious management of the nation’s water supply is
In FY 2012, the Hydropower business line, approximately               critical to limiting water shortages and lessening the impact
$192 million, accounted for just under 4 percent of Civil Works       of droughts. The Corps has an important role to play in
Program appropriations.                                               ensuring that homes, businesses, and industries, nationwide,
                                                                      have enough water to meet their needs. It retains authority for
                                                                      water supply in connection with construction, operation and
Recreation
                                                                      modification of federal navigation, flood damage reduction, and
The Corps is an important provider of outdoor recreation, which
                                                                      multipurpose projects.
is an ancillary benefit of its flood prevention and navigation
projects. The Corps’ Recreation business line provides quality        In FY 2012, this business line accounted for approximately
outdoor public recreation experiences in accordance with its          $6 million, or just one-tenth of 1 percent of Civil Works
three-part mission to (1) serve the needs of present and future       Program  appropriations.
generations; (2) contribute to the quality of American life; and,




Chattahoochee River adventure race. U.S. Corps of Engineers photo by Steven Rector.
6    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Organizational Structure

The Workforce
USACE employs approximately 36,000 people, including                                            The distribution of employees highlights the Civil Works
650 military officers and 25,000 civilians who perform Civil                                    Program’s customer focus: 95 percent of employees work at the
Works duties. It is funded through the Energy and Water                                         district level (in labs or field operating agencies) and demonstrate
Development appropriation and executes its missions through                                     the fact that project management, operations, and maintenance
8 of its 9 regional divisions and 38 of the Corps’ 44 districts;                                activities are performed at the local (district) level. The Civil
the remaining districts are dedicated solely to military-related                                Works program contracts out all of its construction, and most
missions.                                                                                       of its design work, to civilian companies. As many as 150,000
                                                                                                people are indirectly employed in support of Civil Works
Figure 2 shows the division boundaries, which are defined by                                    projects, and the Corps’ contractual arrangements have served the
watersheds and drainage basins and reflect the water resources                                  nation well in times of emergency.
nature of the Civil Works’ mission. Through its Pacific Ocean
and South Atlantic Divisions, USACE also has Civil Works
responsibilities in the Territory of American Samoa, the Territory
of Guam, the Commonwealth of the Northern Mariana Islands,
the Commonwealth of Puerto Rico, and the U.S. Virgin Islands.

Figure 2. Civil Works Boundaries

                                                                                                                                                                 norTh aTlanTiC
                                                                                                                                                                    division

                                Seattle
                                                                                                                     greaT lakes
                                                                                                                     & ohio river
       Alaska
                                                                                                                       division
                                     Walla
                    Portland         Walla                                                                                                                              Concord
                                                       norThwesTern                      St. Paul                                       Buffalo
                                                          division
                                                                                                                          Detroit
                                                                                                                                          Pittsburgh              New York
                                                                                                     Rock
                                                                                                     Island                 Chicago                              Philadelphia
                                                                                 Omaha                                                                         Baltimore
                        Sacramento                                                                                              Cincinnati
                                                                                                                                                        Winchester
                                                                                  Kansas City                 St. Louis
                    San                                                                                                                                      Norfolk
                    Francisco                                                                                              Louisville         Huntington                  TransaTlanTiC
                                          souTh paCifiC                                                                                                                  and middle easT
                                            division                                                                            Nashville                                    division
                                                                                                Little Rock
                             Los                                                     Tulsa
                             Angeles                                                                                  Memphis                              Wilmington
                                                                           souThwesTern
                                                        Albuquerque                                                                                      Charleston
                                                                              division                                              Atlanta
                                                                                                                                                     Savannah
                                                                             Ft. Worth                                      Mobile
                                                                                                        Vicksburg                                    Jacksonville
                                                                                          Dallas
         Honolulu
                                     paCifiC oCean                                                                         New                             souTh aTlanTiC
                                                                                  Galveston
                                       division                                                                            Orleans                            division

     Korea
                                                                                                      mississippi valley
                                    oTher Commands                                                         division
                                    Engineer Research and Development Center
                                    Engineering and Support Center, Huntsville                                                                                          Europe District
                                    Army Geospatial Center
                                    USACE Finance Center                                             TransaTlanTiC division
                                    Marine Design Center
                                    Institute for Water Resources
                                                                                                     Gulf Region                      Afghanistan
                Japan                                                                                 Districts                     Engineer Districts
                                    249th Engineer Battalion (Prime Power)
                                    412th Theater Engineer Command
                      key:          416th Theater Engineer Command


                        Follows Watershed Boundaries        Division boundary
                                                                                                         North                          North
                           Div./Regional HQ location        District boundary
                           District HQ location             State boundary                    Iraq

                                                                                                                   South                 South
                                                                                                                    Civil Works 7
                                                                                                  Management’s Discussion and Analysis

The Leadership
Civil Works oversight is provided through five levels of authority.
As shown in Figure 3, the Assistant Secretary of the Army for
Civil Works [ASA(CW)] a presidential appointee, is responsible
for Civil Works policy. The Chief of Engineers is a military officer
who reports to the ASA(CW) and is responsible for mission
accomplishment. The Chief of Engineers delegates program
management to the Deputy Commanding General (DCG)
for Civil and Emergency Operations, who further delegates
management of the Civil Works Program to the Director of
Civil Works. Through the DCG for Civil and Emergency
Operations and the Director of Civil Works, the Chief of
Engineers is responsible for the leadership and management of
the overall program and for ensuring that policies established by
the ASA(CW) are applied to all aspects of the mission. Corps
divisions, commanded by division engineers, are regional offices
responsible for the supervision and management of subordinate
districts, to include oversight and quality assurance. Districts are
the foundation of the Civil Works mission which is managing
water resource development over a project’s life cycle.


Figure 3. Civil Works Levels of Authority
                                                                       John H. Kerr Dam and Reservoir, Steel Creek Marina. U.S. Corps
                                                                       of Engineers photo by Joshua Davis.



                            ASA (CW)
                       Provides policy guidance



                     Chief of Engineers
                        Applies policy guidance


     DCG for Civil & Emergency Operations
               Acts on behalf of the Chief of Engineers
                         in policy guidance


                  Director of Civil Works
                Acts on behalf of the DCG for Civil and
               Emergency Operations in policy guidance



                           8 Divisions
                    Supervise and manage districts
                Perform district-level quality assurance



      Plan                                           Operate
                          38 Districts
      Design                  Construct              Maintain



                                                                       The U.S. Army Corps of Engineers Philadelphia District
                                                                       commander speaks with the Assistant Secretary of the Army for
                                                                       Civil Works, during a tour of Prompton Dam. Photo courtesy of
                                                                       the U.S. Army Corps of Engineers.
8    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




Harvard’s School of Engineering and Applied Sciences and the Escola Politécnica of the Universidade de São Paulo touring Hurricane &
Storm Damage Risk Reduction System (HSDRRS) projects. Photo courtesy of the U.S. Army Corps of Engineers.




Civil Works Program Performance Results
The Civil Works Program has a direct impact on America’s             Priority Goal 2 (Flood Risk Management): Reduce the nation’s
prosperity, competitiveness, quality of life, and environmental      risk of flooding that places individuals at risk of injury or loss
stability. In September 2011, the Corps’ leadership published        of life and damages property. By September 30, 2013, reduce
a new strategic plan to provide a framework for enhancing the        at least 10 dam safety classification ratings, conduct at least 600
sustainability of America’s resources. The plan’s strategic goals    levee risk screenings, and improve the condition rating for at least
support the Corps’ strategic direction over the five-year period,    15 high-consequence projects, which have either failed or have
FY 2011–FY 2015. Key performance measures, developed in              inadequate condition ratings.
conjunction with and approved by the Office of Management
and Budget, are presented below.                                     Priority Goal 3 (Inland Navigation): Help facilitate commercial
                                                                     navigation by providing safe, reliable, highly cost-effective, and
                                                                     environmentally-sustainable waterborne transportation systems.
Priority Goals                                                       Through September 30, 2013, limit annual lock closures due to
In support of the Presidential Administration’s drive toward a       mechanical failures of main lock chambers on high and moderate
more efficient, effective, and transparent government, federal       use waterways to no more than 46 for closures lasting more
agencies identified new Priority Goals for FY 2012–FY 2013. The      than 1 day, and no more than 26 for closures lasting more than
USACE Civil Works Program has chosen to emphasize four goals         one week.
that support the Administration’s broader policy priorities and
which, simultaneously, have high and direct public value. These      Priority Goal 4 (Hydropower): Improve the current operating
goals are:                                                           performance and asset reliability of hydropower plants in
                                                                     support of Executive Order 13514. By September 30, 2013,
Priority Goal 1 (Aquatic Ecosystem Restoration): By                  the Corps, the Department of Energy Power Marketing
September 30, 2013, consistent with the federal restoration          Administrations (PMA), and PMA preference customers will
strategies developed for each unique ecosystem, the Corps will       implement sub-agreements that will provide funds to accomplish
show progress through completion of identified study, design,        major maintenance and/or major rehabilitation on existing
and construction activities that will contribute to a long-term      power plants.
goal of improved ecological conditions in the Great Lakes Basin,
the Everglades, and the Columbia River basin.                        The FY 2012 performance on these Priority Goals is discussed in
                                                                     the relevant business line sections.
                                                                                                                    Civil Works 9
                                                                                                  Management’s Discussion and Analysis

Strategic Goal 1: Assist in Providing Safe and Resilient             to protect the nation from flooding and to provide flood-risk
Communities and Infrastructure.                                      measures and programs that will minimize risk to human life and
                                                                     properties within our local communities.
Flood Risk Management
The primary objectives of the FRM business line follow:              Within the investigations program, the following was accomplished:

     ÂÂ Invest in environmentally-sustainable flood and coastal           ÂÂ A Chief of Engineer’s report for the Ohio River
        storm damage reduction solutions through the safe                    shoreline, Paducah, Kentucky, reconstruction project
        operation of flood reduction infrastructure when                     was signed on May 16, 2012.
        benefits exceed costs.
                                                                          ÂÂ The Encinitas Solana Beach, California project, a
     ÂÂ Reduce the nation’s risk of flooding, which damages                  shoreline beach erosion project, was scheduled for
        property and places individuals at risk of injury or loss            completion in FY 2012; however, due to unexpected
        of life.                                                             complexities with the environmental documentation
                                                                             and required coordination with resource agencies, this
Funding History: The first rows of Table 1 and Table 2 display
                                                                             project will now be completed in FY 2013. Significant
FRM funding.
                                                                             progress continues to be made on this project, e.g., the
Performance Indicators: To measure its progress in meeting                   alternative formulation briefing, held in September
Goal 1 objectives, the Corps uses performance indicators                     2012, and the Civil Works Review Board scheduled for
described below; their measures are shown in Tables 1 and 2.                 May 2013.

Construction measures for Flood Risk Management                           ÂÂ The Edisto Island, South Carolina study was advanced
                                                                             to the alternative milestone using the specific,
Additional people protected. The increase in total affected                  measurable, attainable, risk-informed, and timely
population, with reduced risk at project design, attributed to               (SMART) planning process, which was initiated
project completion in the current fiscal year.                               in FY 2012 to better utilize the highest performing
                                                                             projects and activities within the Corps’ main water
Flood damage prevented. The estimated annual dollars of                      resources missions. The SMART planning process
property damage avoided through Corps’ flood control projects                provides tools and techniques to implement feasibility
completed during the fiscal year.                                            studies in a more cost-effective manner.
Ten-year moving average. The 10-year moving average of actual        Construction funding was used to continue work on
flood-damage reduction benefits attributable to all completed        55 construction projects and to complete several projects that
Corps’ flood control projects.                                       will provide flood risk reduction to 135,000 people and prevent
The following are the new performance measures for which data were   $27.5 million dollars in potential damages. Construction funding
collected in FY 2010 and reporting began in FY 2011:                 was also used to continue construction on four high-risk DSAC
                                                                     I dams (Wolf Creek, Center Hill, Clearwater, and Herbert
Dam safety action class (DSAC) I, II, III dams under study.          Hoover) and four DSAC II dams (Bluestone, Dover, Canton,
The number of DSAC I, II, and III projects under dam safety          and Emsworth). In addition, design work for two DSAC II dams
and seepage/stability study.                                         was completed.

DSAC I, II, III dams with completed studies. The number              Dam Safety and Seepage/Stability Correction Program
of DSAC I, II, and III projects with complete dam safety             construction funds were used to continue dam safety
modification reports.                                                modification studies for eight DSAC I dams and nine DSAC II
                                                                     dams, to include the dam safety modification report for Rough
DSAC I, II, III dams under remediation. The number of                River Dam (DSAC II), completed in August 2012.
DSAC I, II, and III projects under remediation construction.
                                                                     Additionally, based on completed studies, the Dam Safety
Performance Results—Construction and Investigations                  Program approved seven DSAC improvements in FY 2012:
Investigations funding was used in FY 2012 to advance                     ÂÂ Westville Dam, DSAC Level I to IV, based on a dam
19 continuing feasibility studies and preconstruction,                       safety modification study.
engineering, and designs (PED) work for a total cost of
$45.3 million. A portion of the funding was used to complete              ÂÂ Proctor Dam, DSAC Level II to III, based on an issue
four investigations studies. Funds used in FY 2012 continue                  evaluation study.
10     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


                                                                 ÂÂ Curwensville Dam, DSAC Level II to IV, based on an issue evaluation study.

                                                                 ÂÂ Dworshak Dam, DSAC Level II to III, based on an issue evaluation study.

                                                                 ÂÂ Tenkiller Dam, DSAC Level III to IV, based on a screening for portfolio risk
                                                                    analysis (SPRA) re-evaluation.

                                                                 ÂÂ Arkabutla Dam, DSAC Level II to IV, based on an SPRA re-evaluation.

                                                                 ÂÂ DePere Dam, DSAC Level II to IV, based on an SPRA re-evaluation.


Garrison Dam releasing water into the                     In FY 2012, the Corps continued to expand the collaboration of state-level
Missouri River. North Dakota National                     intergovernmental partnerships (Silver Jackets teams). Currently, 35 state teams have
Guard photo by Bill Prokopyk.
                                                          been formed and are actively working to address state flood mitigation priorities and
                                                          actions that will result in coordinated intergovernmental actions to reduce flood risks
                                                          and losses.


Table 1. Construction &
Investigation—Flood Risk                                                                                                                       FY 2012
Management
                                                               FY 2009                FY 2010                FY 2011                 Target                Actual
           Expenditures in millions of dollars                         $1,343                $2,767                 $2,172                   $909                $1,427
 Additional people protected in thousands                                 645                      37                    35                   135                      135
                     Flood damage prevented
                                                                        $10.4                  $28.0                   $9.8                 $27.3                    $27.5
                          in millions of dollars
                     Ten-year moving average
                                                                        $23.1                  $25.2                 $37.1                      Note 1
                          in billions of dollars
               DSAC I, II, III dams under study                                                    28                    75                     65                     903
                         DSAC I, II, III dams with
                                                                 Note 2                             2                      5                     7                      54
                            completed studies
       DSAC I, II, III dams under remediation                                                       8                      9                     9                      10
 Note 1: Data are collected from actual floods occurring throughout the year and data become available in March following the year of interest. The Corps makes no
 predictions or targets year-to-year; data are used for trend analysis only.
 Note 2: Data collection for this measure began in FY 2010.
 Note 3: Early in FY 2012 approximately 50 DSAC II and III study projects were put on hold to focus limited resources on the higher DSAC I and II priority projects.
 Many of the suspended projects are expected to be resumed as higher priority projects are completed and resources become available in FY 2013.
 Note 4: Two additional Dam Safety Modification Report projects (Isabella Dam and Addicks and Barker Dams) were scheduled to be completed by the end of FY 2012
 but were delayed due to longer than anticipated review comment resolution and delays in the National Environmental Policy Act (NEPA) process. These reports are now
 expected to be completed early in FY 2013.


                                                          Operations and maintenance measures for Flood Risk Management

                                                          Operating projects in zones 21-25 (low risk). The percentage of operating projects
                                                          (dams, levees, channels, flood gates) in zones 21-25 of the relative risk ranking matrix.

                                                          Operating projects in zones 1-6 (high risk). The percentage of operating projects
                                                          (dams, levees, channels, flood gates) in zones 1-6 of the relative risk ranking matrix.

                                                          Marginal cost of operations. The marginal cost of operations and maintenance
                                                          (O&M) for all operating projects (dams, levees, channels, and flood gates) relative to
                                                          damages prevented; shown as a percentage, i.e., the cost of O&M divided by the cost of
                                                          damages prevented.
                                                                                                                                 Civil Works 11
                                                                                                              Management’s Discussion and Analysis

                                                           The following three measures comprise the FY 2012-2013 FRM priority goal:

                                                           Number of dam safety classification ratings reduced. The number of dam safety risk
                                                           classification improvements on Corps-operated dams resulting from risk assessment
                                                           analysis and safety improvements implemented.

                                                           Levee risk screenings conducted. The number of portfolio risk screening and periodic
                                                           inspections conducted on levee systems with the Corps Levee Safety Program.

                                                           High-consequence project condition rating improvement. The number of Corps
                                                           projects with an improved overall project condition rating resulting from maintenance
                                                           work completed.

                                                           Performance Results—Operations and Maintenance

                                                           The FY 2012 O&M funding supported operation of 396 FRM projects, including the
                                                           Mississippi River and Tributary system, in order to maintain basic operations for flood
                                                           damage reduction purposes as well as the integrity of project objective and function.
                                                           Additionally, funding was used for the following condition-improvement maintenance
                                                           activities: (1) seven projects with failing and inadequate condition ratings and high
                                                           consequences; (2) levee safety inspections of non-federally operated projects to assess
                                                           proper project condition and operations; and, (3) critical dam safety interim risk
                                                           reduction measures on high-risk dams.

The U.S. Army Corps of Engineers St.                       Priority Goal
Louis District dewatered Wappapello
Lake’s Dam during the periodic inspection                  The FRM business line Priority Goal is to reduce the nation’s risk of flooding, which
of the Dam and Gatehouse control                           poses a risk to individuals and property. The goal target is to improve at least 10 DSAC
structure. Photo courtesy of the U.S.
Army Corps of Engineers.
                                                           ratings, conduct at least 600 periodic levee inspections or levee risk screenings, and
                                                           improve the condition rating for at least 13 high-consequence projects that have failed
                                                           or received inadequate condition ratings by September 30, 2013. As of September 30,
                                                           2012, 326 levee safety periodic inspections and levee risk screenings have been
                                                           completed; DSAC improvements were made to seven dams. In addition, maintenance
                                                           work to improve the condition rating on the 13 high-consequence projects is on
                                                           schedule to achieve or exceed performance goal targets. These three FRM Priority Goal
                                                           measures are shown in bold in Table 2.

Table 2. Operations and
Maintenance—Flood Risk                                                                                                         FY 2012
Management
                                                                  FY 2009        FY 2010           FY 2011            Target             Actual
          Expenditures in millions of dollars                          $858             $887              $855              $516            $1,087
                          Operating projects in
                                                                            50             80                33                 24                 28
                          zones 21-25 (low risk)
                           Operating projects in
                                                                            74             85              136                  43                 90
                            zones 1-6 (high risk)
                   Marginal cost of operations                         3.7%             2.3%              3.1%             2.50%             2.50%
     Number of dam safety classification
                                                                                                                                 5                  7
                       ratings reduced
         Levee risk screenings conducted                                          Note 1                                       300                326
  High-consequence projects improved
                                                                                                                                 4                  5
                     condition rating
Note 1: FY 2012 is the first year of reporting on this measure.
12   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


                                     Emergency Management
                                     This business line strives to manage the risks associated with all types of hazards and
                                     increase Civil Works emergency management responsiveness to disasters in support
                                     of federal, state, and local emergency management efforts. Disaster preparedness and
                                     response capabilities are not only limited to water-related events, but also draw on the
                                     Corps’ engineering skills and management capabilities in responding to a broad range
                                     of natural disasters and national emergencies. The Corps is mindful that emergency
                                     readiness contributes to national security. The primary objectives of this business line
                                     are to:

                                         ÂÂ Attain and maintain a high, consistent state of preparedness.
                                         ÂÂ Provide a rapid, effective, and efficient all-hazards response.
                                         ÂÂ Ensure effective and efficient long-term recovery operations.

                                     Funding History: The first row of Table 3 indicates funding for emergency preparedness
                                     and response and recovery operations.

                                     Performance Indicators: The four primary measures listed in Table 3 assist in
                                     determining progress toward meeting the Corps’ emergency management objectives.
                                     Indicators are explained below.

                                         1.	 Planning response team readiness. The Corps established designated planning
                                             and response teams (PRTs) organized to provide rapid emergency response
                                             within a specific mission area. This measure is calculated as a percentage of time
                                             during the fiscal year during which PRTs are fully staffed, trained, and ready
                                             to deploy.

                                         2.	 Project inspection performance. The Corps performs inspections of flood
                                             control works operated and maintained by public sponsors to ensure and
                                             assess their O&M condition. This measure is determined by the percentage of
                                             scheduled inspections completed during the fiscal year.

                                         3.	 Damaged project restoration. The Corps repairs flood control projects
                                             damaged by floods or storms under authority of P.L. 84-99. This measure is
                                             the percentage of projects damaged during a fiscal year and repaired prior to the
                                             next flood season.

                                         4.	 Project condition ratings. Under the Corps’ Rehabilitation and Inspection
                                             Program, inspected projects are given condition ratings characterizing their
                                             state of maintenance. This measure is the percentage of total projects inspected
                                             during the fiscal year that received a rating of at least “Minimally Acceptable.”

                                     Performance Results

                                     The flooding in the Missouri River Basin continued into early FY 2012. Additional
                                     emergency response events included the Kootenai River, Hurricane Irene, Hurricane
                                     Debby, and Hurricane Isaac. Northwestern and northeastern storms resulted in technical
                                     or direct assistance in Kansas, Louisiana, Minnesota, Missouri, Mississippi, Montana,
                                     Idaho, Oregon, Nebraska, Tennessee, Washington, Wisconsin, Maine, and New York.

                                     In FY 2012, the Corps’ flood response provided more than 300 super sacks and over
                                     300 million sand bags, allocating $7.1 million in flood control and coastal emergencies
                                     funding, and accepting $372 million in FEMA mission assignments under the National
                                     Response Framework. The drastic effects of slow-moving Hurricane Isaac tested
                                     the $14 billion Hurricane Storm Damage Risk Reduction System in New Orleans,
                                     closing all major structures. Unlike FY 2011, significant drought conditions persisted
                                     throughout the Midwest, lower and middle parts of the Mississippi Valley, and the
                                     Central Plains.
                                                                                                                                             Civil Works 13
                                                                                                                          Management’s Discussion and Analysis


Table 3. Emergency Management Indicators                                                                                                        FY 2012
                                                                                        FY 2009      1
                                                                                                         FY 2010     1
                                                                                                                          FY 2011    1
                                                                                                                                           Target2    Actual1
                                        Expenditures in millions of dollars                  $1,405           $1,515          $1,857           $119       $1,165
                                       Planning response team readiness                         83%              87%                96%        78%          96%
                                           Project inspection performance                       67%              77%                70%        70%          86%
                                              Damaged project restoration                       14%              61%                27%        55%          68%
                                                   Project condition ratings                    79%              67%                89%        63%          91%
 Note 1: Additional funding was provided in supplemental appropriations to repair projects damaged by coastal storm and flooding.
 Note 2: The funding target for FY 2012 included $34 million to fund preparedness activities and $85 million to repair damaged projects.


Strategic Goal 2: Help Facilitate Commercial Navigation                                            Chief of Engineers’ reports recommending projects for
in an Environmentally- and Economically-Sustainable                                                authorization that meet criteria for industry-accepted
Fashion                                                                                            watershed principles. This measure expresses a long-
                                                                                                   term goal and assesses progress achieved in watershed-
Navigation
                                                                                                   based planning.
The primary objectives of the Navigation business line are to:
                                                                                             ÂÂ Average annual benefits attributable to
     ÂÂ Invest in navigation infrastructure that is fully
                                                                                                preconstruction engineering and design work
        capable of supporting maritime requirements in
                                                                                                completed in current fiscal year. This is the total
        environmentally-sustainable ways when economically
                                                                                                average annual benefits (present value) attributable to
        justified.
                                                                                                PEDs. This measure assesses the effectiveness of PED in
     ÂÂ Improve the efficiency and effectiveness of existing                                    enabling transportation savings.
        Corps’ water resource projects by maintaining justified
                                                                                             ÂÂ Average annual benefits realized by construction
        levels of service to commercial traffic of high-use
                                                                                                projects completed in current fiscal year. The total
        infrastructure, e.g., waterways, harbors, and channels.
                                                                                                average annual benefits (present value) realized by
     ÂÂ Address the O&M backlog by funding high-priority                                        completed construction projects. This measure assesses
        O&M projects.                                                                           the effectiveness of the construction program in
                                                                                                realizing transportation savings.
Funding History: The first rows of Table 4 and Table 5 indicate
Navigation funding.

Performance Indicators: To measure progress in meeting
Goal 2 objectives, the Corps uses performance indicators.
These indicators relate to activities for inland and intracoastal
waterways, coastal ports, and harbors as well as to the efficiency
of the overall navigation system. The indicators are described
below and their measures are shown in Table 4 and Table 5.

Construction measures for the navigation system

In FY 2008, the Corps instituted the following performance
measures:

     ÂÂ High-return investments. The percentage of funding
        to rehabilitate, construct, or expand projects that are
        allocated to high-return investments. High-return
        investment projects are those with a benefit-to-cost ratio
        (BCR) of 3.0 or greater.
                                                                                       The pink tints of the rising sun cast a warm light on an otherwise
     ÂÂ Percentage of reports recommending projects                                    chilly scene as the Paul R. Tregurtha eases into the Poe Lock.
        reflecting watershed principles. The percentage of                             U.S. Army Corps of Engineers photo by Michelle Hill.
14    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




The Western tie-In project along the west bank of the Mississippi River. Photo courtesy of the U.S. Army Corps of Engineers.




Performance Results - Construction and Investigations                 Funding for inland waterway projects remains constrained by the
                                                                      low balance in the IWTF and collected fuel-tax revenues, which
Investigations funds of $18 million were used at various locations    fund 50 percent of the costs for inland projects on the fuel-taxed
throughout the nation to continue the study and design of             waterways. As the Corps continues to assess the condition of
navigation improvements, exemplified by (1) replacing locks on        the nation’s dams, it must address human safety and navigation
the Mississippi and Ohio Rivers, Gulf Intracoastal Waterway, and      reliability issues discovered. These dam safety projects are given
Illinois Waterway; (2) deepening of key ports, e.g., Charleston,      funding priority, and together with the constrained IWTF,
Savannah, Miami, and Freeport; and, (3) increasing economic           necessitate deferring or delaying many critical projects.
benefits, reducing transportation costs, and improving the overall
reliability of the navigation infrastructure. Chief of Engineers’     Construction funds of $233 million for coastal navigation
reports were completed for the Savannah, Georgia Harbor               projects were used for (1) major channel-deepening improvement
Expansion project to deepen the channels from 42 to 47 feet and       projects, such as Long Beach Harbor, California, New York and
the Jacksonville, Florida Mile Point project to improve navigation    New Jersey Harbor, Delaware River Main Channel (Delaware,
conditions for deep-draft vessels in the St. Johns River.             New York, Pennsylvania), and Wilmington Harbor, North
                                                                      Carolina; (2) construction of dredged material and beneficial
Construction funds of $282 million for inland waterways were          use placement sites, including the Craney Island site for Norfolk
used to complete major rehabilitation projects: (1) Markland          Harbor; and completion of the Indiana Harbor Confined
Lock and Dam (L&D); (2) Ohio River main lock chamber;                 Placement Facility, which will provide an estimated $21 million
(3) continued major rehabilitation of L&D 27, Mississippi River,      in benefits; (3) mitigation of shoreline damages caused by
Lockport L&D, Illinois Waterway, and Emsworth L&D, Ohio               navigation projects; and, (4) completion of construction at
River; (4) continued construction of replacement L&Ds, such as        Douglas Harbor, Alaska and Northwest Tennessee Harbor, Lake
Olmsted L&D, Ohio River and L&Ds 2, 3, and 4, Monongahela             County, Tennessee, which, together, will provide $2.8 million
River. Construction of Kentucky Lock and Chickamauga Lock             in benefits, and initiation of navigation improvements at Sitka
on the Tennessee River continued using previously appropriated        Harbor, Alaska.
Inland Waterways Trust Fund (IWTF), ARRA, and Construction
funds. Approximately 97 percent of the funds were programmed
for high-return investments.
                                                                                                                              Civil Works 15
                                                                                                             Management’s Discussion and Analysis


Table 4. Navigation Construction and Investigation                                                                               FY 2012
Performance Indicators                                                                 FY 2009    FY 2010    FY 2011       Target        Actual
                                      Expenditures in millions of dollars                 $597       $753         $654         $377          $533
          Inland                     Percentage of funds to high-return
                                                                                           42%        76%         94%           97%           97%
      Waterways                                  investments (BCR > 3)
                       Percentage of reports recommending projects
                                                                                            0%         Note 1                  100%         100%
                                      reflecting watershed principles
                                   Average annual benefits attributable
    Coastal Ports                        to PEDs completed in current                      $7.9                     Note 2
    and Harbors                                FY in millions of dollars
                                   Average annual benefits realized by
                                      construction projects completed                      $8.3      $44.7        $3.6         $20.0        $23.8
                              in current fiscal year in millions of dollars
 Note 1: No Chief of Engineers reports or PEDs were completed in FY 2010 or FY 2011.
 Note 2: No PEDs were completed in FY 2010, FY 2011, or FY 2012.


                                                        Operations and maintenance measures for inland and intracoastal waterways

                                                        Ton-miles. The sum total of movement of cargo on a specific waterway; this measure
                                                        is a roll-up of tons of cargo transported by a vessel multiplied by the miles that vessel
                                                        traveled on the particular inland or intracoastal waterway. Although there is no specific
                                                        Corps generated target, this indicator is used for trend analysis.

                                                        Segment availability. The number of hours, in excess of 24, that mechanical-driven
                                                        failure or shoaling results in the closure of all, or part of, a high- or moderate-
                                                        commercial-use segment. The measure includes only failures on the main chamber of
                                                        a lock (rather than an auxiliary chamber) and on shoaling due to inadequate dredging
                                                        (rather than low water levels from droughts or channels closed due to floods). It also
                                                        tracks closures of more than one week. The two measures that were developed for the
                                                        Navigation Priority Goal—preventable lock closures over 1 day, and over 7 days—are
A tugboat pulls a barge through the                     proxies for this measure.
chamber at McAlpine Locks and Dam.
U.S. Army Corps of Engineers photo by                   Total funds expended per segment ton-mile (five-year rolling average). Total O&M
Charles Gauld.
                                                        funds expended per segment ton-mile averaged over a five-year period, including major
                                                        rehabilitations.

                                                        Efficiency measure. This measures the O&M costs per ton of cargo shipped. It assesses
                                                        the efficiency of the commercial navigation system at a particular coastal port or harbor.

                                                        Operations and maintenance measures for coastal ports and harbors, including
                                                        major repairs

                                                        Tons of cargo. Total sum of cargo in tons moved in and out of coastal ports and harbor
                                                        systems. This measure indicates system use; data collected are for the purpose of trend
                                                        analysis. No specific target is generated by the Corps.

                                                        Channel availability, high-use projects. This represents the percentage of time that
                                                        high commercial traffic navigation channels are available to commercial users. There
                                                        are a total of 59 high-use projects, defined as those that pass 10 million or more tons of
                                                        cargo per year.
16   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


                                     Performance Results

                                     This business line continues to be successful in providing significant navigation benefits
                                     to the nation; however, it faces considerable challenges in its efforts to maintain the
                                     reliability of the inland and intracoastal waterways and coastal navigation system. The
                                     system’s aging infrastructure requires more repairs than the Corps can accomplish given
                                     the historical level of navigation appropriations. Over one-half of the Corps’ locks have
                                     exceeded their 50-year service life and require increased maintenance to keep them
                                     functioning. Funding shortfalls, coupled with increased costs for dredging operations
                                     and construction, are affecting the Corps’ ability to properly maintain its navigation
                                     infrastructure and channels. There has been a significant increase in dredging costs
                                     in recent years, which corresponds to the near doubling of fuel purchasing costs and
                                     significant increases in steel and labor costs. Also, many of the channel-deepening
                                     projects completed over the past few years require additional maintenance dredging.
                                     In addition, new environmental requirements and the construction of new, more
                                     distant dredged material placement sites have increased the costs of channel-dredging.
                                     Although other factors may limit or control channel availability, the ability to maintain
                                     an acceptable channel width and depth through dredging operations has, by far, the
                                     greatest impact.

                                     Performance Results—Operations and Maintenance

                                     The Operation and Maintenance and the Mississippi River and Tributaries
                                     appropriations of $1.66 billion were used to fund (1) continued operation and
                                     maintenance of 220 locks at 177 locations and, (2) maintenance dredging of critical and
                                     high commercial-use reaches of the 12,000 miles of inland and intracoastal waterways.
                                     Not all waterways were maintained at authorized dimensions. Many locks and dams
                                     received only the most critically-needed maintenance; some locks, dams, and waterways
                                     were only maintained in caretaker status. The overall condition of the inland and
                                     intracoastal waterways is expected to decline, and projects will continue to experience
                                     lock closures due to mechanical breakdowns and failures.

                                     Funding also enabled maintenance dredging of high-use, commercially-important
                                     coastal ports, harbors, and channels; critical harbors of refuge; and subsistence harbors.
                                     Many high- and moderate-commercial-use projects did not receive sufficient funds
                                     to maintain constructed project dimensions and most low commercial-use harbors
                                     and channels were not dredged and continue to shoal, further limiting vessel drafts.
                                     For the 59 highest-use coastal ports and harbors, channel conditions are expected
                                     to continue to decline due to constrained funding and large increases in the costs of
                                     doing business, particularly as they relate to fuel, steel, and labor. Dredging costs have
                                     increased significantly over the past four to five years. For these projects, authorized
                                     channel depths (for the channel’s center half ) were available approximately 35 percent
                                     of the time during FY 2005–FY 2008. The condition of moderate-and low-use inland
                                     and intracoastal waterways, as well as coastal ports and harbors, is expected to continue
                                     to decline.

                                     Supplemental appropriations were used to perform additional maintenance of inland
                                     and intracoastal waterways and dredging and maintenance of coastal ports and harbors
                                     in order to restore projects damaged by flooding to pre-storm conditions. These funds
                                     will help (1) improve the overall condition of the inland and intracoastal waterways,
                                     (2) reduce lock closures due to mechanical breakdowns and failures, and (3) improve the
                                     conditions of coastal ports and harbors.
                                                                                                                                         Civil Works 17
                                                                                                                         Management’s Discussion and Analysis

Priority Goal                                                                         closures will continue to increase over the next several years
                                                                                      and it further anticipates that the five-year median target will
The measures, targets, and results for the Inland Navigation                          increase accordingly. The Corps is prioritizing its annual funding
Priority Goal are shown in bold typeface in the table below. The                      and is completing repairs and maintenance work on locks with
targets are based on the median annual number of closures over                        Recovery Act investments, which will help arrest the increase
the previous five years. The instances and hours of scheduled                         in lock closures. These factors, together with anticipated higher
and unscheduled lock closures due to mechanical failures have                         targets, will increase our ability to achieve our Priority Goal.
been increasing since FY 2000. The Corps anticipates lock


Table 5. Navigation, Operations and Maintenance                                                                                            FY 2012
Activities Performance Indicators                                                       FY 2009          FY 2010         FY 2011      Target       Actual
                                          Expenditures in millions of dollars                $1,653             $2,281      $1,878      $1,505       $1,662
                                       Segment availability—closures over
                                                                                                11.1              19.6        23.1    Note 1           16.5
                                           24 hours in thousands of hours
                                 Total O&M funds expended per segment
                                                                                           $0.0021          $0.0024        $0.0025     $0.0025
     Inland                              ton-mile (5-year rolling average)
    waterways                                                                                                                                      Note 2
                        Ton-miles in billions of ton—miles by fiscal year                        222              261          242    Note 1
                                                       Efficiency—cost per ton                $0.83              $1.75       $1.26        $1.50
                               Preventable lock closures over 24 hours                            37               61           50          46           39
                                  Preventable lock closures over 7 days                           19               37           26          26           19
  Coastal ports                               Tons of cargo in billions of tons               1.807              1.856       1.914    Note 1
                                                                                                                                                   Note 2
  and harbors                       Channel availability, high-use projects                     50%               38%     Note 3           40%
 Note 1: The Corps does not set targets for these measures.
 Note 2: Waterborne Commerce Statistics Center data for FY 2012 will not be available until late spring 2013.
 Note 3: Data unavailable at time of printing.



Strategic Goal 3: Restore Degraded Aquatic Ecosystems and                             Performance Results
Prevent Future Environmental Losses
                                                                                      Substantial funding was provided to continue efforts in
Aquatic Ecosystem Restoration                                                         four of the five administration priority ecosystems. This
Objective:	 Restore the structure, function, and process of                           includes (1) implementation of Everglades restoration efforts,
            significantly degraded ecosystems to allow them                           (2) modifications to the Chicago Sanitary and Ship Canal to
            to revert to a more natural condition. Invest in                          prohibit Asian Carp from entering the Great Lakes from the
            restoration projects or features that positively                          Mississippi River, (3) continued restoration of Poplar Island,
            contribute to the nation’s environmental resources in                     Maryland using dredged material from the Baltimore Channel,
            a cost-effective manner.                                                  and, (4) substantial funding of studies in the Louisiana Coastal
                                                                                      Area Program. Among the Corps’ priorities is the multimillion
Funding History: The first row of Table 6 displays the funding
                                                                                      dollar effort directed towards meeting the requirements of
for aquatic ecosystem restoration.
                                                                                      biological opinions affecting various projects on the Columbia
Performance Indicators: The Corps has established two                                 River system and the Missouri River. Other projects receiving
indicators to assess progress in meeting this objective. Data are                     construction funding include restoration of Hamilton Airfield
shown in Table 6.                                                                     Wetlands, California, Napa Salt Marsh, California, and the
                                                                                      Upper Mississippi River. Fifteen ecosystem restoration projects
Acres of habitat restored, created, improved, or protected                            were physically completed in FY 2012, including two juvenile
annually. The number of acres of habitat restored in                                  fish bypass system outfall relocations as part of the Columbia
degraded ecosystems.                                                                  River Fish Mitigation Program. The other 13 projects restored
                                                                                      1,221 acres. Five of the completed projects on the Missouri River
Number of projects or separate elements physically completed.
                                                                                      provide restored habitat for endangered pallid sturgeon, least
This represents the actual number of projects or separate elements
                                                                                      terns, and piping plover as well as other native fish. Three projects
physically completed in the current fiscal year.
                                                                                      were completed in the Great Lakes including one sea lamprey
18    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


barrier. Four coastal projects and one inland wetland restoration     priority ecosystems: the Great Lakes, the Everglades, and the
project were also completed. The Great Lakes Mississippi River        Columbia River.
Inter-basin Study was one among several funded. Six Chief of
Engineer’s reports were approved in FY 2012, including Marsh          The goal consists of a total of 23 milestones, 11 of which were
Lake, Minnesota, two coastal Louisiana projects, and three            scheduled in FY 2012; 9 of which completed. Among the
projects in the Everglades program.                                   projects/products completed were the Great Lakes Aquatic
                                                                      Nuisance Species Control Technologies Report; submission
Priority Goal                                                         of the Comprehensive Everglades Restoration Plan C-111
                                                                      Spreader Canal report to Congress for authorization, and the
The FY 2012-2013 aquatic ecosystem restoration Priority               Columbia River Basin Caspian Tern relocation project. However,
Goal is a milestone-only goal focused on three national               indications are that additional work will need to be done to meet
                                                                      the tern reduction target.

Table 6. Aquatic Ecosystem Restoration Indicators                                                                     FY 2012
                                                                       FY 2009       FY 2010       FY 2011       Target       Actual
                                Expenditures in millions of dollars          $492         $531          $496         $524          $581
                      Acres of habitat restored, created, improved,
                                                                           10,480         4,540       12,200         1,600        1,221
                                              or protected (annual)
                          Number of projects/separable elements
                                                                               14            17           28            20            15
                                          physically completing



                                                                      Regulatory
                                                                      Objective:	 To execute the Corps’ Regulatory mission in a
                                                                                  manner that protects the aquatic environment while
                                                                                  allowing reasonable development through fair and
                                                                                  balanced decision making.

                                                                      Funding History: The first row of Table 7 displays the funding
                                                                      for the Regulatory business line.

                                                                      Performance Indicators: Table 7 lists eight measures that are
                                                                      performance indicators in determining progress in meeting
                                                                      this objective.

                                                                      Individual permit compliance. The percentage of all individual
                                                                      permits on which the Corps completed an initial compliance
                                                                      inspection. Measures permits issued during the previous fiscal
                                                                      year when authorized work began.

                                                                      General permit compliance. The percentage of all general
                                                                      permits on which the Corps completed an initial compliance
                                                                      inspection. Measures the permits issued during the previous fiscal
                                                                      year when authorized work began.

                                                                      Mitigation site compliance. The percentage of field compliance
                                                                      inspections completed on active mitigation sites each fiscal year.
                                                                      Active mitigation sites are those authorized and monitored
                                                                      through the permit process, but which have not met final
                                                                      approval under the permit special conditions.

Osprey on Allatoona Lake. Photo by Brad J. Keshlear.                  Mitigation inspections or audits. This represents the percentage
                                                                      of compliance inspections or audits completed on active
                                                                      mitigation banks and in-lieu-of-fee programs.
                                                                                                                       Civil Works 19
                                                                                                     Management’s Discussion and Analysis

Resolution of noncompliance issues. The percentage of                  of staffing across the nation. This business line continues to
noncompliance issues identified during the fiscal year in which        seek out advancements that can be made by leveraging the
the Corps reached resolution. This addresses noncompliance with        best in available technology and science. Its goal is to place the
permit conditions.                                                     necessary tools and technology in the hands of the field staff
                                                                       so that they may continue to provide exceptional service to
Resolution of enforcement actions. The percentage of pending           stakeholders while meeting the mission—protecting the nation’s
enforcement actions, i.e., unauthorized activities identified during   aquatic environment.
the fiscal year in which the Corps reached resolution.
                                                                       Despite reduced residential and commercial development
General permit decisions. The percentage of general permit             pressures, this business line has experienced an influx of permit
application decisions made within 60 days.                             applications of increasing complexity. The national priority to
Individual permits. The percentage of general individual permit        develop alternative energy sources—wind, solar, hydroelectric as
application decisions made within 120 days. This standard does         well as traditional energy resources (coal, oil, and gas)—involves
not include individual permits with formal Endangered Species          multiple regulatory agencies and associated reviews/approvals,
Act (ESA) consultations.                                               which often generate substantial public interest.

Performance Results                                                    The Regulatory business line will continue to be energy-
                                                                       focused as development of energy resources frequently affects
In FY 2012, the Corps’ Regulatory business line exceeded               aquatic resources. Districts continue to fortify their compliance
the performance targets. As noted below, five of the eight             programs to ensure that activities are properly constructed and
performance indicators are compliance-based in nature and track        appropriately operated, and that the effectiveness of required
compliance at permit and mitigation sites. One of the other            mitigations is well documented. Districts target their efforts
three indicators pertains to enforcement, and the remaining two        toward maximizing performance both locally and regionally,
are related to processing time goals for individual and general        with the goal of executing our Regulatory mission in a clear and
permits. Regulatory funds were used to maintain similar levels         consistent manner for the American public.

Table 7. Regulatory Indicators                                                                                            FY 2012
                                                                        FY 2009        FY 2010       FY 2011        Target        Actual
                                 Expenditures in millions of dollars          $190          $209           $196          $193          $191
      Percentage of compliance inspections on individual permits               25%           26%           27%           10%            24%
        Percentage of compliance inspections on general permits                11%           13%           12%             5%           13%
                    Percentage of active mitigation sites inspected            37%           10%           11%             5%           12%
                            Percentage of compliance inspections
                                                                               44%           34%           37%            20%           35%
                                      on active mitigation banks
          Percentage of resolution on noncompliance with permit
                                                                               38%           40%           40%            20%           39%
                           conditions or mitigation requirements
        Percentage of resolution on pending enforcement actions                37%           38%           37%            20%           39%
                         Percentage of general permit application
                                                                               88%           92%           91%            75%           89%
                                  decisions made within 60 days
          Percentage of standard permits and letter of permission
                                                                               64%           67%           71%            50%           69%
                           permit decisions made within 120 days


Environmental Remediation (Formerly                                    Funding History: The first row of Table 8 displays funding for
Utilized Sites Remedial Action Program)                                environmental remediation.
Objective:	 To achieve the cleanup objectives of the FUSRAP,
            the Corps uses three outcome measures to indicate          Performance Indicators: The measures listed in Table 8 serve
            progress: (1) minimize risk to human health and            as indicators to help Corps’ personnel determine progress
            the environment, (2) maximize the cubic yardage of         in meeting this objective. In addition to the indicators
            contaminated material disposed in a safe and legal         explained below, the Corps has begun to measure both the
            disposal facility, and (3) return the maximum number       cumulative percentage of FUSRAP funding expended on
            of affected individual properties to beneficial use.       actual cleanup activities, as well as the total cost of disposing of
                                                                       contaminated material.
20      Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Number of records of decision (ROD) signed. As studies are                     Remediation of contaminated material. The cost to dispose of
completed and the best alternatives for cleanup activities are                 contaminated material as measured in cubic yards. Data for this
decided, the number of RODs increases. A final ROD establishes                 measure will not be reported again until FY 2013.
the final cleanup standard which controls the actual estimate of
the remaining environmental liability for each site.                           Performance Results

Number of remedial investigations (RI) completed. An RI                        Fiscal Year 2012 funds were used to continue remedial activities
establishes the baseline risk assessment whereby the level of risk to          at the Linde site in Towanda, New York; the Maywood site in
human health and the environment is identified.                                New Jersey; the Shallow Land Disposal Area in Pennsylvania;
                                                                               properties in the vicinity of the St. Louis Airport in Missouri; the
Cubic yardage of contaminated material disposed. Target-                       Iowa Army Ammunition Plant, Iowa; the Hazelwood Interim
soil amounts are dependent on previous year funding and                        Storage /Latty Avenue site in St. Louis, Missouri; and W.R. Grace
scheduled activities.                                                          sites in Baltimore, Maryland.

Individual properties returned to beneficial use. The number                   The scheduled feasibility study for the operable unit at the
of properties released for general use following remediation.                  Harshaw site in Cleveland, Ohio was completed. A ROD was
                                                                               signed for the Maywood, New Jersey Groundwater operable
Number of remedies in place or response complete. As select                    unit. A RI and Baseline Risk Assessment Report for the
portions of sites or complete sites meet their remedial action                 Inaccessible Soil Operable Unit at the St. Louis Downtown Site
goals, risks to human health and the environment are reduced                   (Missouri) was completed. Approximately 97,529 cubic yards of
to within acceptable levels. Properties may be used within a                   contaminated material was removed—exceeding the FY 2012
community without fear of increased cancer risk or further                     target but significantly less than in FY 2011 when funding was
degradation of the environment.                                                reduced. Eleven (121 cumulative) properties were returned to
                                                                               beneficial use. Remedial investigation activities continued at all
Percentage of funding expended on cleanup. The cumulative
                                                                               other FUSRAP sites.
percentage of FUSRAP funding expended on cleanup activities
rather than on studies. The baseline for this measure was                      The FUSRAP met or exceeded all seven of its FY 2012
established in FY 2004; results are reported every three years.                performance indicators. This business line continues to use
                                                                               the Monte Carlo approach to cost and schedule risk analysis, a
                                                                               methodology that continues to improve the Corps’ performance
                                                                               and ability to repair past environmental damage.

Table 8. Remedial Action Indicators                                                                                             FY 2012
                                                                                FY 2009       FY 2010       FY 2011       Target        Actual
                                         Expenditures in millions of dollars          $127         $166          $181          $109            $137
                                                     Number of RODs signed                1            1              3            1              1
                                       Remedial investigations completed                  1            2              0            1              1
           Contaminated material removed in thousand cubic yards                       143           212          129            70              97
                        Individual properties returned to beneficial use                61            92          110           121             121
                                Remedies in place or response complete                    0            1              2            0              0
                          Percentage of funding expended on cleanup                      Note 1                   87%             Note 1
      Cost of remediation of contaminated material per cubic yard                     $496                          Note 2
 Note 1: This measure is cumulative; data is reported every third year.
 Note 2: Results for this measure will not be reported again until FY 2013.


Environmental Stewardship
The primary objectives of the Environmental Stewardship business                    ÂÂ Ensure healthy and sustainable lands and waters and
line are to:                                                                           associated natural resources on Corps’ lands in public
                                                                                       trust to support multiple purposes.
      ÂÂ Improve the efficiency and effectiveness of existing
         Corps water resources projects.                                            ÂÂ Protect, preserve, and restore significant ecological
                                                                                       resources in accordance with master plans.
                                                                                                                    Civil Works 21
                                                                                                   Management’s Discussion and Analysis

     ÂÂ Ensure the operation of all civil works facilities and        Funding History: The first row of Table 9 reflects funding for
        management of associated land—including out-granted           environmental stewardship
        land—complies with the environmental requirements
        of relevant federal, state, and local laws and regulations.   Performance Indicators: To measure success in attaining
                                                                      the above objectives, the Corps developed seven performance
     ÂÂ Meet the mitigation requirements of authorizing               indicators; data may be found in Table 9.
        legislation or applicable Corps authorization
        decision documents.                                           Mitigation compliance. The percentage of acres of designated
                                                                      Corps-administered mitigation lands that meet mitigation
                                                                      requirements, divided by the total number of acres of designated
                                                                      Corps-administered mitigation lands. This measure can also be
                                                                      the number of pounds of fish (or the number of individual fish)
                                                                      produced in a mitigation hatchery, divided by the number of fish
                                                                      required to be produced at a mitigation hatchery in order to meet
                                                                      the mitigation requirement.

                                                                      Endangered species protection. The percentage of Corps
                                                                      operating projects with ESA responsibilities that meet those
                                                                      responsibilities.

                                                                      Cultural resources management. The percentage of operating
                                                                      projects meeting federally-mandated cultural resource
                                                                      management responsibilities in relation to the number of projects
                                                                      with such responsibilities.

                                                                      Healthy and sustainable lands and waters. The number of
                                                                      Corps fee-owned acres classified in a sustainable condition,
Showing off a solar panel at Melvern Lake. This project was           divided by the total number of Corps fee-owned acres.
the first sustainability project to be completed for the Corps in
FY 2012. U.S. Army Corps of Engineers photo by Diana McCoy.
                                                                      “Sustainable” is defined as being healthy and viable, not
                                                                      significantly impacted by any unmanageable factors, and not
                                                                      requiring intensive management to maintain health. The
                                                                      acreage also meets operational goals and objectives established in
                                                                      applicable management documents.

                                                                      Level-one natural resources inventory completion index. This
                                                                      index measures the Corps’ efforts in completing basic, level-one
                                                                      natural resource inventories required by USACE Environmental
                                                                      Regulation 1130-2-540, Environmental Stewardship Operations
                                                                      and Maintenance Policies. These inventories are necessary to effect
                                                                      sound resource management decisions and strategy development.
                                                                      The percentage of acres, for which level-one inventories are
                                                                      necessary and completed, is used to evaluate the relative
                                                                      performance in this measure.

                                                                      Master plan completion. A master plan is completed, per
                                                                      regulation, to foster an efficient and cost-effective project
                                                                      for natural resources, cultural resources, and recreational
                                                                      management programs. This measure demonstrates the Corps’
                                                                      commitment to fully integrate environmental stewardship in the
                                                                      management of operating projects. The measure is expressed as
                                                                      a percentage derived by dividing the number of required master
                                                                      plans in compliance with regulation by the total number of
Sassafras Tree at Caesar Creek Lake. Photo by Steven Lee.             required master plans.
22     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


                                                            Efficiency. This concept is represented by costs recovered in cents-on-the-dollar. The
                                                            objective is to manage projects in an efficient manner. This measure is an assessment
                                                            of federal costs avoided in relation to the business line cost. Revenue recovered each
                                                            year, equivalent to the federal costs avoided, will vary due to the nature and extent
                                                            of the sustainability practices implemented. The emphasis, however, is on resource
                                                            sustainability as opposed to revenue generation.

                                                            Performance Results

                                                            Performance levels for several measures in the table, below, are depressed and unable to
                                                            improve substantially due to Environmental Stewardship’s relatively flat budget trend
                                                            as it simultaneously confronts increasing environmental commitments and challenges.
                                                            It should be noted that, typically, 50 percent of the Environmental Stewardship
                                                            program budget has been dedicated to critical annual commitments in support of
                                                            endangered species, mitigation, and cultural resources which are related to the impacts
                                                            of overall Corps water resource missions. The remaining 50 percent of Environmental
                                                            Stewardship’s budget covers natural resources responsibilities which encompass essential,
                                                            day-to-day natural and cultural resources protection on 470 Environmental Stewardship
                                                            projects spanning more than 12 million acres.

                                                            As a result, only the highest priority mitigation activities have been completed, as
                                                            evidenced by a relatively stable or, in some instances, a declining performance history.
                                                            Constrained budgets have permitted the Corps to meet only the highest priorities and
                                                            most immediate responsibilities under the ESA. In addition, the new infrastructure
                                                            designed to meet biological opinion requirements is projected to increase the Corps’
                                                            funding challenge as it strives to address ESA needs.

                                                            Performance results in the level one natural resources inventory have increased over the
                                                            past five years, primarily due to leveraging both technology and training. The number of
                                                            master plans updated in accordance with current regulations, remain fairly low, which,
                                                            in turn, hampers the ability to adequately plan for, and adjust to, increasing pressures by
                                                            rising population growth and land use demands.

                                                            Under the “healthy and sustainable” performance measure, the basic protection of land
                                                            and water resources is expected to continue to decrease. Threats from invasive species,
                                                            exotic pests, development, and population growth, combined with the increase in
                                                            funding needs of environmental requirements, will continue a path of declining resource
                                                            health across Corps projects.

Table 9. Environmental Stewardship Indicators                                                                                                             FY 2012
                                                                                             FY 2009           FY 2010           FY 2011           Target           Actual1
                                         Expenditures in millions of dollars                        $150              $212             $191               $97               $57
                                                        Mitigation compliance                      100%               76%               79%              69%               69%
                                            Endangered species protection                          100%               61%               64%              39%               54%
                                             Cultural resource management                            67%              53%               55%              38%               38%
                                           Healthy and sustainable acreage                           38%              45%               65%              60%               54%
                     Level-one natural resources inventory completed                                 59%              74%               80%              82%               84%
                                                      Master plans completed                         27%              28%               32%              33%               34%
                                            Efficiency in cents-on-the-dollar                      $0.11            $ 0.17            $0.15        Note 2                 $0.18
Note 1: FY 2012 figures are estimates; actual results will be available in December 2012.
Note 2: In order to ensure that revenue generation is not emphasized at the expense of sustainability, the Corps does not set annual efficiency targets. This indicator is used
for trend analysis.
                                                                                                                  Civil Works 23
                                                                                                  Management’s Discussion and Analysis

Strategic Goal 4: Implement Effective, Reliable, and                 Performance Results
Adaptive Life-Cycle Performance Management of
                                                                     Continued constraints have resulted in diminished federal
Infrastructure
                                                                     funding for capital and other non-routine work, as well as for
Hydropower                                                           routine O&M. However, some capital work and other non-
Objective:	To improve the efficiency and effectiveness of            routine maintenance work have been accomplished through the
           existing Corps water resource projects. The Corps         implementation of agreements, and associated sub-agreements,
           seeks to maintain peak availability and reliability       with the regional Department of Energy PMAs and their
           of hydroelectric power-generation at multipurpose         preference customers.
           reservoir projects.
                                                                     The length of time hydropower generating units were actually
Funding History: The first row of Table 10 indicates capital         available to produce power increased incrementally when
improvements and O&M expenditures for the Hydropower                 compared to the previous year; however, there was a concurrent
business line over the past three-year period.                       decrease in availability during peak-demand periods. The
                                                                     increase resulted, in part, from completion of some scheduled
Performance Indicator: Table 10 displays the performance             equipment outages for capital investments. The industry
indicator results and targets for the year.                          standards for availability and peak availability are 98 and
                                                                     95 percent, respectively. Table 10 shows FY 2012 business line
Percentage of time units are available to produce power. The
                                                                     performance for availability and peak availability to be below
amount of time during a given year that hydroelectric generating
                                                                     the industry standard at approximately 86 and 88 percentage
units are available to the PMA interconnected system.
                                                                     points, respectively, availability being 1 percentage point above
Percentage of time available during periods of peak demand.          the FY 2012 target while peak availability is approximately
The amount of time during designated peak demand periods             1 percentage point below the FY 2012 target.
that hydroelectric generating units are available to the PMA’s
                                                                     The Corps’ corporate electric reliability plan, implemented in
interconnected system.
                                                                     September 2009, provides guidance for voluntary compliance
Percentage of forced outages. The percentage of time generating      with FERC electric reliability standards within available funding.
units are in an unscheduled or unplanned outage status. The
                                                                     Priority Goal
lower the forced outage rate, the more reliable and less expensive
the electrical power provided to the customer.                       The measure for the Hydropower Priority Goal is shown in bold
                                                                     in the table on the next page.
Electrical reliability standards met. The percentage of Federal
Energy Regulatory Commission (FERC)-approved electric                The Corps is on schedule to meet the Hydropower Priority Goal
reliability standards that are met or exceeded. The FERC has         of implementing sub-agreements to provide funds to accomplish
no direct jurisdiction over the Corps’ hydropower production;        major maintenance and/or major rehabilitation at existing
however, the Corps takes reliability seriously and has voluntarily   hydropower plants. All Corps divisions with hydropower have
chosen to comply with all applicable FERC electric reliability       either implemented sub-agreements during FY 2012 or are in
standards, subject to the availability of resources.                 the process of negotiating sub-agreements with their regional
                                                                     Department of Energy PMAs and preference customers.
The following measures were developed in FY 2010 and FY 2011:

Net generation. Five-year rolling average net generation
measured in megawatt-hours for the Corps’ hydropower facilities
marketed by the Southeastern PMA, Southwestern PMA, and the
Western Area PMA. This measure does not include facilities that
are directly funded for O&M, including recapitalization, by the
Bonneville Power Administration.

Sub-Agreements signed. Under their existing master
agreements, the major subordinate commands sign sub-
agreements with their regional Department of Energy PMA and
preference customers to provide customer funding for specific
maintenance, rehabilitation, or modernization activities at Corps
hydroelectric facilities.                                            Guiding a 270-ton rotor assembly onto a pedestal at the Barkley
                                                                     Dam Hydropower Plant. U.S. Army Corps of Engineers photo by
                                                                     Lee Roberts.
24         Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


                                                                                                                                                       FY 2012
    Table 10. Hydropower Indicators
                                                                                             FY 2009          FY 2010          FY 2011          Target           Actual
                                             Expenditures in millions of dollars                    $299            $352             $349            $192             $395
                                        Percentage of time units are available                   86.35%            84.8%          84.45%              85%          85.85%
         Percentage of time available during periods of peak demand                              87.83%          86.82%           89.33%            89.5%          88.18%
                                             Net generation (millions of mwH)                          Note 1                           22              20               20
                                  Percentage of time units are out of service
                                                                                                  4.27%            4.29%             4.4%           4.30%           4.22%
                                                 due to unplanned outages
                                               Electric reliability standards met              Note 2              85.3%              96%            100%              98%
                                        Number of sub-agreements signed                                        Note 3                           Note 4                   13
    Note 1: This measure was added in FY 2010; FY 2011 was the first year to report data.
    Note 2: This measure was added during FY 2007 and developed during FY 2008 and FY 2009; FY 2010 was the first year to report data.
    Note 3: New measure beginning in FY 2012.
    Note 4: The Corps does not set targets for this measure.


Recreation
The primary objectives of the Recreation business line are to:                          Park capacity. The capacity of facilities to provide recreation
                                                                                        opportunities, expressed in millions of days and nights, when
         ÂÂ Provide justified outdoor recreation opportunities in                       recreation units were available for use.
            an effective and efficient manner at all Corps-operated
            water resources projects.                                                   Number of visitors. The total number of visitors to Corps-
                                                                                        managed parks, expressed in millions of people.
         ÂÂ Offer outdoor recreation opportunities to meet the
            needs of present and future generations of Americans.                       Visitor health and safety services. This measure is expressed
                                                                                        as a percentage of visitors to Corps-managed recreation areas
         ÂÂ Provide a safe and healthful outdoor recreation                             who reported “Acceptable” service.2 Functions and activities
            environment for Corps’ customers.                                           that impact this measure, i.e., facility cleaning, mowing, visitor
                                                                                        assistance, ranger patrols, park hosts, reservation services, and
Funding History: The first row of Table 11 shows the funding
                                                                                        repairs, have been externally validated with visitors, Corps
for the Recreation business line.
                                                                                        partners, and other stakeholders.
Performance Indicators: The measures listed in Table 11 mark
                                                                                        Facility service. The percentage of visitors served at a Corps-
the progress made in meeting Recreation efficiency, service, and
                                                                                        managed recreation area with a facility condition score of four
availability objectives. These indicators are explained below.
                                                                                        or better3, who indicate their experience as “Fair” to “Good.”
Total national economic development (NED) benefits. The                                 The quality of a visitor’s experience and satisfaction with Corps’
NED1 benefits are estimated using the unit-day value method,                            facilities is directly related to the facility condition.
which was originally developed by the Water Resources Council.
                                                                                        Performance Results
Benefit-to-cost ratio. The ratio of NED benefits to actual
                                                                                        Recreation funding in the regular Civil Works appropriation
expenditures or budget.
                                                                                        decreased $21 million from FY 2011 to FY 2012. Only
Cost recovery. The percentage of total recreation receipts to the                       45 percent of people who visited Corps’ parks were served at
recreation budget.                                                                      “Acceptable” health and safety service level; this figure compares
                                                                                        with 47 percent in FY 2011.

1
 	 NED benefits arising from recreation experiences are measured in terms
   of willingness to pay for each increment of supply or type of recreation
   opportunity. The unit-day-value method relies on expert or informed                  2
                                                                                            	 A typical park in peak season for the region provides cleaning five days a
   opinion and judgment to approximate the average user’s willingness to pay                  week, two to three ranger patrols and visitor contacts daily, contract law
   for federal or federally-assisted recreation resources. The unit-day-value is              enforcement, periodic public safety programs, and ability to correct urgent
   estimated at the park (recreation area) level by evaluating each park according            repairs within one to three days.
   to a set of published criteria. By applying a carefully thought-out and
   adjusted unit-day-value to estimated use, an approximation can be obtained           3
                                                                                            	 A facility condition score of four means the facility requires no more than
   for use as an estimate of project recreation benefit (i.e., NED benefits = unit-           routine maintenance, e.g., painting, caulking, asphalt patching, filling cracks,
   day value X recreation use in visitor days).                                               to reduce visitor health and safety risks and environmental degradation.
                                                                                                                      Civil Works 25
                                                                                                      Management’s Discussion and Analysis

Of the 2,500 Corps-managed parks, 880 were operated at                   both contract services and daily operating hours, as well as in
“Acceptable” health and safety services and 1,200 parks were             shortened recreation seasons.
operated at “Acceptable” facility condition standards. In an
attempt to mitigate the combined impact of reduced funding               The Corps’ Recreation Strategic Plan, implemented in April
and increasing demand, the Corps resorted to reductions in               2011, addresses the challenges of increasing demand on resources
                                                                         and facilities and provides direction and guidance to transform
                                                                         and reposition the Recreation business line for the future.

Table 11. Recreation Indicators                                                                                           FY 2012
                                                                          FY 2009       FY 2010       FY 2011       Target        Actual
                                  Expenditures in millions of dollars           $380         $557          $422          $243         $103
                            Total NED benefits in millions of dollars         $1,500        $1,610       $1,477        $1,260       $1,447
                                                Benefit-to-cost ratio            4.30         3.00          3.46         4.86          4.32
                                                       Cost recovery            15%            8%            9%          15%           14%
                                    Park capacity in millions of days             74            74            74           74              74
                              Number of visitors in millions of visits           134           135          126           122              127
                                   Visitor health and safety services           48%           47%           47%          42%           45%
                                                      Facility service          47%           51%           51%          50%           57%


Water Storage for Water Supply
Objective:	 To provide municipal and industrial water supply
            storage in a cost-efficient and an environmentally
            and socially responsible manner in partnership with
            nonfederal water management plans, consistent with
            law and policy.

Funding History: Funding for Water Storage for Water Supply is
provided in the first row of Table 12.

Performance Indicator: To assist in gauging progress, the Corps
uses measures relating to the acre-feet of water stored and cost-
recovery measures. These are shown in Table 12.

Acre-feet available. Of the total acre-feet of water stored in a
reservoir, this number represents the total acre-feet available for
water supply.

Acre-feet under contract. Of the acre-feet available for water
supply, this number represents the total number of acre-feet,
for present and future use, under contract with state and local
interests.

Percentage under contract. The percentage of the acre-feet of
water supply storage space under contract compared to the acre-
feet of space available for water storage.

Capital cost available for recovery. The Corps seeks
proportional reimbursement of capital costs for that portion of
the reservoir allocated for water supply. Cost available for recovery    A park ranger leads an interpretive walk along the fish ladder at
is the total estimated capital cost of water supply allocations.         the Bradford Island Visitor Center near Bonneville Lock and Dam.
                                                                         Photo by Robin Norris.
26      Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Capital cost recovered. Capital costs assigned to the water supply            mainstream reservoirs designated for reallocation possibilities of
storage space that has been, or is in the process of being recovered          storage for water supply needs. This is the first reallocation study
through repayment agreements. This indicator was modified                     included in the Water Storage for Water Supply budget since
for FY 2010 to “costs actually recovered” in lieu of the previous             FY 2006. Otherwise the current funding level provides only
“recovered or in the process of being recovered.”                             the minimum amount necessary to continue this function on a
                                                                              caretaker basis.
Percentage capital cost recovered. The percentage of capital cost
available for recovery compared to cost recovered.                            During FY 2012, the Corps continued development and quality
                                                                              control of the water supply module of the Operations and
Administrative yearly cost (input) per dollar collected                       Maintenance Business Information Link (OMBIL). This module
(output). This efficiency measure describes the cost to provide               provides the following: (1) additional data to help Corps districts
water storage versus the revenues collected and returned to the               manage their water supply program; (2) a greater number of tools
U.S. Treasury.                                                                for project oversight at the Washington, DC, headquarters level;
                                                                              and, (3) instant response to inquiries from the Department of
Performance Results
                                                                              the Army, the Congress, and state and local sponsors. One such
A major FY 2012 initiative provided $1 million in first year                  example during the year was the request by the Assistant Secretary
funding of a 3-year, $3 million study of the six Missouri                     of the Army for Civil Works for an audit of water withdrawals
                                                                              from USACE reservoirs.

Table 12. Water Storage for Water Supply                                                                                        FY 2012
                                                                               FY 2009       FY 2010        FY 2011       Target        Actual
                                        Expenditures in millions of dollars             $7           $6            $7            $6            $6
                              Acre-feet available in millions of acre-feet            11.1           9.7           9.7           9.8           9.8
                       Acre-feet under contract in millions of acre-feet              10.5           9.2           9.3           9.4           9.3
                                                 Percentage under contract          94.6%         94.8%         95.9%        95.3%         94.9%
      Total capital costs available for recovery in millions of dollars             $1429         $1428        $1428         $1,450        $1,504
                     Total capital costs recovered in millions of dollars            $836          $803          $803          $830          $831
                                    Percentage of capital cost recovered            56.4%         56.2%         56.0%        57.2%         55.3%
                         Administrative yearly cost per dollar collected           $0.021        $0.028        $0.015        $0.033     Note 1
 Note 1: Data unavailable at time of printing.




Aerial of the Carlyle Lake Dam. Photo by Allan Dooley.
                                                                                                                Civil Works 27
                                                                                               Management’s Discussion and Analysis


Possible Future Effects of Existing Conditions

Flood Risk Management                                              negative effect on the economy by imposing costs on shippers,
As mentioned, the goal of this business line is to reduce the      carriers, and electric utilities. An unscheduled 52-day closure at
nation’s risk to life and damages due to flooding and coastal      Greenup Locks and Dams in Ohio, for example, cost shippers
storms. The country faces increasing flood hazards, which          and carriers over $53 million. Additionally, rehabilitations and
put existing developments at risk; at the same time, new           improvements to inland waterways are jeopardized by the low
development continues to occur in flood-prone areas, often         balance in the IWTF due to the fact that half of the cost of
behind aging flood-control structures, which include levees        improvements is derived from this fund.
designed to provide agricultural rather than urban protection.
National flood damages, which averaged $3.9 million annually       Coastal Channels and Harbors. Existing high-volume channels
in the 1980s, nearly doubled in the decade 1995 through 2004.      and harbors had authorized depths for the center half of the
Total disaster assistance for emergency response operations, and   channel only one-third of the time in FY 2007 and FY 2008.
subsequent long-term recovery efforts, increased from an average   Inadequate channels negatively affect the economy by imposing
of $444 million during the 1980s to $3.75 billion during the       costs on vessel operators that, in turn, are reflected in the cost
period 1995 through 2004.                                          of imports and the price of U.S. exports. On average, failure to
                                                                   maintain one foot of channel depth increases container shipping
Significant investment is required to identify, evaluate, and      costs by about 6 percent. Additional economic costs will accrue
maintain existing flood infrastructure, e.g., levees, dams, and    by postponing investment in deeper and wider channels that
beaches. This includes accounting for changes in the frequency,    correlate with projected future demand.
magnitude, and location of storms, as well as changes in
land use. The Corps is responsible for maintaining some of         Environment: Aquatic Ecosystem
this infrastructure, while other entities are responsible for      Restoration
the remaining infrastructure. Regardless of ownership, all         The goal of Aquatic Ecosystem Restoration is to restore to a more
infrastructure elements must function as a holistic system to      natural condition, aquatic habitat whose structure, function,
be effective. In addition to infrastructure maintenance, new       and dynamic processes have become degraded. To achieve
flood-risk management measures must be studied, evaluated, and     its objectives, the Corps designs and constructs cost-effective
implemented in a timely fashion.                                   projects that modify hydrologic and geomorphic characteristics.

The Marine Transportation System                                   The need for aquatic ecosystem restoration is great; however,
The MTS is comprised of 1,000 harbors and channels; 25,000         the challenge is to strike a sustainable balance between the
miles of inland, intracoastal and coastal waterways; and 241       often-conflicting demands for funding and the use of water
lock chambers. The national MTS goal is to provide a safe,         resources. Climate change is likely to make this balancing act
secure, and globally-integrated network that, in harmony           even more difficult in the future. In the absence of a standard
with the environment, ensures reliable movement of people          metric, the Corps continues to work with other agencies and
and commerce along waterways, sea lanes, and intermodal            invest in research and development to objectively evaluate
connections. Today, approximately 20 percent of the gross          disparate ecosystem restoration projects and prioritize restoration
domestic product of the United States is generated by foreign      needs. In FY 2012, the Corps continued its research and
trade, and approximately 95 percent of that trade is moved         development efforts to improve the use of structured decision-
by water. The value of foreign tonnage is over $900 billion        making tools, provide additional tools to facilitate evaluation
and it generates 13 million jobs. Current forecasts predict that   of alternatives, and more effectively use ecosystem services in
maritime trade will double in the next 20 years.                   project formulation and evaluation. These efforts will continue
                                                                   over time as there is no easy answer to the complex issues
Inland Waterways. Eleven inland waterway locks are more than       involved; however, ongoing efforts will facilitate more consistent
100 years old, and 122 are over 50 years old. In recent years,     results as well as the ability to effectively build and evaluate a
maintenance deferrals and delays in repairs and replacement of     national portfolio of projects. The Corps continues its efforts to
aging locks have driven up the number of unscheduled closures.     balance funding to address the variety of resources needed across
For example, lock closures due to mechanical breakdowns of         the country.
main lock chambers on high- and moderate-use waterways
increased from less than 10,000 hours per year in FY 2001 to
more than 23,000 hours per year in FY 2011. Closures have a
28   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


                                    Analysis of Financial Statements
                                    The Civil Works financial statements are prepared in conformity with generally accepted
                                    accounting principles prescribed by the Federal Accounting Standards Advisory Board
                                    and the formats prescribed by the Office of Management and Budget (OMB). The Civil
                                    Works financial statements are subject to an independent audit that provides reasonable
                                    assurance they are free from material misstatements, to improve financial management
                                    and provide accurate and reliable information that is useful for assessing performance
                                    and allocating resources. Corps management is responsible for the integrity and
                                    objectivity of the financial information presented in these financial statements.

                                    The Corps Consolidated Balance Sheets, Statements of Net Cost, Changes in Net
                                    Position, and Combined Statements of Budgetary Resources (beginning on page 36)
                                    have been prepared to report the financial position and results of operations of the
                                    USACE Civil Works Program, pursuant to the requirements of the Chief Financial
                                    Officer (CFO) Act of 1990 and the Government Management Reform Act of 1994.
                                    The following sections provide a brief description of the nature of each financial
                                    statement and significant fluctuations from FY 2011 to FY 2012. The charts presented
                                    in this analysis are “in millions” unless otherwise noted.


                                    Balance Sheet
                                    The Civil Works Balance Sheet presents the amounts of future economic benefits owned
                                    or managed by USACE (assets) against the amounts owed (liabilities) and amounts that
                                    comprise the difference (net position).

                                    Figure 4 shows the Civil Works Assets Comparison as of September 30, 2012 and
                                    2011. Total assets amounted to $54 billion in FY 2012 and $54.2 billion in FY 2011,
                                    a $177 million or 0.3% decrease, remaining approximately the same as FY 2011.

Figure 4. Assets Comparison
                                                                                                                        FY 2012
                                                                                                                        FY 2011
                                       Fund Balance with Treasury



                                             Accounts Receivable



                                           General Property, Plant
                                                   and Equipment


                                           Investments and Other
                                                          Assets

                                                                     0           10,000         20,000         30,000         40,000
                                                                         As of September 30, 2012 and 2011 (Amount in millions)


                                    Figure 5 shows the Civil Works Liabilities Comparison as of September 30, 2012 and
                                    2011. Total liabilities amounted to $7.4 billion in FY 2012 and $8.1 billion in FY 2011,
                                    a 9.7% decrease. This decrease is primarily because of a decrease in accounts payable
                                    of $211 million, a 20% decrease over accounts payable in FY 2011. The decrease is
                                    related to a reduction in spending for the Lake Pontchartrain & Vicinity, the West Bank
                                    & Vicinity, and the Inner Harbor Navigation Canal Surge Barrier projects and to the
                                    completion of a Debris Management Mission for removal, reduction, and disposal of
                                    disaster debris from a series of tornadoes that struck Alabama.
                                                                                                             Civil Works 29
                                                                                           Management’s Discussion and Analysis

Figure 5. Liabilities Comparison
                                                                                                                         FY 2012
                                                                                                                         FY 2011
                                                Accounts Payable



                                      Environmental and Disposal
                                                      Liabilities



                                                  Other Liabilities



                                             Remaining Liabilities

                                                                      0            1,000          2,000          3,000             4,000
                                                                          As of September 30, 2012 and 2011 (Amount in millions)




                                   Statement of Net Cost
                                   The major elements of net cost include civil works program costs totaling $11 billion
                                   in FY 2012 and $14.3 billion in FY 2011, and earned revenues amounting to
                                   $3.5 billion in FY 2012 and $3.7 billion in FY 2011. Both elements are comprised
                                   of both intragovernmental and public costs. Total Net Costs of Operations decreased
                                   $3.1 billion, a decrease of by 29.1% which is mainly attributed to a decrease in costs for
                                   the Lake Pontchartrain & Vicinity, the West Bank & Vicinity, and the Inner Harbor
                                   Navigation Canal Surge Barrier projects related to the Hurricane and Storm Damage
                                   Risk Reduction System. There was also a decrease due to the completion of a Debris
                                   Management Mission for removal, reduction, and disposal of disaster debris from
                                   a series of tornadoes that struck Alabama, and for projects funded by the American
                                   Recovery and Reinvestment Act are completed.


                                   Statement of Changes in Net Position
                                   The Statement of Changes in Net Position presents those accounting items that caused
                                   the net position section of the balance sheet to change from the beginning to the end of
                                   the reporting period. Various financing sources increase net position. These financing
                                   sources include appropriations received and nonexchange revenues, such as donations
                                   and forfeitures of property and imputed financing from costs absorbed by other federal
                                   agencies. Civil Works net cost of operations and appropriations used serve to reduce
                                   net position.

                                   Figure 6 shows the three components of the Civil Works net position for FY 2012 and
                                   FY 2011. Overall, net position increased in FY 2012 compared with FY 2011 due to
                                   increases in Cumulative Results of Operations- Earmarked Funds offsetting a decrease in
                                   the Unexpended Appropriations - Other Funds.
30   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Figure 6. Civil Works Net Position
                                                                                                                          FY 2012
                                                                                                                          FY 2011
                                            Cumulative Results of
                                          Operations - Other Funds



                                             Cumulative Results of
                                            Operations - Earmarked
                                                    Funds (Note 19)



                                      Unexpended Appropriations -
                                                    Other Funds


                                                                       0           10,000         20,000         30,000         40,000
                                                                           As of September 30, 2012 and 2011 (Amount in millions)




                                     Statement of Budgetary Resources
                                     The Combined Statements of Budgetary Resources provide information on the
                                     budgetary resources that were made available to the Civil Works Program as of
                                     September 30, 2012 and 2011, and the status of those budgetary resources. Budget
                                     authority is the authority provided to the Civil Works Program by law to enter into
                                     obligations that will result in outlays of federal funds. Obligations Incurred results from
                                     an order placed, contract awarded, or similar transaction, which will require payments
                                     during the same or a future period. Gross Outlays reflects the actual cash disbursed by
                                     Treasury for Civil Works obligations.

                                     Figure 7 shows a comparison of Budget Authority, Obligations Incurred and Gross
                                     Outlays in FY 2012 and FY 2011. The reported total Civil Works budget authority
                                     was $18.3 billion and $17.4 billion as of September 30, 2012 and 2011, respectively.
                                     Obligations incurred amounted to was $18.4 billion as of September 30, 2012,
                                     $20.1 billion as of September 30, 2011. The decrease was due to completion of multiple
                                     projects related to the ARRA and hurricane recovery in New Orleans.



Figure 7. Budgetary Resources
                                                                                                                          FY 2012
                                                                                                                          FY 2011
                                                  Budget Authority




                                               Obligations Incurred




                                                      Gross Outlays



                                                                       0        5,000       10,000      15,000      20,000      25,000
                                                                           As of September 30, 2012 and 2011 (Amount in millions)
                                                Civil Works Fund 31
                                        Management’s Discussion and Analysis




The Dalles Lock and Dam, Lake Celilo.
Photo by Park Ranger Brett Call.
32     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Analysis of Systems, Controls, and Legal Compliance
                                                                      Federal Manager’s Financial Integrity Act
                                                                      The management control objectives under the Federal Manager’s
                                                                      Financial Integrity Act of 1982 (FMFIA) are to reasonably
                                                                      ensure that:
                                                                          ÂÂ Programs achieve their intended results efficiently and
                                                                             effectively;
                                                                          ÂÂ Resources are used consistent with overall mission;
                                                                          ÂÂ Programs and resources are free from waste, fraud, and
                                                                             mismanagement;
                                                                          ÂÂ All applicable laws and regulations are followed;
                                                                          ÂÂ Controls are sufficient to minimize any improper or
                                                                             erroneous payments;
                                                                          ÂÂ System security is in substantial compliance with all
                                                                             relevant requirements;
                                                                          ÂÂ Resources are used in accordance with the
                                                                             organizational mission;
                                                                          ÂÂ Financial management system are in compliance with
                                                                             federal financial systems standards; and
                                                                          ÂÂ Timely, accurate, and reliable data are maintained and
                                                                             used for decision making at all levels.

                                                                      The Civil Works internal control program is designed to ensure
                                                                      full compliance with the goals, objectives, and requirements of
                                                                      FMFIA and the OMB Circulars Numbers A-123, Management’s
                                                                      Responsibility for Internal Control, A-136, Financial Reporting
Measuring the distance from the river bank to a location at           Requirements, and A-127, Financial Management Systems.
higher elevation near the Poplar River, a tributary of the Missouri
                                                                      The Corps holds managers accountable for the performance,
River. U.S. Army Corps of Engineers photo by Diana Fredlund.
                                                                      productivity, operations and integrity of their programs through
                                                                      the use of internal controls. The Corps undertakes a combination
                                                                      of actions to ensure there is a reasonable level of assurance
                                                                      that internal controls throughout the Corps are in place and
                                                                      operating effectively. Those actions consist of a combination
                                                                      of inspections, audits, investigations, and management control
                                                                      reviews conducted throughout the year. The Corps also has a
                                                                      strong network of management control oversight committees
                                                                      to include the National Management Board, Regional
                                                                      Management Boards, and the Quarterly Review Boards. The
                                                                      Quality Management System, another management control
                                                                      mechanism, allows the Corps to standardize business processes
                                                                      throughout the Corps and ensure appropriate internal controls
                                                                      are built into those processes. Many of the Corps management
                                                                      control evaluations are integrated into periodic management
                                                                      review processes such as the Consolidated Management Reviews,
                                                                      Directorate Management Reviews, Program Management
                                                                      Reviews, and through the execution of internal audits. The Corps’
                                                                      evaluation for FY 2012 identified no material weaknesses in
                                                                      the design or operation of its management and financial system
                                                                      internal controls.
                                                                                                               Civil Works 33
                                                                                              Management’s Discussion and Analysis

                                                                 OMB Circular No. A-123, Appendix A
Statement of Assurance                                           The Civil Works Program conducted an assessment of the
The management of the United States Army Corps                   effectiveness of its internal controls over financial reporting
of Engineers (USACE) Civil Works is responsible for              in compliance with OMB Circular No. A-123, Appendix A,
establishing and maintaining effective internal controls         Internal Control over Financial Reporting (ICOFR) and related
and financial management systems that meet the objectives        Department of Defense (DoD) guidance. The USACE Executive
of the Federal Managers’ Financial Integrity Act of 1982         Senior Assessment Team (ESAT), established in FY 2008, is
(FMFIA).  USACE Civil Works conducted its assessment             chaired by the Deputy Commanding General and comprised of
of the effectiveness of internal control over operations         functional area Senior Executives who provide expert leadership
and compliance with applicable laws and regulations in           and direction over the CFO Act financial statement audits.
accordance with Office of Management and Budget (OMB)            USACE evaluation for FY 2012 did not identify any material
Circular Number (No.) A-123, Management’s Responsibility         weaknesses as of or subsequent to June 30, 2012 for the Civil
for Internal Control. Based on the results of this evaluation,   Works Program.
USACE Civil Works can provide reasonable assurance
that internal control over the effectiveness and efficiency
of operations and compliance with applicable laws and            Federal Financial Management Improvement
regulations met the objectives of FMFIA and no material          Act 1996
weaknesses were found in the design or operation of the          The Federal Financial Management Improvement Act (FFMIA)
internal controls as of September 30, 2012.                      of 1996 stipulates that government agencies “…implement and
                                                                 maintain financial management systems that comply substantially
USACE Civil Works conducted its assessment of the                with federal financial management systems requirements,
effectiveness of internal control over financial reporting in    applicable federal accounting standards, and the United
accordance with Appendix A of OMB Circular No. A-123.            States Government Standard General Ledger (USSGL) at the
Based on the results of this assessment, USACE Civil             transactional level.” FFMIA also mandates that remediation plans
Works can provide reasonable assurance that its internal         be developed for any agency that is unable to report substantial
control over financial reporting as of September 30, 2012        compliance. Substantial compliance is achieved when an agency’s
was operating effectively and no material weaknesses were        financial management system(s) routinely provide reliable and
found in the design or operation of the internal control over    timely financial information for managing day to day operations
financial reporting.                                             as well as produce reliable financial statements, maintain
                                                                 effective internal control, and comply with legal and regulatory
The Federal Financial Management Improvement Act of 1996
                                                                 requirements.
(FFMIA) requires agencies to implement and maintain
financial management systems that are substantially in
                                                                 USACE’s financial management framework consists primarily of
compliance with federal financial management systems
                                                                 the Corps of Engineers Financial Management System (CEFMS).
requirements, federal accounting standards promulgated
by the Federal Accounting Standards Advisory Board               CEFMS is a comprehensive and integrated financial management
(FASAB), and the U.S. Standard General Ledger (USSGL)            system which processes all financial transactions for all USACE
at the transaction level. In addition, OMB Circular              missions and programs. CEFMS maintains an electronic record
No. A-127 requires agencies to implement and maintain            of the financial transactions and is in compliance with the
financial management systems that are substantially in           USSGL. USACE also utilizes CEFMS to maintain funds control
compliance with federal financial management systems             and track the execution of all direct and reimbursable funded
requirements, federal accounting standards, and the USSGL.       projects. Adequate internal control mechanisms are critical
Evaluation results also indicated that USACE Civil Works         in maintaining the integrity of transactional data. To ensure
financial management systems were found to substantially         proper separation of duties, CEFMS includes a robust electronic
comply with FFMIA and OMB Circular No. A-127 as of               signature process, utilizing public key infrastructure (PKI), and
September 30, 2012.                                              has a role-based security feature to reinforce its internal controls.
                                                                 CEFMS provides reliable and timely financial information for
                                                                 managing its financial operations. Internal controls are embedded
                                                                 throughout CEFMS to ensure data integrity and to prevent
                                                                 fraud, waste, and abuse through the segregation of duties using
		               Steven L. Stockton                              role-based controls. CEFMS is the primary reason why USACE
		               Director of Civil Works                         has received unqualified audit opinions on its Civil Works
	 	              November 11, 2012                               financial statements for the past five consecutive fiscal years.
34    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


USACE has evaluated its financial management systems and has      remains committed to addressing the material weaknesses and
determined that they substantially comply with the requirements   significant deficiencies identified as a result of audits, evaluations
of the FFMIA of 1996 (Section 801 of title 31, USC), the OMB      and assessments of controls in its financial management systems
Circular No. A-127, and the DoD Financial Management              and its business processes, to ensure existence of effective internal
Regulations, Volume 1, Chapter 3.                                 controls, systems integration, and timely and reliable financial
                                                                  and performance data for reporting purposes. The table below
                                                                  shows the number of material weaknesses, significant deficiencies
Summary
                                                                  and legal requirements not in compliance, as a result of the
Although USACE has no material weaknesses to report as a
                                                                  independent audits of Civil Works financial statements from
result of the above internal control evaluations, management
                                                                  FY 2008 through FY 2012:


Table 13. Auditor Identified Control Weaknesses                                                                         Number of Legal
                                                                                      Number of          Number of       Requirements
                                                                                       Material         Significant         Not in
                                                                   Fiscal Year End    Weaknesses        Deficiencies      Compliance

                                                                        2008               1                 5                 3
                                                                        2009               5                 2                 6
                                                                        2010               4                 2                 3
                                                                        2011               1                 3                 3
                                                                        2012               0                 3                 3




Lake Wallula. Photo by David H. Lewis.
Limitations

Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results
of operations for the entity, pursuant to the requirements of Title 31, United States
Code, Section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity.




                                          Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
36     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works

CONSOLIDATED BALANCE SHEEts
As of September 30, 2012 and 2011 (Amounts in thousands)                         2012                   2011
ASSETS (Note 2)
   Intragovernmental:
        Fund Balance with Treasury (Note 3)                                  $      14,461,483      $          15,532,602
        Investments (Note 4)                                                         7,239,781                  6,489,467
        Accounts Receivable (Note 5)                                                   606,610                    647,913
   Total Intragovernmental Assets                                            $      22,307,874      $          22,669,982

   Cash and Other Monetary Assets (Note 6)                                   $           1,691      $           1,195
   Accounts Receivable, Net (Note 5)                                                 2,428,773              2,543,480
   Operating Materials and Supplies (Note 7)                                            63,533                166,379
   General Property, Plant and Equipment, Net (Note 8)                              29,205,629             28,803,701
   Other Assets                                                                            115                    118
TOTAL ASSETS                                                                 $      54,007,615      $      54,184,855

Stewardship PP&E (Note 9)

LIABILITIES (Note 10)
   Intragovernmental:
        Accounts Payable                                                     $             51,752   $              54,217
        Debt (Note 11)                                                                      4,273                   5,114
        Due to Treasury - General Fund (Note 13)                                        2,408,205               2,515,535
        Other Liabilities (Notes 13 & 14)                                                 816,921                 973,217
   Total Intragovernmental Liabilities                                       $          3,281,151   $           3,548,083

   Accounts Payable - Public                                                 $            788,679   $             997,413
   Federal Employee and Veterans’ Benefits                                                261,352                 251,076
   Environmental and Disposal Liabilities (Note 12)                                       998,241               1,078,592
   Other Liabilities (Notes 13 & 14)                                                    2,023,592               2,271,469
TOTAL LIABILITIES                                                            $          7,353,015   $           8,146,633

Contingencies (Note 14)

NET POSITION
   Unexpended Appropriations - Other Funds                                   $       5,014,903      $       6,813,138
   Cumulative Results of Operations - Earmarked Funds (Note 19)                     12,710,452             10,819,526
   Cumulative Results of Operations - Other Funds                                   28,929,245             28,405,558
TOTAL NET POSITION                                                           $      46,654,600      $      46,038,222

TOTAL LIABILITIES AND NET POSITION                                           $      54,007,615      $      54,184,855

The accompanying notes are an integral part of these financial statements.
                                                                                                                            Civil Works 37
                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

US Army Corps of Engineers - Civil Works

CONSOLIDATED STATEMENTs OF NET COST
For the years ended September 30, 2012 and 2011 (Amounts in thousands)                                2012                        2011
Program Costs
   Gross Costs (Note 15)                                                                   $              11,027,330 $                   14,257,477
   Less: Earned Revenue                                                                                   (3,517,657)                    (3,671,382)
Net Cost of Operations                                                                     $               7,509,673 $                   10,586,095

The accompanying notes are an integral part of these financial statements.
38     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works

CONSOLIDATED STATEMENTs OF CHANGES IN NET POSITION
For the years ended September 30, 2012 and 2011 (Amounts in thousands)           2012 Earmarked           2012 Other        2012 Consolidated Total
CUMULATIVE RESULTS OF OPERATIONS

Beginning Balances                                                           $         10,819,526     $       28,405,558    $         39,225,084
Budgetary Financing Sources:
   Appropriations used                                                                          -              7,515,953                7,515,953
   Nonexchange revenue                                                                  1,813,267                   (348)               1,812,919
   Transfers-in/out without reimbursement                                                  43,707                 89,875                  133,582
Other Financing Sources (Non-exchange):
   Donations and forfeitures of property                                                        -                    266                      266
   Transfers-in/out without reimbursement                                                       -                136,029                  136,029
   Imputed financing from costs absorbed by others                                          3,444                322,093                  325,537
   Other (+/-)                                                                             (1,247)                 1,247
Total Financing Sources                                                                 1,859,171              8,065,115               9,924,286
Net Cost of Operations                                                                    (31,755)             7,541,428               7,509,673
Net Change                                                                              1,890,926                523,687               2,414,613
Cumulative Results of Operations                                             $         12,710,452 $           28,929,245    $         41,639,697

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                           $                    -   $        6,813,138    $           6,813,138
Budgetary Financing Sources:
   Appropriations received                                                                      -              5,719,292               5,719,292
   Appropriations transferred-in/out                                                            -                 (1,643)                 (1,643)
   Other adjustments (rescissions, etc.)                                                        -                     69                      69
   Appropriations used                                                                          -             (7,515,953)             (7,515,953)
Total Budgetary Financing Sources                                                               -             (1,798,235)             (1,798,235)
Unexpended Appropriations                                                                       -              5,014,903               5,014,903
Net Position                                                                 $         12,710,452     $       33,944,148 $            46,654,600

The accompanying notes are an integral part of these financial statements.
                                                                                                                            Civil Works 39
                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

US Army Corps of Engineers - Civil Works

CONSOLIDATED STATEMENTs OF CHANGES IN NET POSITION
For the years ended September 30, 2012 and 2011 (Amounts in thousands)            2011 Earmarked           2011 Other       2011 Consolidated Total
CUMULATIVE RESULTS OF OPERATIONS

Beginning Balances                                                            $          9,192,267     $       28,289,455   $         37,481,722
Budgetary Financing Sources:
   Appropriations used                                                                           -              9,971,726               9,971,726
   Nonexchange revenue                                                                   1,752,440                  3,747               1,756,187
   Transfers-in/out without reimbursement                                                   48,116                 94,066                 142,182
Other Financing Sources:
   Donations and forfeitures of property                                                       315                  2,891                   3,206
   Transfers-in/out without reimbursement                                                        -                113,610                 113,610
   Imputed financing from costs absorbed by others                                           2,193                340,353                 342,546
   Other (+/-)                                                                            (130,961)               130,961
Total Financing Sources                                                                  1,672,103             10,657,354             12,329,457
Net Cost of Operations                                                                      44,844             10,541,251             10,586,095
Net Change                                                                               1,627,259                116,103              1,743,362
Cumulative Results of Operations                                              $         10,819,526 $           28,405,558   $         39,225,084

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                            $                    -   $       12,861,828   $         12,861,828
Budgetary Financing Sources:
   Appropriations received                                                                       -              4,131,922              4,131,922
   Appropriations transferred-in/out                                                             -                 (2,537)                (2,537)
   Other adjustments (rescissions, etc)                                                          -               (206,349)              (206,349)
   Appropriations used                                                                           -             (9,971,726)            (9,971,726)
Total Budgetary Financing Sources                                                                -             (6,048,690)            (6,048,690)
Unexpended Appropriations                                                                        -              6,813,138              6,813,138
Net Position                                                                  $         10,819,526     $       35,218,696 $           46,038,222

The accompanying notes are an integral part of these financial statements.
40     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works

COMBINED STATEMENTs OF BUDGETARY RESOURCES
For the years ended September 30, 2012 and 2011 (Amounts in thousands)                2012                  2011
Budgetary Resources
Unobligated balance brought forward, October 1                                    $       8,528,488 $              11,069,152
Recoveries of prior year unpaid obligation                                                   93,483                   117,174
Other changes in unobligated balance                                                         (1,664)                   (2,542)
Unobligated balance from prior year budget authority, net                                 8,620,307                11,183,784
Appropriations (discretionary and mandatory)                                              7,641,853                 5,375,401
Spending Authority from offsetting collections                                           10,698,950                12,072,626
Total Budgetary Resources                                                         $      26,961,110 $              28,631,811

Status of Budgetary Resources:
Obligations Incurred                                                              $      18,351,033     $          20,103,323
Unobligated balance, end of year
   Apportioned                                                                            7,411,953             7,632,910
   Exempt from Apportionment                                                              1,184,183               844,091
   Unapportioned                                                                             13,941                51,487
Unobligated balance brought forward, end of year                                          8,610,077             8,528,488
Total Budgetary Resources                                                         $      26,961,110     $      28,631,811

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1 (gross)                            $      10,405,457     $      13,134,605
Uncollected customer payments from Federal sources, brought forward,
   October 1 (-)                                                                          (3,097,701)           (3,065,405)
Obligated balance, start of year (net)                                                     7,307,756            10,069,200
Obligations incurred                                                                      18,351,033            20,103,323
Outlays (gross) (-)                                                                      (20,288,275)          (22,715,297)
Change in uncollected customer payments from Federal Sources (+ or -)                        920,974               (32,296)
Recoveries of prior year unpaid obligations (-)                                              (93,483)             (117,174)
Obligated balance, end of year
   Unpaid Obligations, end of year (gross)                                                    8,374,732        10,405,457
   Uncollected customer payments from Federal sources, end of year (-)                       (2,176,727)       (3,097,701)
Obligated balance, end of year                                                    $           6,198,005 $       7,307,756

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                             $       18,340,803 $          17,448,027
Actual offsetting collections (discretionary and mandatory) (-)                          (11,953,668)          (11,864,395)
Change in uncollected customer payments from Federal Sources (discretionary and
    mandatory) (+ or -)                                                                      920,974               (32,296)
Budget Authority, net (discretionary and mandatory)                               $        7,308,109 $           5,551,336
Outlays, gross (discretionary and mandatory)                                              20,288,275            22,715,297
Actual offsetting collections (discretionary and mandatory) (-)                          (11,953,668)          (11,864,395)
Outlays, net (discretionary and mandatory)                                                 8,334,607            10,850,902
Distributed offsetting receipts                                                             (552,645)             (696,399)
Agency Outlays, net (discretionary and mandatory)                                 $        7,781,962 $          10,154,503

The accompanying notes are an integral part of these financial statements.
                                                                                                                   Civil Works 41
                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 1.	Significant Accounting Policies

1.A.	Mission of the Reporting Entity
The primary mission of the United States (U.S.) Army Corps of Engineers - Civil Works Program (USACE) includes maintaining
navigation channels, reducing flooding, assisting during natural disasters and other emergencies, and making waterways passable. The
USACE also supports the Department of Homeland Security in carrying out the National Response Plan. USACE’s primary role
in support of this plan is to provide emergency support in areas of public works and engineering. USACE responds to more than
30 presidential disaster declarations in a typical year, and its highly trained workforce is prepared to deal with both man-made and
natural disasters.


1.B.	Basis of Presentation and Accounting
These financial statements have been prepared to report the financial position and results of operations of USACE, as required by the
Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994.  The financial statements have
been prepared from the books and records of USACE in accordance with the U.S. generally accepted accounting principles (GAAP)
for Federal entities and the formats prescribed by the Office of Management and Budget (OMB) Circular Number (No.) A-136,
Financial Reporting Requirements. The accompanying financial statements account for all Civil Works resources for which USACE
is responsible.

The accounting structure of Federal agencies is designed to reflect both accrual and budgetary accounting transactions.  Under the
accrual method of accounting, revenues are recognized when earned and expenses are recognized when incurred without regard to the
receipt or payment of cash.  The budgetary accounting principles, on the other hand, are designed to recognize the obligation of funds
according to legal requirements, which in many cases is prior to the occurrence of an accrual-based transaction. The recognition of
budgetary accounting transactions is essential for compliance with legal constraints and controls over the use of Federal funds.  

USACE has presented comparative financial statements for the Consolidated Balance Sheet, Consolidated Statement of Net Cost
and Changes in Net Position, and Combined Statement of Budgetary Resources, in accordance with OMB financial statement
reporting guidelines.

USACE transactions are recorded on an accrual accounting basis as required by GAAP.  USACE’s financial management system meets
all of the requirements for full accrual accounting.


1.C.	Fund Types
General funds are used for financial transactions funded by Congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and construction accounts.

Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from existing
appropriations or funds. The corpus finances operations and transactions that flow through the fund. The revolving fund finances the
goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund future operations
and generally are available in their entirety for use without further congressional action.

Special funds are used to record government receipts reserved for a specific purpose.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific purposes or
programs in accordance with the terms of the donor, trust agreement, or statute.

Contributed funds are received from the public for construction of assets under local cost sharing agreements.

Most USACE trust, contributed, and special funds are designated as earmarked funds.  Earmarked funds are financed by specifically
identified revenues, required by statute to be used for designated activities, benefits or purposes, and remain available over time.
42     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


USACE is required to separately account for and report on the receipt, use and retention of revenues and other financing sources for
earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They are
not USACE funds, and as such, are not available for USACE’s operations. USACE is acting as an agent or a custodian for funds
awaiting distribution.

Clearing accounts are used to record the amount of unprocessed intragovernmental payments and collections transmitted to USACE
from other federal agencies.

Receipt accounts are used to record amounts such as interest, land lease proceeds, fines and penalties that are deposited in the
U.S. Treasury.  

A summary of USACE accounts follows:
General Funds
96X3112	        Flood Control, Mississippi River and Tributaries
96 3113	        Mississippi River and Tributaries - Recovery Act (fiscal year)
96X3121	        Investigations
96 3121	        Investigations (fiscal year)
96X3122	        Construction
96 3122	        Construction (fiscal year)
96X3123	        Operation and Maintenance, General
96 3123	        Operation and Maintenance, General (fiscal year)
96X3124	        General Expenses
96 3124	        General Expenses (fiscal year)
96X3125	        Flood Control and Coastal Emergencies
96 3125	        Flood Control and Coastal Emergencies (fiscal year)
96X3126	        Regulatory Program
96 3126	        Regulatory Program (fiscal year)
96X3128	        Washington Aqueduct Capital Improvements
96 3129	        Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund (fiscal year)
96X3130	        Formerly Utilized Sites Remedial Action Program
96X3132	        Office of Assistant Secretary of the Army, Civil Works
96 3132	        Office of Assistant Secretary of the Army, Civil Works (fiscal year)
96 3133	        Investigations - Recovery Act (fiscal year)
96 3134	        Construction – Recovery Act (fiscal year)
96 3135	        Operation and Maintenance – Recovery Act (fiscal year)
96 3136	        Regulatory Program – Recovery Act (fiscal year)
96 3137	        Formerly Utilized Sites Remedial Action Program – Recovery Act (fiscal year)
96 3138	        General Expenses – Recovery Act (fiscal year)
96X6094	        Advances from the District of Columbia

Revolving Funds
96X4902	        Revolving Fund

Special Funds
96X5007	        Special Recreation Use Fees
96X5066	        Hydraulic Mining in California, Debris
96X5090	        Payments to States, Flood Control Act of 1954
96X5125	        Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493	        Fund for Nonfederal Use of Disposal Facilities
96 5493	        Fund for Nonfederal Use of Disposal Facilities (fiscal year)
                                                                                                                  Civil Works 43
                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

Trust Funds
96X8217	      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333	      Coastal Wetlands Restoration Trust Fund
96X8861	      Inland Waterways Trust Fund
96X8863	      Harbor Maintenance Trust Fund

Trust Funds (Contributed)
96X8862	      Rivers and Harbors Contributed and Advance Funds

Deposit Funds
96X6500	      Advances Without Orders from Non-Federal Sources
96X6501	      Small Escrow Amounts

Clearing Accounts
96F3875	      Budget Clearing Account (suspense)
96F3880	      Unavailable Check Cancellations and Overpayments (suspense)
96F3885	      Undistributed Intragovernmental Payments

Receipt Accounts
96R0891	      Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
96R1060	      Forfeitures of Unclaimed Money and Property
96R1099	      Fines, Penalties, and Forfeitures, Not Otherwise Classified
96R1299	      Gifts to the United States, Not Otherwise Classified
96R1435	      General Fund Proprietary Interest, Not Otherwise Classified
96R3220	      General Fund Proprietary Receipts, Not Otherwise Classified, All Other
96R5005	      Land and Water Conservation Fund
96R5007	      Special Recreation Use Fees
96R5066	      Hydraulic Mining in California
96R5090	      Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
96R5125	      Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation of Dams, etc.
96R5493	      User Fees, Fund for Nonfederal Use of Disposal Facilities
96R8862	      Contributions and Advances, Rivers and Harbors


1.D.	Financing Sources
USACE receives Federal funding through the annual Energy and Water Development Appropriations Act.  Funding also comes from
nonfederal project sponsors who share in project costs according to formulas established by project authorization acts.  A third source
of funding comes through the Support for Others Program, which is conducted under reimbursable agreements with Federal agencies.

USACE receives its appropriations and funds as general, revolving, trust, special, and deposit funds. USACE uses these appropriations
and funds to execute its mission and subsequently report on resource usage.

USACE received borrowing authority from the U.S. Treasury to finance capital improvements to the Washington Aqueduct.

USACE receives congressional appropriations as financing sources that expire annually, on a multi-year basis, or do not expire. When
authorized by legislation, these appropriations are supplemented by revenues generated by sales of services.  USACE recognizes revenue
as a result of costs incurred for goods or services provided to other Federal agencies and the public.  Full cost pricing is USACE’s
standard policy for goods or services provided as required by OMB Circular No. A-25, User Charges.

USACE records two types of revenue: exchange and non-exchange. Exchange revenue is the inflow of resources that USACE has
earned by providing something of value to the public or another Federal entity at a price.  The main sources of exchange revenue are
customer orders (reimbursable agreements) and cost sharing revenue.
44     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Customer orders are contracts where USACE provides services under a reimbursable agreement; the related revenue and accounts
receivable are recorded simultaneously along with the costs and payables.  For nonfederal entities, an advance payment is required and
USACE records advances from others.  USACE reduces the advances and recognizes revenue as services are provided.

Cost sharing revenue arises from agreements under which USACE constructs assets, the cost of which will be borne in part by another
entity (sponsor). Throughout the life of a cost share project, USACE revenue is earned based on the sponsor’s proportionate share
of project costs incurred. Sponsors are generally required to provide funds in advance and USACE records deferred credits. USACE
reduces the deferred credits and recognizes revenue at the time of the withdrawal for costs incurred.

Non-exchange revenue represents resources received by USACE when a good or service is not provided in exchange for that revenue.
Non-exchange revenue generally consists of interest earned on investments from excise taxes and port fees, penalties, and donations.


1.E.	Recognition of Expenses
USACE recognizes expenses in the period incurred or consumed.  USACE’s expenditures for capital assets are recognized as operating
expenses as the assets are depreciated or amortized.  


1.F.	Accounting for Intragovernmental Activities
USACE eliminates transactions within USACE Civil Works Program in these consolidated financial statements. Accounting
standards require that an entity eliminate intraentity activity and balances from consolidated financial statements in order to prevent
overstatement for business with itself.

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal government.  Costs
and revenues with the public represent transactions made between the reporting entity and a nonfederal entity. The classification
of revenue or cost as “intragovernmental” or “with the public” is defined on a transaction-by-transaction basis. The purpose of this
classification is to enable the Federal government to prepare consolidated financial statements.

Generally, financing for the construction of USACE’s facilities is obtained through appropriations.  To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized because the
U.S. Treasury does not allocate such costs to USACE.

In accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and
Standards, USACE recognizes imputed financing and cost for unreimbursed goods and services provided by others.  These costs include
unreimbursed rent, interest during construction, Judgment Fund payments on behalf of USACE, and employee benefits.


1.G.	Entity and Nonentity Assets
The assets are categorized as entity or nonentity.  Entity assets consist of resources that USACE has the authority to use, or where
management is legally obligated to use funds to meet entity obligations. Nonentity assets consist of resources for which USACE
maintains stewardship accountability and responsibility to report but are not available for USACE operations.


1.H.	Funds with the U.S. Treasury
USACE’s monetary financial resources are maintained in U.S. Treasury accounts.  The disbursing offices of USACE Finance Center
(UFC), the Defense Finance and Accounting Service (DFAS), and the Department of State’s financial service centers process the
majority of USACE’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
that provide information to the U.S. Treasury on check issued, electronic fund transfers, interagency transfers, and deposits.

In addition, UFC and DFAS sites submit reports to the U.S. Treasury by appropriation on interagency transfers, collections received,
and disbursements issued.  The U.S. Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account.  
Differences between USACE’s recorded balance in FBWT accounts and U.S. Treasury’s FBWT accounts sometimes result and are
subsequently reconciled on a monthly basis.
                                                                                                                     Civil Works 45
                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

1.I.	Investments
USACE reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.  Premiums or discounts
are amortized over the term of the investment using the effective interest rate method or another method obtaining similar results.  
USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise sustain operations.
Consequently, a provision is not made for unrealized gains or losses on these securities.

The Bureau of Public Debt (BPD), on behalf of USACE, invests in nonmarketable securities. Nonmarketable, market-based
intragovernmental securities mimic marketable securities, but are not publicly traded.

Net investments are primarily held by the Harbor Maintenance Trust Fund.


1.J.	Accounts Receivable
Accounts receivable includes three categories: accounts, claims, and refunds receivable from other Federal entities or from the public.  
USACE bases the allowance for uncollectible accounts receivable due from the public on established percentages per aged category
of the cumulative balance of delinquent public receivables. USACE regards its intragovernmental accounts receivable balance as
fully collectable.

Accounts receivable also includes amounts stemming from long-term water storage agreements based on the cost of construction to be
recouped by USACE from the municipality and Louisiana coastal restoration. USACE performs an analysis of the collectability of the
receivables periodically and recognizes an allowance for estimated uncollectible amounts from the municipality.


1.K.	Operating Materials and Supplies

USACE operating materials and supplies are stated at historical cost under moving average cost method and are adjusted for the results
of physical inventories.  Operating materials and supplies are expensed when consumed.


1.L.	General Property, Plant and Equipment
USACE General Property, Plant, and Equipment (PP&E) is capitalized at historical acquisition cost plus capitalized improvements
when an asset has a useful life of two or more years and the acquisition cost exceeds $25 thousand with the exception of buildings and
structures related to hydropower projects which are capitalized regardless of cost.

USACE uses estimates to support the historical costs of its real property assets, including the administrative costs of land, acquired
prior to FY 1999, and personal property assets acquired prior to FY 2003.  The estimates are necessary because certain supporting
documentation to substantiate recorded costs for those assets is no longer available.  Management’s estimation methods, which are
consistent with the principles, relevant to USACE circumstances, as contained in SFFAS No. 6, Accounting for Property, Plant and
Equipment; SFFAS No. 23, Eliminating the Category National Defense Property, Plant And Equipment; and SFFAS No. 35, Estimating
the Historical Cost of General Property, Plant, and Equipment: Amending Statements of Federal Financial Accounting Standards 6 and 23;
consist of using a combination of appropriation or engineering documents, or other available real estate, financial, appropriations,
and operations data, combined with written management attestation statements, to estimate and support the original acquisition or
construction costs recorded for each asset.

Construction in Progress (CIP) is used to accumulate the cost of construction and accumulated costs are transferred from CIP to the
relevant asset category when an asset is completed.


1.M.	Leases
Lease payments for the rental of equipment and operating facilities are classified as operating leases. An operating lease does not
substantially transfer all the benefits and risk of ownership. Payments for operating leases are charged to expense over the lease term as
it becomes payable.
46     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


1.N.	Other Assets
Other assets include travel advances that are not reported elsewhere on USACE’s Balance Sheet.


1.O.	Accounts Payable
Accounts payable are the amounts owed, but not yet paid, by USACE for goods and services received from other entities, progress in
contract performance made by other entities, and rents due to other entities. USACE has no known delinquent accounts payable.


1.P.	Debt
USACE debt consists of the amount owed to the U.S. Treasury for capital improvements to the Washington Aqueduct. USACE
entered into an agreement with Arlington County and the City of Falls Church, Virginia, to provide funding to USACE to repay
the debt.


1.Q.	Due to Treasury – General Fund
USACE reported an offsetting custodial liability for amounts Due to Treasury – General Fund for interest and accounts receivable
which, when collected, will be deposited in the U.S. Treasury.


1.R.	Federal Employee and Veterans’ Benefits
The Federal Employees and Veterans’ Benefits liability consist of the actuarial liability for Federal Employees Compensation Act
benefits. The Department of the Army (DA) actuarial liability for workers’ compensation benefits is developed by the Department of
Labor (DOL) and provided to the DA at the end of each fiscal year.  The liability for future workers’ compensation benefits includes
the expected liability for death, disability, medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims.  The liability is determined using a method that utilizes historical benefit payment patterns related to
a specific incurred period to predict the ultimate payments related to that period. Consistent with past practice, these projected annual
benefit payments have been discounted to present value using the OMB’s economic assumptions for 10-year U.S. Treasury notes
and bonds.


1.S.	Other Liabilities
USACE reports a liability for funded payroll and benefits, to include civilian earned leave, except sick leave, that has been accrued and
not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period reflects
current pay rates.

The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent
Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. USACE
recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated. USACE discloses contingent liabilities when conditions for liability recognition do not exist but there is at least
a reasonable possibility of incurring a loss or additional losses.

Examples of loss contingencies include the collectability of receivables, pending or threatened litigation, and possible claims and
assessments. USACE’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation or claims and
assessments due to events such as aircraft, ship and vehicle accidents; property or environmental damages; and contract disputes.


1.T.	Environmental and Disposal Liabilities
Environmental and disposal liabilities include future costs to address government-related environmental contamination at USACE
sites and other sites at which USACE is directed by Congress to perform remediation work.  USACE recognizes a liability for each
site as the need for cleanup work becomes probable and costs, based on site-specific engineering estimates, become measurable. Costs
to address environmental contamination not caused by the government are recorded as incurred. Cleanup remedies are selected from
                                                                                                                     Civil Works 47
                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

feasible alternatives using the decision-making process prescribed by the Comprehensive Environmental Response, Compensation, and
Liability Act.


1.U.	Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources are those liabilities for which Congressional action is needed before budgetary resources
can be provided.


1.V.	Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations include the amounts of authority that are unobligated and have not been rescinded or withdrawn.
Unexpended Appropriations also include amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses, and
financing sources (including appropriations, revenue, and gains).


1.W.	Allocation Transfers
USACE is a party to allocation transfers with other Federal agencies both as a transferring (parent) entity and receiving (child) entity.  
Allocation transfers are legal delegations by one agency of its authority to obligate budget authority and outlay funds to another agency.
A separate fund account (allocation account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and
reporting purposes. All allocation transfers of balances are credited to this account, and subsequent obligations and outlays incurred by
the child entity are charged to this allocation account as they execute the delegated activity on behalf of the parent entity.  Generally,
all financial activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is reported in the financial
statements of the parent entity, from which the underlying legislative authority, appropriations and budget apportionments are derived.
Exceptions to this general rule affecting USACE include certain U.S. Treasury-Managed Trust Funds for whom USACE is the parent
in the allocation transfer, but per OMB guidance, the child agencies will report budgetary and proprietary activity relative to these
allocation transfers in their financial statements.  The U.S. Treasury-Managed Trust Funds, which are included in USACE financial
statements, are South Dakota Terrestrial Wildlife Habitat Restoration, Inland Waterways, and Harbor Maintenance trust funds.  The
U.S. Treasury, Bureau of Public Debt, on behalf of USACE, makes allocation transfers from the Harbor Maintenance Trust Fund to
the Saint Lawrence Seaway Development Corporation and the U.S. Customs and Border Protection agency.

In addition to these funds, USACE received allocation transfers, as the child, from Departments of Agriculture, Interior,
Transportation, Energy and the Appalachian Regional Commission.


1.X.	Reclassifications
In FY 2012, changes to the presentation of the Combined Statements of Budgetary Resources (SBR) were made, in accordance with
guidance provided in OMB Circular No. A-136 and as such, activity and balances reported on the FY 2011 SBR have been reclassified
to conform to the presentation in the current year.
48     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Note 2.	Nonentity Assets
 As of September 30                                                           2012                                2011
 (Amount in thousands)
Nonentity Assets
Intragovernmental Assets
    Fund Balance with Treasury                                  $                          11,118   $                          11,386
    Total Intragovernmental Assets                                                         11,118                              11,386
Cash and Other Monetary Assets                                                              1,691                               1,195
Accounts Receivable                                                                     2,408,249                           2,515,535
Total Nonfederal Assets                                                                 2,409,940                           2,516,730
Total Nonentity Assets                                                                  2,421,058                           2,528,116
Total Entity Assets                                                                    51,586,557                          51,656,739
Total Assets                                                    $                      54,007,615   $                      54,184,855

Other Information

Intragovernmental Nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense accounts and is
not available for use in operations. Deposit and suspense accounts are used to record amounts held temporarily until ownership is
determined. USACE is acting as an agent or custodian for funds awaiting distribution.

Cash and Other Monetary Assets reflect the Disbursing Officer’s Accountability which is comprised of change funds for recreation
cashiers, disbursing officer’s cash, and foreign currency.  The Disbursing Officer acts as an agent for the U. S. Treasury.

Nonfederal Accounts Receivable represents all receivables from nonfederal sources where USACE does not have specific statutory
authority to retain the receipts. These receivables consist of multiple types of long-term agreements such as easements, sale of
hydroelectric power, recreational development, and long-term water storage agreements.

Note 1.J “Accounts Receivable”, Note 5, “Accounts Receivable, Net”, and Note 13, “Due to Treasury – General Fund and Other
Liabilities”, provide additional information related to long-term water storage agreements.


Note 3.	Fund Balance with Treasury
 As of September 30                                                           2012                                2011
 (Amount in thousands)
Fund Balances
   General Funds                                                $                      11,675,098   $                      12,745,069
   Revolving Funds                                                                      1,579,441                           1,486,115
   Trust Funds                                                                            102,746                             110,517
   Special Funds                                                                           81,458                              75,435
   Contributed Funds                                                                      979,219                           1,066,755
   Other Fund Types                                                                        43,521                              48,711
Total Fund Balances                                             $                      14,461,483   $                      15,532,602

Status of Fund Balance with Treasury
 As of September 30                                                           2012                                2011
 (Amount in thousands)
Unobligated Balance
   Available                                                    $                       8,596,136 $                         8,477,001
   Unavailable                                                                             13,941                              51,487
Obligated Balance not yet Disbursed                                                     8,374,732                          10,405,457
Nonbudgetary FBWT                                                                          84,044                              80,434
Non FBWT Budgetary Accounts                                                            (2,607,370)                         (3,481,777)
Total                                                           $                      14,461,483 $                        15,532,602
                                                                                                                                Civil Works 49
                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

Other Information

The Status of Fund Balance with Treasury reflects the budgetary resources to support the FBWT and is a reconciliation between
budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that has
not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested in U.S. Treasury
securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted for future use and are not
apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the public law that established the
funds.  USACE is the lead agency for reporting the financial data for the Inland Waterways, Harbor Maintenance, and South Dakota
Terrestrial Wildlife Habitat Restoration trust funds. These trust funds remain invested and restricted for use until transferred to meet
current expenditure requirements.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and those received
but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit and clearing accounts.

Non FBWT Budgetary Accounts reduces the Status of FBWT and includes borrowing authority, investment accounts, accounts
receivable and unfilled orders without advance from customers.


Note 4.	Investments and Related Interest
As of September 30                                                                                      2012
                                                                                   Amortization        Amortized                           Market Value
 (Amount in thousands)                                                Cost                                              Investments, Net
                                                                                     Method        (Premium)/Discount                       Disclosure

Intragovernmental Securities
Nonmarketable, Market-Based                                       $ 7,264,578 Effective Interest          (57,704)         7,206,874        7,416,234
Accrued Interest                                                       32,907                                   -             32,907           32,907
Total Intragovernmental Securities                                $ 7,297,485                             (57,704)         7,239,781        7,449,141


As of September 30                                                                                      2011
                                                                                   Amortization        Amortized                           Market Value
 (Amount in thousands)                                                Cost                                              Investments, Net
                                                                                     Method        (Premium)/Discount                       Disclosure
Intragovernmental Securities
Nonmarketable, Market-Based                                       $ 6,495,067 Effective Interest          (37,322)         6,457,745        6,704,814
Accrued Interest                                                       31,722                                   -             31,722           31,722
Total Intragovernmental Securities                                $ 6,526,789                             (37,322)         6,489,467        6,736,536

Other Information

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with earmarked funds.  The
cash receipts collected from the public for an earmarked fund are deposited in the U.S. Treasury, which uses the cash for general
Government purposes.  Treasury securities are issued to USACE as evidence of its receipts.  Treasury securities are assets to USACE and
liabilities to the U.S. Treasury.  Because USACE and the U.S. Treasury are both Governmental entities, these assets and liabilities offset
each other from the standpoint of the Government as a whole.  For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements.  

Treasury securities provide USACE with authority to draw upon the U.S. Treasury to make future benefit payments or other
expenditures.  When USACE requires redemption of these securities to make expenditures, the Government finances those
expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt, or
by curtailing other expenditures.  This is the same way that the Government finances all other expenditures.
50     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Total net investments among the Harbor Maintenance Trust Fund for FY 2012 and FY 2011 are $7.1 and $6.3 billion, respectively.

The U.S. Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank of New York
on September 30, 2012 and September 30, 2011, respectively.  


Note 5.	Accounts Receivable, Net
As of September 30                                                                                    2012
                                                                                               Allowance For Estimated
 (Amount in thousands)                                                Gross Amount Due                                     Accounts Receivable, Net
                                                                                                    Uncollectibles
Intragovernmental Receivables                                     $              606,610   $                      N/A $                   606,610
Nonfederal Receivables (From the Public)                          $            2,431,791   $                   (3,018) $                2,428,773
Total Accounts Receivable                                         $            3,038,401   $                   (3,018) $                3,035,383


As of September 30                                                                                    2011
                                                                                               Allowance For Estimated
 (Amount in thousands)                                                Gross Amount Due                                     Accounts Receivable, Net
                                                                                                    Uncollectibles
Intragovernmental Receivables                                     $              647,913   $                      N/A $                   647,913
Nonfederal Receivables (From the Public)                          $            2,544,044   $                     (564) $                2,543,480
Total Accounts Receivable                                         $            3,191,957   $                     (564) $                3,191,393

Other Information

As of September 30, 2012 and September 30, 2011, Accounts Receivables Intragovernmental include $466.4 million and
$421.2 million, respectively, for amounts received from the Coastal Wetlands Restoration Trust Fund for projects in the New
Orleans District.

As of September 30, 2012 and September 30, 2011, Accounts Receivable from the Public, net of allowances, stemming from long-
term water storage and Louisiana coastal restoration, flood control and hurricane protection agreements include $2.2 billion and
$2.3 billion, respectively.  These agreements have maturity dates ranging from two to fifty years, and interest rates based on the U.S.
Treasury effective rate at the time of the agreement.


Note 6.	 Cash and Other Monetary Assets
 As of September 30                                                             2012                                        2011
 (Amount in thousands)
Cash                                                              $                                  33    $                                     8
Foreign Currency                                                                                  1,658                                      1,187
Total Cash and Foreign Currency                                   $                               1,691    $                                 1,195

Other Information

Cash is the total of cash resources under the control of USACE, which includes coin, paper currency, negotiable instruments, and
amounts held for deposit in banks and other financial institutions.  Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency.  Foreign currency
fluctuations require adjustments to the original obligation amount at the time of payment. USACE does not separately identify
currency fluctuations.

USACE translates foreign currency to U.S. dollars utilizing the U.S. Treasury Prevailing Rate of Exchange.  This rate is the most
favorable rate that would legally be available to the Federal Government for acquisition of foreign currency for its official disbursements
and accommodation of exchange transactions. There are no significant effects from changes in the foreign currency exchange rate.
                                                                                                                                                 Civil Works 51
                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 7.	Operating Materials and Supplies
 As of September 30                                                                             2012                                             2011
 (Amount in thousands)
Operating Materials and Supplies:
   Items Held for Use                                                  $                                          63,533     $                                 166,379
Total                                                                  $                                          63,533     $                                 166,379

Other Information

Operating materials and supplies (OM&S) is comprised of personal property to be consumed in normal operations.  The OM&S
category includes materials used for constructing riverbank stabilization devices, and spare and repair parts.  USACE applies moving
average cost flow assumptions to arrive at the historical cost of the ending OM&S and cost of goods consumed.

As of September 30, 2012 and 2011, there were no differences between the carrying amount and the net realizable value of OM&S.  
There are no restrictions on the use of OM&S.

As of September 30, 2012 and 2011, USACE does not have inventories, stockpile materials, seized or forfeited properties, or goods
held under price support and stabilization programs, as defined in SFFAS No. 3, “Accounting for Inventory and Related Property”.


Note 8.	General Property, Plant & Equipment, Net
As of September 30                                                                                           2012
                                                                                                                                 (Accumulated
                                                   Depreciation/
                                                                           Service Life (yrs)        Acquisition Value           Depreciation/          Net Book Value
 (Amount in thousands)                           Amortization Method
                                                                                                                                 Amortization)
Major Asset Classes
   Land                                               N/A                 N/A                    $        9,021,172                        N/A $            9,021,172
   Buildings, Structures, and Facilities              S/L               20 - 100                         31,195,733      $         (16,090,489)            15,105,244
   Leasehold Improvements                             S/L              Lease term                            39,535                    (31,951)                 7,584
   Software                                           S/L                2 - 10                             114,519                    (88,826)                25,693
   General Equipment                                  S/L                5 - 50                           1,892,105                   (940,225)               951,880
   Construction-in- Progress                          N/A                 N/A                             4,094,056                        N/A              4,094,056
Total General PP&E                                                                               $       46,357,120      $         (17,151,491) $          29,205,629


As of September 30                                                                                            2011
                                                                                                                                 (Accumulated
                                                   Depreciation/
                                                                           Service Life (yrs)        Acquisition Value           Depreciation/          Net Book Value
 (Amount in thousands)                           Amortization Method
                                                                                                                                 Amortization)
Major Asset Classes
   Land                                               N/A                 N/A                    $        8,996,292                        N/A $            8,996,292
   Buildings, Structures, and Facilities              S/L               20 - 100                         30,473,078      $         (15,544,837)            14,928,241
   Leasehold Improvements                             S/L              Lease term                            44,547                    (40,695)                 3,852
   Software                                           S/L                2 - 10                             121,193                    (83,563)                37,630
   General Equipment                                  S/L                5 - 50                           1,733,679                   (885,802)               847,877
   Construction-in- Progress                          N/A                 N/A                             3,989,809                        N/A              3,989,809
   Other                                                                                                        354                       (354)                     -
Total General PP&E                                                                               $       45,358,952      $         (16,555,251) $          28,803,701

Legend for Depreciation Methods:
S/L = Straight Line	     N/A = Not Applicable


Other Information

USACE currently operates and maintains 75 hydroelectric power plants, generating approximately 24% of America’s hydroelectric
power.  All power generated by these hydroelectric power plants is transmitted to four Power Marketing Administrations for
52     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


distribution to power companies across the United States. The service life for USACE’s hydropower project related assets is derived
from guidance provided by the Federal Energy Regulatory Commission based on industry standards.  The hydropower project related
assets make up $10.2 billion of the net book value of USACE’s PP&E in FY 2012 and $9.9 billion in FY 2011.  

As of September 30, 2012 and 2011, approximately $26.2 billion of the acquisition value recorded in the PP&E line is being
supported by alternate methods described in Note 1.L “General Property, Plant, and Equipment”.  The net book value is $9.3 billion
at September 30, 2012, and $11.9 billion at September 30, 2011.

Note 9 “Stewardship Property, Plant and Equipment (PP&E)” provides the physical quantity information for multi-use heritage assets
that are recognized and presented with general PP&E in the basic financial statements.

There are no restrictions on the use or convertibility of general PP&E.


Note 9.	Stewardship Property, Plant and Equipment (PP&E)
Information Related to Stewardship PP&E

Stewardship PP&E are assets whose properties resemble those of the General PP&E that are traditionally capitalized in the financial
statements. Due to the nature of these assets, however, valuation would be difficult and matching costs with specific periods would
not be meaningful.  Stewardship PP&E consists of heritage assets.  Heritage assets are items of historical, natural, cultural, educational,
or artistic significance, (e.g., aesthetic) or items with significant architectural characteristics. Heritage assets are expected to be
preserved indefinitely. In the case where a heritage asset serves both a heritage function and general government operations, the
asset is considered a multi-use heritage asset.  Multi-use heritage assets are recognized and presented with general PP&E in the basic
financial statements.

Relevance to the USACE Mission

USACE, as a steward of public land, has the responsibility for ensuring that properties of a historical or traditional nature located on
USACE lands are preserved and managed appropriately.  USACE implements Cultural Resource Management in a positive manner
that fulfills the requirements of all laws, regulations, and policies, for all project undertakings in an environmentally and economically
sound manner, and in the interest of the American public.

Stewardship Policy

USACE has the responsibility to manage cultural resources and heritage properties on USACE-owned lands. Engineering Regulations
1105-2-100 and 1130-2-540 provide the basic guidance for the USACE Civil Works Program.  The term “cultural resources” refers to
any building, site, structure, object, or other material significant in history, architecture, archeology, or culture. Historic properties are
sites that are eligible for inclusion in National Register of Historic Places. The National Register is an inventory of historic properties
important in our Nation’s history, culture, architecture, archeology, and engineering. The National Register office within the National
Park Service maintains the inventory. Properties are either listed on the National Register, have formally been determined eligible, or
appear to meet eligibility criteria to be listed. In addition to the Engineering Regulations, USACE also adheres to Army Regulations
200-4 and 870-20 related to managing cultural resources and heritage assets.

Heritage Asset Categories

     1.	 Buildings and Structures. Buildings and structures are those heritage assets listed on, or eligible for listing on, the National
         Register of Historic Places. Buildings and structures include a range of historic resources from the Crooked Creek Lake Dam
         located in Pennsylvania and the Indiana and Michigan Canal in Illinois.  They also include some non-traditional structures,
         such as the War Eagle, a steamer that caught fire in Lacrosse, Wisconsin in 1870.  There are 95 buildings and structures listed
         on the National Register and 217 determined eligible for listing.  There are a total of 312 heritage assets in this category;
         this reflects a decrease of 48 building and structures, 34 of which were reclassified as archeological sites, from the prior
                                                                                                                        Civil Works 53
                                                     Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

          fiscal yearend report. Additionally, we noted 41 building and structures as multi-use heritage assets within our districts and
          divisions.  An example of a multi-use heritage asset within the Corps is the Mill Spring Mill in Kentucky, which is listed on
          the National Register of historic places and serves as a full service visitor center.

     2.  	 Archeological Sites. Cemeteries and archeological sites are archeological properties listed on or eligible for listing in the
           national Register of Historic Places.  The current National Register inventory for USACE included 119 archeological
           properties listed and 488 archeological properties determined to be eligible for listing.  This total of 607 archeological sites
           reflects an increase of 46, 34 of which were reclassified from buildings and structures, from the prior fiscal yearend report.

     3.  	 Museum Collection Items (Objects).  Museum collection items are unique for one or more of the following reasons:  
           historical or natural significance; cultural, educational or artistic importance; or significant technical or architectural
           characteristics. These items are divided into two subcategories: fine art and objects. These include museum collection
           items that have historical or cultural significance, but lack formal listing and the demonstrated need for active maintenance.
           USACE added a net of 10 items to the Museum Collection Items for FY2012.


                                                   As of 10/01/10   Increase    Decrease    As of 9/30/11   Increase   Decrease     As of 9/30/12
Building and Structures                                    291           145         (76)          360            31         (79)          312
Archeological Sites                                        676           183        (298)          561            59         (13)          607
Museum Collection Items                                    195             6           0           201            16          (6)          211

Acquisition and Withdrawal of Heritage Assets

USACE had a net decrease of two heritage assets during FY 2012 from the “eligible for” listing.  USACE reported this net affect
through its normal process of established regulations for identifying Heritage Asset. USACE provides this information to the keeper
of the National Register of Historic Places at the Department of the Interior, National Park Service. USACE adds museum collections
as items are unearthed or otherwise acquired on USACE lands. USACE removes museum collections when items are donated to
museums, universities, or returned to tribes.


Note 10.	Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                2012                                  2011
 (Amount in thousands)
Intragovernmental Liabilities
    Debt                                                             $                             4,273    $                            5,114
    Due to Treasury - General Fund                                                             2,408,205                             2,515,535
    Other                                                                                        233,920                               236,897
Total Intragovernmental Liabilities                                  $                         2,646,398    $                        2,757,546

Federal Employee and Veterans’ Benefits                                                          261,352                               251,076
Environmental and Disposal Liabilities                                                           998,241                             1,078,592
Contingent Liabilities                                                                           450,335                               438,151

Total Liabilities Not Covered by Budgetary Resources                 $                        4,356,326     $                        4,525,365
Total Liabilities Covered by Budgetary Resources                     $                        2,996,689     $                        3,621,268
Total Liabilities                                                    $                        7,353,015     $                        8,146,633

Other Information

Intragovernmental Liabilities – Debt is comprised of the amount owed by USACE to the U.S. Treasury for capital improvements to
the Washington Aqueduct.  Arlington County and the City of Falls Church, Virginia provide funding to USACE to repay the debt.  
Refer to Note 11, “Debt,” for additional details and disclosures.  
54     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Intragovernmental Liabilities – Due to Treasury - General Fund includes offsetting custodial liability to accounts receivable.  The
custodial liability is for amounts that will be deposited in the general fund of the U.S. Treasury when collected and are primarily related
to long-term water storage and Louisiana coastal restoration, flood control and hurricane protection agreements. Budgetary resources
are not required for these types of liabilities.

Intragovernmental Liabilities – Other includes Judgment Fund liabilities-Contract Dispute Act (CDA), and workmen’s compensation
liabilities under the Federal Employees Compensation Act (FECA).  The FECA liability will be funded in future appropriations.

Federal Employee and Veterans’ Benefits include actuarial liability for FECA.  Refer to Note 13, “Due to Treasury - General Fund and
Other Liabilities,” for additional details and disclosures.  The FECA actuarial liability is a future funded expense and will be funded in
future appropriations.

Environmental and Disposal Liabilities represent estimated cleanup costs for environmental liabilities, which will be funded in future
appropriations.  Refer to Note 12, “Environmental and Disposal Liabilities,” and Note 13, “Due to Treasury - General Fund and Other
Liabilities,” for additional details and disclosures.

Contingent liabilities represent probable losses related to lawsuits filed against USACE. Contingent liabilities may be funded in future
appropriations. Refer to Note 14 “Contingencies” for additional details and disclosures.


Note 11.	Debt
As of September 30                                                                                   2012
 (Amount in thousands)                                                Beginning Balance            Net Borrowing               Ending Balance
Agency Debt (Intragovernmental)
   Debt to the Treasury                                           $                 5,114   $                      (841) $                  4,273


As of September 30                                                                                   2011
 (Amount in thousands)                                                Beginning Balance            Net Borrowing               Ending Balance

Agency Debt (Intragovernmental)
   Debt to the Treasury                                           $                 5,634   $                      (520) $                  5,114

Other Information

The outstanding debt consists of interest and principal payments due to the U.S. Treasury. USACE executed three promissory notes
totaling $75.0 million with the U.S. Treasury for capital improvements to the Washington Aqueduct.  USACE entered into agreements
with Arlington County and the City of Falls Church, Virginia to provide funding to USACE to repay the debt.  USACE recognized
a receivable for $4.3 million in principal and current interest due from Arlington County and the City of Falls Church, Virginia, as
of September 30, 2012.  The remaining debt balance is scheduled to be paid off in FY 2023.  Actual cumulative amount of funds
borrowed from the U.S. Treasury is $74.9 million of which $4.3 million is outstanding at September 30, 2012 and $5.1 million is
outstanding at September 30, 2011.  There were no withdrawals from the U.S. Treasury for FY 2012 or FY 2011.  Total principal
repayments in FY 2012 were $841 thousand and total principal repayments in FY 2011 were $520 thousand.  


Note 12.	Environmental and Disposal Liabilities
 As of September 30                                                              2012                                        2011
 (Amount in thousands)
Formerly Utilized Sites Remedial Action Program (FUSRAP)          $                             994,716   $                            1,069,551
Other                                                                                             3,525                                    9,041
Total Environmental and Disposal Liabilities                      $                             998,241   $                            1,078,592
                                                                                                                       Civil Works 55
                                                    Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

Assumptions and Uncertainties

Estimating environmental liabilities requires making assumptions about future activities and is inherently uncertain. The cleanup
estimates reflect local decisions and expectations as to the extent of cleanup and site reuse, and include assessments of the effort
required to complete the project based on data collected during the remedial investigation and feasibility study phases of each
project.  For most projects, the volume of contaminated material to be removed and the cost to dispose of such material, including
transportation, are the elements of the estimates with the greatest uncertainty and potential for significant increase in project costs.  For
some projects the estimate includes contingency provisions intended to account for the uncertainties associated with estimating these
elements and other factors.

Based on the inherent uncertainties associated with environmental cleanup the initial cost estimate for each site is not exact and will
change as more relevant data becomes available. Estimates are refined as alternative approaches are evaluated and a preferred alternative
is approved in a record of decision.  USACE recognizes expenses related to cleanup costs during the period incurred.  

USACE considers various key factors in determining whether future outflows of resources can be reasonably estimated, including:

     ÂÂ Completion of remedial investigation/feasibility study or other study,
     ÂÂ Experience with similar site and/or conditions, and
     ÂÂ Availability of remediation technology.

In addition to the liability amount reported above, USACE is subject to other potential environmental liabilities for which the exact
amount or range of loss is unknown.

Formerly Utilized Sites Remedial Action Program

USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), established to respond to radiological
contamination from early U.S. Atomic Energy and Weapons Programs.  For each FUSRAP site, USACE has received Congressional
authorization to ascertain the extent of environmental contamination; select a remedy with input from state and federal authorities and
local stakeholders; perform the cleanup work; and dispose of wastes. After cleanup work is completed at each site, USACE transfers
responsibility for long-term surveillance and monitoring to the U.S. Department of Energy.

Changes in the FUSRAP liability during the fiscal years ended September 30, 2012 and 2011 resulted from inflation adjustments to
reflect changes in costs for the current year, cleanup activities performed, and adjustments to estimates of soil volumes.

Other Environmental Liabilities

Other environmental liabilities relate to environmental contamination at current or former USACE project sites.  
56     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Note 13.	Due to Treasury – General Fund and Other
         Liabilities
As of September 30                                                                                  2012
 (Amount in thousands)                                               Current Liability         Noncurrent Liability       Total
Intragovernmental
    Due to Treasury-General Fund                                $                197,217                  2,210,988           2,408,205
    Advances from Others                                                         550,502                          -             550,502
    Deposit Funds and Suspense Account Liabilities                                   509                          -                 509
    Disbursing Officer Cash                                                        1,691                          -               1,691
    Judgment Fund Liabilities                                                    183,443                          -             183,443
    FECA Reimbursement to the
    Department of Labor                                                           22,281                     28,196              50,477
    Employer Contribution and Payroll Taxes Payable                               30,299                          -              30,299
Total Intragovernmental                                         $                985,942                  2,239,184           3,225,126

   Accrued Funded Payroll and Benefits                          $                476,961                          -             476,961
   Advances from Others                                                           44,748                          -              44,748
   Deferred Credits                                                              972,087                          -             972,087
   Deposit Funds and Suspense Accounts                                            11,161                          -              11,161
   Contract Holdbacks                                                             68,300                          -              68,300
   Contingent Liabilities                                                        450,335                          -             450,335
Total Other Liabilities                                         $              3,009,534                  2,239,184           5,248,718


As of September 30                                                                                   2011
 (Amount in thousands)                                               Current Liability         Noncurrent Liability       Total
Intragovernmental
    Due to Treasury-General Fund                                $                281,755 $                2,233,780   $       2,515,535
    Advances from Others                                                         705,334                          -             705,334
    Deposit Funds and Suspense Account Liabilities                                  (154)                         -                (154)
    Disbursing Officer Cash                                                        1,195                          -               1,195
    Judgment Fund Liabilities                                                    186,274                          -             186,274
    FECA Reimbursement to the Department of Labor                                 21,810                     28,813              50,623
    Employer Contribution and Payroll Taxes Payable                               29,945                          -              29,945
Total Intragovernmental                                         $              1,226,159 $                2,262,593   $       3,488,752

   Accrued Funded Payroll and Benefits                          $                522,221   $                      -   $         522,221
   Advances from Others                                                          164,682                          -             164,682
   Deferred Credits                                                            1,065,817                          -           1,065,817
   Deposit Funds and Suspense Accounts                                            11,386                          -              11,386
   Contract Holdbacks                                                             69,212                          -              69,212
   Contingent Liabilities                                                        438,151                          -             438,151
Total Other Liabilities                                         $              3,497,628   $              2,262,593   $       5,760,221

Other Information

Intragovernmental - Due to Treasury – General Fund is the custodial liability held with U.S. Treasury for repayment of interest and
accounts receivable which, when collected, will be deposited in the U.S. Treasury. USACE records a custodial liability for payables
from water storage and hydraulic mining contracts and for flood control, coastal restoration and hurricane protection measures with
the Coastal Protection and Restoration Authority of Louisiana.

Judgment Fund Liabilities - USACE has recognized an unfunded liability arising from Judgment Fund Contract Disputes Act (CDA)
settlements in accordance with a provision of the CDA requiring agencies to reimburse the Judgment Fund for payments to claimants
in cases involving federal contract disputes. USACE cannot fund the CDA claims since it is funded for projects and does not receive
                                                                                                                      Civil Works 57
                                                    Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

funding for this type of claim.  USACE sought supplemental appropriations for payment of CDA claims in FY 2000, FY 2006, and
FY 2007, but these requests were not approved.  The FY 2012 budget does not provide funding for payment of the CDA claims.  


Note 14.	Contingencies
Legal Contingencies

USACE is a party in various administrative proceedings and legal actions related to claims for environmental damage, equal
opportunity matters, and contractual bid protests.  USACE has accrued contingent liabilities for legal actions where USACE’s Office of
the Chief Counsel considers an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment
against the Government, some of the liabilities may be payable from the U.S. Treasury’s Judgment Fund.  USACE discloses amounts
recognized as contingent liabilities in Note 13, Due to Treasury - General Fund and Other Liabilities.

The U.S. Army Claims Service (USARCS) supervises processing, investigates, adjudicates, and negotiates the settlement of non-
contractual administrative claims on behalf of and against the Department of the Army (including USACE); however, because of
their uniqueness, the hurricane Katrina-related administrative claims are processed by the U.S. Department of Justice (DOJ).  By law,
administrative claims filed against the Government are either adjudicated, denied, or are effectively denied if no action is taken within
six months from the claim filing date. Barring such resolution within six months from the date of filing, claimants may file legal
cases with the Federal Court.  Filing of an administrative claim for resolution is a required precursor to a claimant’s filing against the
Government in Federal Court.

Claims settled below the statutory threshold of $2,500 are paid using Civil Works appropriations; settlements above this threshold are
referred to the Judgment Fund for payment.  With the exception of CDA settlements disclosed in Note 13, amounts that are paid by
the Judgment Fund are recorded as expenses and imputed financing sources.

Probable Likelihood of an Adverse Outcome

USACE is subject to potential liabilities where adverse outcomes are probable, and claims ranged from $450.3 million to
$609.7 million as of September 30, 2012.  At September 30, 2011, probable claims ranged from $438.2 million to $536.7 million.  
The contingent liabilities are included in Note 13.

Reasonably Possible Likelihood of an Adverse Outcome

USACE is subject to potential liabilities where adverse outcomes are reasonably possible, and claims ranged from $428.8 thousand to
$8.3 billion as of September 30, 2012.  At September 30, 2011, reasonably possible claims ranged from $5.5 million to $7.4 billion.  

Hurricane Katrina-Related Claims and Litigation

Various parties filed administrative claims and lawsuits against USACE as a result of hurricane Katrina in 2005.  Most of the Katrina-
related litigation is consolidated before a single federal judge sitting in the Federal District Court in New Orleans.  The Court, for case
management purposes, has classified the individual cases into seven categories and ordered the filing of superseding, master complaints
in most categories: Levee, Mississippi River Gulf Outlet (MRGO), Insurance, Responder, Dredging Limitation, St. Rita Nursing
Home, and Barge.  The MRGO category, the Barge category and Robinson, involving similar geographic areas, are most relevant to
USACE at this point.  The Government plans to vigorously defend these cases.

Concerning the Levee Master consolidated class action complaint, the Court granted the United States’ motion to dismiss.  By Order
entered on October 14, 2010, the Court certified this decision as a final judgment.  On September 24, 2012, the U.S. Fifth Circuit
Court of Appeals issued a substitute ruling affirming the trial court order of dismissal.

The Government filed a motion to dismiss the MRGO case with regard to the application of the discretionary function exception to
the activities performed at the East Bank Industrial Area (EBIA) on September 15, 2009.  By Order entered February 2, 2010, the
Court granted the motion dismissing the EBIA allegations without prejudice, allowing for the refiling of those claims by those class
representatives who had prematurely filed suit. Plaintiffs have subsequently refiled a new suit with the identical claims. The Court
58     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


further allowed the consolidation of a suit by the Entergy power companies that raises these same MRGO and EBIA allegations and
also specifically excepted Entergy from the MRGO stay imposed on other parties and litigation.  The U.S. filed its motion to dismiss
the EBIA allegations on August 3, 2010, and an oral argument was held on October 13, 2010.  On February 11, 2011, the court
denied the United States’ motion to dismiss the EBIA allegations.  A 16-day trial commenced on September 12, 2012, with the
Washington Group appearing as co-defendant with the Government under the terms of a Joint Defense Agreement.

In the Ingram Barge case, by Order entered June 22, 2009, the Court severed and stayed the third party claims of Lafarge against
the United States until 90 days after a decision is rendered by the Fifth Circuit in Robinson or until 90 days after a final resolution
of Robinson by the Supreme Court in the event that a writ of certiorari is sought, or until the passage of 18 months from the Order,
whichever date is sooner.  This Order grants the United States’ motion brought as a result of the Court’s stay issued on May 4, 2009, in
the MRGO category. As a result, the United States did not participate in the trial conducted in 2010, in which the Court found that
the barge did not cause the two floodwall breaches. That order is currently the subject of appeal.

The DOJ, which is responsible for litigating Katrina-related matters in Federal Court on behalf of the Government, has concluded that
there is a reasonable possibility that the Katrina-related administrative claims and court cases currently asserted could result in a loss to
the Federal Government.  The Government is unable to estimate the amount of any loss that may result; however, and USACE has not
recorded a provision for Katrina-related matters in the consolidated financial statements.

Other Litigation

In addition to the matters described above, USACE is subject to other potential liabilities for which the exact amount or range of loss is
unknown.

Commitments and Other Contingencies

USACE does not have undelivered orders for open contracts citing cancelled appropriations which may remain unfilled or
unreconciled and for which the reporting entity may incur a contractual commitment for payment.

USACE does not have contractual arrangements which may require financial obligations, such as fixed price contracts with escalations,
price redetermination, or incentive clauses, which may require future financial obligations.


Note 15.	General Disclosures Related to the Statement of
         Net Cost
 Year ended September 30                                                          2012                                 2011
 (Amount in thousands)
Intragovernmental Costs                                            $                         1,645,279   $                        1,681,577
Public Costs                                                                                 9,382,051                           12,575,900
Total Costs                                                        $                        11,027,330   $                       14,257,477

Intragovernmental Earned Revenue                                   $                        (2,624,632) $                         (2,976,802)
Public Earned Revenue                                                                         (893,025)                             (694,580)
Total Earned Revenue                                               $                        (3,517,657) $                         (3,671,382)

Net Cost of Operations                                             $                         7,509,673   $                       10,586,095

Other Information

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal Government.  
Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.
                                                                                                                  Civil Works 59
                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

The consolidated Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost of programs
and/or organizations that the Federal Government supports through appropriations or other means.  The SNC represents the Civil
Works Program for USACE.

USACE incurred no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets.


Note 16.	Disclosures Related to the Statement of Changes in
         Net Position
Other Information

Appropriations received on the Statement of Budgetary Resources (SBR) should not and do not agree with appropriations received
on the Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary accounting concepts and
reporting requirements.  The difference is due to additional resources of $1.9 billion during FY 2012 and $1.5 billion during FY 2011
in appropriated trust, contributed, and special fund receipts included in Appropriation on the SBR. These funds do not update
the proprietary appropriations received amount reported on the SCNP.  Refer to Note 17, “Statement of Budgetary Resources,” for
additional disclosures and details.


Note 17.	Disclosures Related to the Statement of Budgetary
         Resources
 As of September 30                                                           2012                                 2011
 (Amount in thousands)
Net Amount of Budgetary Resources Obligated for Undelivered
   Orders at the End of the Period                              $                        6,928,329   $                       8,689,826

Other Information

Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute budgetary
resources by activity, project, object or a combination of these categories. Exempt budgetary resources are not subject to
apportionment because they are not appropriated funds.  Funding sources for exempt category comes from sources outside the Federal
Government.

For FY 2012, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A SBR
includes:  $8.2 billion for direct obligations; $10.1 billion for reimbursable obligations; and $51.5 million for reimbursable
obligations exempt from apportionment. USACE did not report any direct obligations exempt from apportionment. USACE has no
apportionments under Category B. Undelivered orders presented in the SBR include undelivered orders-unpaid for both direct and
reimbursable funds.

For FY 2011, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A SBR
includes:  $9.3 billion for direct obligations; $10.7 billion for reimbursable obligations; and $59.8 million for reimbursable
obligations exempt from apportionment. USACE did not report any direct obligations exempt from apportionment. USACE has no
apportionments under Category B. Undelivered orders presented in the SBR include undelivered orders-unpaid for both direct and
reimbursable funds.

Intraentity transactions have not been eliminated because the SBR is presented as a combined statement.

Permanent Indefinite Appropriations. USACE receives receipts from hydraulic mining in California; leases of land acquired for flood
control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of navigable water including
maintenance and operation of dams. These funds are available for expenditure.
60      Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


There are no legal arrangements that affect the use of unobligated balances of budget authority.

There are differences between amounts reported on the SBR and the SF133, Report on Budget Execution (SF133) for FY 2012 and
FY 2011.  Treasury account symbol 96X6094 (Advances from the District of Columbia) is not included in the SF133.  This money is
not from appropriated funds and is not included in the OMB’s data for budget formulation.  USACE does include this appropriation
in the SBR.

The President’s Budget with actual figures for FY 2012 has not yet been published.  The FY 2014 President’s Budget will include actual
figures for FY 2012 reporting.  The FY 2014 President’s Budget can be found at: http://www.whitehouse.gov/omb, early in FY 2013.  The
following chart is a reconciliation of the FY 2013 President’s Budget actual figures for FY 2011 to FY 2011 Statement of Budgetary
Resources as required by OMB Circular No. A-136.



                                                  U.S. Army Corps of Engineers - Civil Works

                          Reconciliation of FY 2011 SBR to 2013 President’s Budget
                            Budgetary    Obligations    Offsetting   Net Outlays
                            Resources     Incurred      Receipts

(Amount in millions)        Line 1930    Line 0900     Line 0299     Line 4190
                                                                                                    Explanation for reconciling differences
SBR                          $28,632       $20,103          $696      $10,851
                                                                                   Expired American Recovery and Reinvestment Act
                                                                                   (ARRA) accounts are included in the SBR, but not the
Reconciling Difference           (164)        (114)                                President’s Budget.

                                                                                 The SBR includes Treasury symbol 96X6094 for advances from
                                                                                 the District of Columbia for work on the Washington Aqueduct.
                                                                                 It is not included in the President’s Budget since these are not
Reconciling Difference            (75)          (60)                        (16) appropriated funds.
                                                                                   General funds clearing accounts are included as distributed
                                                                                   offsetting receipts in accordance with DFAS yearend guidance.
Reconciling Difference                                       (134)                 It is not included in the President’s Budget amount.

                                                                                   The President’s Budget line 0299 includes total receipts and
                                                                                   collections for the trust funds. The SBR includes only USACE’s
                                                                                   distributed offsetting receipts to South Dakota Terrestrial
                                                                                   Wildlife per Treasury Financial Manual, Federal Account
                                                                                   Symbols and Titles (FAST Book). Other trust fund receipts are
Reconciling Difference                                      1,717                  included in the budgetary resources, line 0299.

                                                                                   Per the FAST Book, receipt account 96R 5125 is not a distributed
                                                                                   offsetting receipt account and is not included in the SBR as a
                                                                                   distributed offsetting receipt. It is included in the President’s
Reconciling Difference                                           9                 Budget amount.
Total                        $28,393       $19,929        $2,288      $10,835
President’s Budget             28,391       19,929          2,288       10,834
Difference                         (2)            0              0           (1) Due to rounding.
                                                                                                                    Civil Works 61
                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 18.	Reconciliation of Net Cost of Operations
         (Proprietary) to Budget
Year ended September 30                                                        2012                                 2011
(Amount in thousands)
Resources Used to Finance Activities:
Budgetary Resources Obligated:
Obligations incurred                                                $                    18,351,033     $                    20,103,323
Less: Spending authority from offsetting collections and
    recoveries                                                                           (11,126,177)                       (12,013,865)
Obligations net of offsetting collections and recoveries                                   7,224,856                          8,089,458
Less: Offsetting receipts                                                                   (552,645)                          (696,399)
Net obligations                                                                            6,672,211                          7,393,059
Other Resources:
Donations and forfeitures of property                                                            266                              3,206
Transfers in/out without reimbursement                                                       136,029                            113,610
Imputed financing from costs absorbed by others                                              325,537                            342,546
Net other resources used to finance activities                                               461,832                            459,362
Total resources used to finance activities                          $                      7,134,043    $                     7,852,421
Resources Used to Finance Items Not Part of the Net Cost of
    Operations:
Change in budgetary resources obligated for goods, services and
    benefits ordered but not yet provided:
    Undelivered Orders                                              $                      1,761,497 $                        2,594,006
    Unfilled Customer Orders                                                              (1,053,829)                          (168,471)
Budgetary offsetting collections and receipts that do not affect
    Net Cost of Operations                                                                  152,385                            192,332
Resources that finance the acquisition of assets                                             (7,007)                           (16,324)
Other resources or adjustments to net obligated resources that do
    not affect Net Cost of Operations:
    Other                                                                                   (174,835)                          (116,816)
Total Resources Used to Finance Items Not Part of the Net Cost
    of Operations                                                   $                        678,211    $                     2,484,727
Total Resources Used to Finance the Net Cost of Operations          $                      7,812,254    $                    10,337,148
Components Requiring or Generating Resources in
    Future Period:
Change in environmental and disposal liability                      $                        (80,351) $                         40,470
Change in exchange revenue receivable from the public                                        (86,645)                          108,730
Other                                                                                         19,484                           414,875
Total components of Net Cost of Operations that will Require
    or Generate Resources in future periods                         $                      (147,512)                          $564,075
Components not Requiring or Generating Resources:
Depreciation and amortization                                       $                       636,732     $                      739,619
Revaluation of assets or liabilities                                                          1,424                              2,119
Other
    Cost of Goods Sold                                                                           373                                297
    Operating Material and Supplies Used                                                           7                                 26
    Cost Capitalization Offset                                                            (1,024,698)                        (1,197,685)
    Other                                                                                    231,093                            140,496
Total Components of Net Cost of Operations that will not Require
    or Generate Resources                                                                  (155,069)                           (315,128)
Total components of Net Cost of Operations That Will Not
    Require or Generate Resources in the Current Period                                     (302,581)                           248,947
Net Cost of Operations                                              $                      7,509,673 $                       10,586,095
62    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Other Information

The following note schedule lines are presented as combined instead of consolidated due to intraentity budgetary transactions not
being eliminated:

     ÂÂ Obligations Incurred
     ÂÂ Spending Authority from Offsetting Collections and Recoveries
     ÂÂ Obligations Net of Offsetting Collections and Recoveries
     ÂÂ Offsetting Receipts
     ÂÂ Net Obligations
     ÂÂ Undelivered Orders
     ÂÂ Unfilled Customer Orders

Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not affect Net
Cost of Operations: Other – The FY 2012 and FY 2011 amounts include the net amount of assets transferred between USACE and
other government agencies.

Composition of Components Requiring or Generating Resources in Future Periods: Other - The FY 2012 amounts include the current
year increase to unfunded Judgment Fund Contract Disputes Act claims, Federal Employees’ Compensation (FECA) liability and the
FECA actuarial liability.  The FY 2011 amount includes current year Judgment Fund Contract Disputes Act claims and current year
unfunded expense for the FECA liability.

Composition of Components not Requiring or Generating Resources: Other – The FY 2012 and FY 2011 amounts include bad debt
expense and cost capitalization offset expense.  The cost capitalization offset account provides a mechanism to offset all direct costs
in the expense accounts when those costs are subsequently capitalized into an in-process account.  Current year costs associated with
nonfederal cost share projects in the contributed fund and costs related to the acquisition of operating materials and supplies in the
revolving fund are also recorded as other expenses not requiring budgetary resources.  In FY 2012 and FY 2011 costs associated with
fish mitigation studies in the general fund are also recorded as other expenses not requiring budgetary resources.
                                                                                                               Civil Works 63
                                         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 19.	Earmarked Funds
 (Amount in thousands)                                                                 FY 2012
BALANCE SHEET                                    Maintenance Fund   Contributed Fund   Other Funds     Eliminations    Consolidated Total
As of September 30
ASSETS
Fund balance with Treasury                       $     102,746            979,219            81,458      4,241,096         5,404,519
Investments                                          7,112,147                  -                 -              -         7,112,147
Accounts and Interest Receivable                       475,359              2,660             5,532         (7,342)          476,209
Other Assets                                           700,665             30,998               937              -           732,600
Total Assets                                     $   8,390,917          1,012,877            87,927      4,233,754        13,725,475
LIABILITIES and NET POSITION
Accounts Payable and Other Liabilities                  13,682          1,008,030               811         (7,500)        1,015,023
Total Liabilities                                $      13,682          1,008,030               811         (7,500)        1,015,023
Cumulative Results of Operations                     8,377,235              4,847            87,116      4,241,254        12,710,452
Total Liabilities and Net Position               $   8,390,917          1,012,877            87,927      4,233,754        13,725,475

STATEMENT OF NET COST
Year ended September 30
Program Costs                                    $       38,739            464,408           17,146         (53,085)          467,208
Less: Earned Revenue                                          -           (499,196)               -             233          (498,963)
Net Program Costs                                $       38,739            (34,788)          17,146         (52,852)          (31,755)
Net Cost of Operations                           $       38,739            (34,788)          17,146         (52,852)          (31,755)

STATEMENT OF CHANGES IN NET POSITION
Year ended September 30
Net Position Beginning of the Period             $   7,598,849              12,085           82,560      3,126,032        10,819,526
Net Cost of Operations                                  38,739             (34,788)          17,146        (52,852)          (31,755)
Budgetary Financing Sources                            836,548                   -           24,291        996,135         1,856,974
Other Financing Sources                                (19,423)            (42,026)          (2,589)        66,235             2,197
Change in Net Position                           $     778,386              (7,238)           4,556      1,115,222         1,890,926
Net Position End of Period                       $   8,377,235               4,847           87,116      4,241,254        12,710,452

 (Amount in thousands)                                                                 FY 2011
BALANCE SHEET                                    Maintenance Fund   Contributed Fund   Other Funds     Eliminations    Consolidated Total
As of September 30
ASSETS
Fund balance with Treasury                       $     110,517          1,066,755            75,435      3,125,703         4,378,410
Investments                                          6,357,258                  -                 -              -         6,357,258
Accounts and Interest Receivable                       436,204                703             5,509        (13,425)          428,991
Other Assets                                           714,632             37,121             1,855              -           753,608
Total Assets                                     $   7,618,611          1,104,579            82,799      3,112,278        11,918,267
LIABILITIES and NET POSITION
Accounts Payable and Other Liabilities                  19,762          1,092,494               239        (13,754)        1,098,741
Total Liabilities                                $      19,762          1,092,494               239        (13,754)        1,098,741
Cumulative Results of Operations                     7,598,849             12,085            82,560      3,126,032        10,819,526
Total Liabilities and Net Position               $   7,618,611          1,104,579            82,799      3,112,278        11,918,267

STATEMENT OF NET COST
Year ended September 30
Program Costs                                    $       70,640            387,068           19,155         (38,751)          438,112
Less: Earned Revenue                                          -           (393,274)               -               6          (393,268)
Net Program Costs                                $       70,640             (6,206)          19,155         (38,745)           44,844
Net Cost of Operations                           $       70,640             (6,206)          19,155         (38,745)           44,844

STATEMENT OF CHANGES IN NET POSITION
Year ended September 30
Net Position Beginning of the Period             $   6,957,796              12,644           76,073      2,145,754         9,192,267
Net Cost of Operations                                  70,640              (6,206)          19,155        (38,745)           44,844
Budgetary Financing Sources                            848,225                   -           25,629        926,702         1,800,556
Other Financing Sources                               (136,532)             (6,765)              13         14,831          (128,453)
Change in Net Position                           $     641,053                (559)           6,487        980,278         1,627,259
Net Position End of Period                       $   7,598,849              12,085           82,560      3,126,032        10,819,526
64     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Other Disclosures

All intragovernmental activity within USACE between earmarked and nonearmarked funds has been eliminated from the consolidated
total column.

USACE earmarked funds are presented by fund type vice individual fund due to the volume of individual earmarked funds based on
SFFAS No. 27, “Identifying and Reporting Earmarked Funds.”

There has been no change in legislation during or subsequent to the reporting periods and before the issuance of the financial
statements that significantly changes the purpose of these funds or that redirects a material portion of the accumulated balances.

USACE has the following Earmarked Funds as of September 30, 2012 and 2011:

Maintenance Fund

Harbor Maintenance Trust Fund (HMTF). This fund was established by Title XIV of the Water Resources Development Act (the
Act) of 1986, Public Law 99-662.  The HMTF is authorized to recover 100% of USACE eligible operation and maintenance (O&M)
expenditures for the maintenance of commercial navigation in harbors and channels as well as 100% of the O&M cost of St. Lawrence
Seaway by the St. Lawrence Seaway Development Corporation.  As provided in the Act, amounts in HMTF shall be available for
making expenditures to carry out the functions specified in the Act and for the payment of all expenses of administration incurred by
the U.S. Treasury, USACE, and the Department of Commerce. Collections are made into the trust fund from fees assessed on port
use associated with imports, imported merchandise admitted into a foreign trade zone, passengers, and movements of cargo between
domestic ports. The collections are invested and investment activity is managed by BPD. The revenue is received from the public
and is an inflow of resources to the government.  This fund utilizes receipt and expenditure accounts in accounting for and reporting
the fund.

Contributed Fund

Rivers and Harbors Contributed and Advance Funds.  These funds are authorized by Title 33 USC 701h, 702f, and 703, establishes
funding to construct, improve, and maintain levees, water outlets, flood control, debris removal, rectification and enlargement of river
channels, etc., in the course of flood control and river/harbor maintenance. Whenever any state or political subdivision thereof shall
offer to advance funds for a flood control project duly adopted and authorized by law, the Secretary may at his discretion, receive such
funds and expend the same in the immediate prosecution of such work. Advances are from the public and are inflows of resources to
the government.  This fund utilizes both receipt and expenditure accounts in accounting for and reporting the fund.  

Other Funds

Coastal Wetlands Restoration Trust Fund.  This fund is authorized by Title 16 USC 3951-3956.  This title grants parallel authority
to USACE, along with the Environmental Protection Agency, and the Fish and Wildlife Service to work with the state of Louisiana
to develop, review, evaluate, and approve a plan that is proposed to achieve a goal of “no net loss of wetlands” in coastal Louisiana.
USACE is also responsible for allocating funds among the named task force members.  Federal contributions are established at 75%
of project costs or 85% if the state has an approved Coastal Wetlands Conservation Plan.  This fund is an expenditure account and
receives funding transfers from the Sport Fish Restoration and Boating Trust Fund.  

Inland Waterways Trust Fund (IWTF).  This fund is authorized by Title 26 USC 9506.  The title made IWTF available for USACE
expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections into the trust fund are from
excise taxes on fuel used in commercial transportation on inland waterways. The revenue is received from the public and is an inflow
of resources to the government.  The collections are invested and investment activity is managed by the BPD.  This fund utilizes receipt
and expenditure accounts in accounting for and reporting the fund.

Special Recreation Use Fees.  Title 16 United States Code (USC) 4601-6a granted USACE the authority to charge and collect fair and
equitable Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs under the jurisdiction of
                                                                                                                      Civil Works 65
                                                    Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

USACE. Types of allowable fees include daily use fees, admission fees, recreational fees, annual pass fees, and other permit type fees.
The revenue is received from the public and is an inflow of resources to the government. The purpose of the fund is to maintain and
operate the recreation and camping facilities.

Hydraulic Mining in California.  Debris, Title 33 USC 683 states that those operating hydraulic mines through which debris flows
in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission shall pay a tax as
determined by the Federal Energy Regulatory Commission (FERC).  The tax is paid annually on a date fixed by FERC.  Taxes imposed
under this code are collected and then expended under the supervision of USACE and the direction of the Department of the Army.
The revenue is received from the public and is an inflow of resources to the government. The purpose of the fund is for repayment of
funds advanced by the Federal Government or other agencies for construction, restraining works, settling reservoirs, and maintenance.  

Payments to States.  Flood Control Act of 1954, Title 33 USC 701c-3, established that 75% of all funds received and deposited from
the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including the development of hydroelectric
power, shall be returned to the state in which the property is located. USACE collects lease receipts into a receipt account. The
revenue is received from the public and is an inflow of resources to the government.  Funds are appropriated in the amount of 75%
of the receipts in the following fiscal year and disbursed to the states. The funds may be expended by the states for the benefit of
public schools and public roads of the county, or counties, in which such property is situated, or for defraying any of the expense of
county government.  

Maintenance and Operation of Dams and Other Improvements of Navigable Waters.  Title 16 USC 803f, 810, states that whenever a
reservoir or other improvement is constructed by the U.S., the Federal Power Commission, now known as FERC shall assess charges
against any licensee directly benefited, and any amount so assessed shall be paid into the U.S. Treasury. The title further states that all
charges arising from other licenses, except those charges established by FERC for purpose of administrative reimbursement, shall be
paid to the U.S. Treasury from which specific allocations will be made.  From the specific allocations, 50% of charges from all other
licenses is reserved and appropriated as a special fund in the U.S. Treasury. This special fund is to be expended under the direction of
the Secretary of the Army (Secretary) for the maintenance and operation of dams and other navigation structures that are owned by
the U.S. or for construction, maintenance, or operation of headwater or other improvements of U.S. navigable waters. The revenue is
received from the public and is an inflow of resources to the government.

Fund for Nonfederal Use of Disposal Facilities (for dredged material).  This fund was established by Title 33 USC 2326a.  This title
provides that the Secretary may permit the use of any dredged material disposal facility under the jurisdiction of, or managed by, the
Secretary by a nonfederal interest if the Secretary determines that such use will not reduce the availability of the facility for project
purposes. The Secretary may impose fees to recover capital, operation and maintenance costs associated with such use. Any monies
received through collection of fees under this law shall be available to the Secretary, and shall be used by the Secretary, for the operation
and maintenance of the disposal facility from which the fees were collected. The revenue is received from the public and is an inflow of
resources to the government.

Special funds utilize both receipt and expenditure accounts in accounting for and reporting the fund.  
66     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


Note 20.	Leases
As of September 30
(Amount in thousands)                                                                  Asset Category
                        2012                               Building Space                   Other                    Total
ENTITY AS LESSEE Operating Leases
Future Payments Due
   Fiscal Year
        2013                                           $                 73,674   $                       494   $             74,168
        2014                                                             74,017                           421                 74,438
        2015                                                             74,928                           216                 75,144
        2016                                                             75,791                           209                 76,000
        2017                                                             76,877                           198                 77,075
        After 5 Years                                                   403,993                           707                404,700
Total Future Lease Payments Due                        $                779,280   $                     2,245   $            781,525

As of September 30, 2012, USACE has various non-cancelable operating leases mainly for office space and storage facilities maintained
by many USACE Districts.  Many of these leases contain clauses to reflect inflation and renewal options.  USACE has no assets under
capital lease.

                               As of September 30                                     2012 Easements
                               (Amount in thousands)
                           ENTITY AS LESSOR
                           Operating Leases
                              2013                                            $                            5,113
                              2014                                                                         4,422
                              2015                                                                         3,300
                              2016                                                                         2,739
                              2017                                                                         2,018
                              After 5 Years                                                                6,215
                           Total Future Lease Payments                        $                           23,807

USACE also has a small volume of operating leases for mostly easements. Private companies and individuals lease easements from
USACE to operate marinas, restaurants, and other businesses on USACE lands.
                                                                                                                  Civil Works 67
                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


FY 2012 Required Supplementary Stewardship Information (RSSI)
Unaudited, See Accompanying Auditor’s Report

                                                NONFEDERAL PHYSICAL PROPERTY
                              Investments in Physical Property Owned by State and Local Governments
 (Amount In millions)

 Categories                                                       FY 2012        FY 2011       FY 2010       FY 2009       FY 2008
 Funded Assets:
    Cost Share Projects                                               $1,413         $2,273         $2,104       $1,198         $1,135
 Total                                                                $1,413         $2,273         $2,104       $1,198         $1,135


The U.S. Army Corps of Engineers (USACE) incurs investments in Nonfederal Physical Property for the construction of physical
property owned by state and local governments. USACE has the authority to enter into cost sharing agreements with nonfederal
sponsors which are governed under numerous Water Resources Development Acts starting with the Act of 1986.  

Investment values included in this report are based on Nonfederal Physical Property expenditures.
68    Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


FY 2012 Required Supplementary Information (RSI)
Unaudited, See Accompanying Auditor’s Report


As of September 30, 2012

Real Property Deferred Maintenance and Repairs

Deferred maintenance and repair is defined as maintenance and repairs not performed when it should have been or was scheduled to
be but delayed for a future period. Deferred maintenance and repair for FY 2012 was $2.9 billion for Other Structures.  Operations
managers identify the operation and maintenance (O&M) needs at each project in the Civil Works inventory.  The O&M needs are
based on inspections of project features, engineering analyses and historical experience.

Heritage Asset Condition

Condition of heritage assets is based on factors such as quality of design and construction, location, adequacy of maintenance
performed, and continued usefulness. The USACE’s heritage assets overall condition is deemed to be fair; therefore, no significant
deferred maintenance has been assessed.
                                                                                                                 Civil Works 69
                                                 Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


FY 2012 Required Supplementary Information (RSI)
Unaudited, See Accompanying Auditor’s Report


As of September 30, 2012

Disaggregated Schedule of Budgetary Resources by Major Fund

Statement of Federal Financial Accounting Standard 7 Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting requires information be presented by major budget account. USACE – Civil Works presents
information by major fund which USACE believes provides a better presentation, as the USACE – Civil Works is a single program and
aligns with our funding and management of the program.
70     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND (RSI - UNAUDITED)
For the year ended September 30, 2012
(Amount in thousands)                                        FUSRAP              Special Funds           Trust Funds       Borrowing Authority       Revolving Funds

Budgetary Resources
Unobligated balance brought forward,
   October 1                                           $            4,634    $            4,358      $        187,726      $                4    $          236,319
Recoveries of prior year unpaid obligation                              -                     -                     -                       -                     -
Other changes in unobligated balance                                    -                     -                     -                       -                     -
Unobligated balance from prior year budget
   authority, net                                                  4,634                  4,358               187,726                      4                236,319
Appropriations (discretionary and mandatory)                     109,000                 20,709             1,457,597                      -                      -
Spending authority from offsetting collections                     4,715                      -              (422,779)                    90              8,747,806
Total Budgetary Resources                              $         118,349     $           25,067      $      1,222,544 $                   94     $        8,984,125

Status of Budgetary Resources:
Obligations incurred                                   $         114,411     $           21,826      $      1,031,308      $              90     $        8,481,250
Unobligated balance, end of year
   Apportioned                                                      3,938                 3,241               191,236                       -                     -
   Exempt from apportionment                                            -                     -                     -                       4               502,875
   Unapportioned                                                        -                     -                     -                       -                     -
Unobligated balance brought forward, end
   of year                                                         3,938                  3,241               191,236                      4                502,875
Total Budgetary Resources                              $         118,349     $           25,067      $      1,222,544      $              94     $        8,984,125

Change in Obligated Balance:
Unpaid obligations, brought forward,
   October 1 (gross)                                   $          85,882     $            1,875      $        272,476      $                -    $        1,432,462
Uncollected customer payments from federal
   sources, brought forward, October 1 (-)                       (10,690)                     -                     -                       -               (182,667)
Obligated balance, start of year (net)                 $          75,192 $                1,875 $             272,476 $                     - $            1,249,795
Obligations incurred                                             114,411                 21,825             1,031,308                      90              8,481,251
Outlays (gross) (-)                                             (151,888)               (17,901)           (1,000,664)                    (90)            (8,697,182)
Change in uncollected customer payments
   from federal sources (+ or -)                                    7,437                        -                     -                    -                 42,703
Recoveries of prior year unpaid obligations (-)                         -                        -                     -                    -                      -
Obligated balance, end of year
   Unpaid obligations, end of year (gross)                        48,404                  5,799               303,121                       -             1,216,531
   Uncollected customer payments from
       federal sources, end of year (-)                           (3,254)                     -                     -                       -              (139,965)
Obligated balance, end of year                         $          45,150 $                5,799      $        303,121      $                -    $        1,076,566

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and
    mandatory)                                         $         113,714     $           20,709      $      1,034,819      $              90     $        8,747,806
Actual offsetting collections (discretionary and
    mandatory) (-)                                                (12,151)                       -                     -                (931)             (8,790,509)
Change in uncollected customer payments
    from federal sources (discretionary and
    mandatory) (+ or -)                                             7,437                        -                     -                    -                 42,703
Budget authority, net (discretionary and
    mandatory)                                         $         109,000     $           20,709      $      1,034,819      $            (841) $                   -
Outlays, gross (discretionary and mandatory)                     151,888                 17,901             1,000,664                     90              8,697,182
Actual offsetting collections (discretionary and
    mandatory) (-)                                               (12,151)                     -                     -                   (931)             (8,790,509)
Outlays, net (discretionary and mandatory)                       139,737                 17,901             1,000,664                   (841)                (93,327)
Distributed offsetting receipts                                        -                (60,045)                    -                      -                       -
Agency outlays, net (discretionary and
    mandatory)                                         $         139,737     $          (42,144) $          1,000,664      $            (841) $              (93,327)

The accompanying notes are an integral part of these financial statements.
                                                                                                                                            Civil Works 71
                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND (RSI - UNAUDITED)
For the year ended September 30, 2012
(Amount in thousands)                                   Contributed Funds        General Funds         FUSRAP ARRA           General ARRA         2012 Combined

Budgetary Resources
Unobligated balance brought forward,
   October 1                                           $         592,889     $       7,450,596     $                 4   $          51,958    $        8,528,488
Recoveries of prior year unpaid obligation                             -                93,459                       -                  24                93,483
Other changes in unobligated balance                                   -                (1,664)                      -                   -                (1,664)
Unobligated balance from prior year budget
   authority, net                                                592,889             7,542,391                       4              51,982            8,620,307
Appropriations (discretionary and mandatory)                     400,260             5,654,287                       -                    -           7,641,853
Spending authority from offsetting collections                     2,283             2,368,560                       -              (1,725)          10,698,950
Total Budgetary Resources                              $         995,432     $      15,565,238     $                 4   $          50,257    $      26,961,110

Status of Budgetary Resources:
Obligations incurred                                   $         331,713     $       8,334,115     $                 4   $          36,316    $      18,351,033
Unobligated balance, end of year
   Apportioned                                                         -             7,213,526                       -                  12             7,411,953
   Exempt from apportionment                                     663,719                17,585                       -                   -             1,184,183
   Unapportioned                                                       -                    12                       -              13,929                13,941
Unobligated balance brought forward, end
   of year                                                       663,719             7,231,123                       -              13,941            8,610,077
Total Budgetary Resources                              $         995,432     $      15,565,238     $                 4   $          50,257    $      26,961,110

Change in Obligated Balance:
Unpaid obligations, brought forward,
   October 1 (gross)                                   $         473,871     $       7,252,680     $         13,367      $         872,844    $      10,405,457
Uncollected customer payments from federal
   sources, brought forward, October 1 (-)                            (4)            (2,825,007)                   -               (79,333)           (3,097,701)
Obligated balance, start of year (net)                 $         473,867 $            4,427,673 $             13,367 $             793,511 $            7,307,756
Obligations incurred                                             331,713              8,334,115                    5                 36,315           18,351,033
Outlays (gross) (-)                                             (489,971)            (9,322,392)             (13,332)             (594,855)          (20,288,275)
Change in uncollected customer payments
   from federal sources (+ or -)                                     (109)             806,446                       -              64,497              920,974
Recoveries of prior year unpaid obligations (-)                         -              (93,459)                      -                 (24)             (93,483)
Obligated balance, end of year
   Unpaid obligations, end of year (gross)                        315,613            6,170,944                   39                314,281             8,374,732
   Uncollected customer payments from
       federal sources, end of year (-)                             (113)            (2,018,559)                  -                (14,836)           (2,176,727)
Obligated balance, end of year                         $         315,500 $            4,152,385 $                39      $         299,445 $           6,198,005

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and
    mandatory)                                         $         402,543     $       8,022,846     $                 -   $           (1,725) $       18,340,802
Actual offsetting collections (discretionary and
    mandatory) (-)                                                 (2,174)           (3,085,131)                     -             (62,772)          (11,953,668)
Change in uncollected customer payments
    from federal sources (discretionary and
    mandatory) (+ or -)                                              (109)             806,446                       -              64,497              920,974
Budget authority, net (discretionary and
    mandatory)                                         $         400,260     $       5,744,161     $              -      $               -    $       7,308,108
Outlays, gross (discretionary and mandatory)                     489,971             9,322,392               13,332                594,855           20,288,275
Actual offsetting collections (discretionary and
    mandatory) (-)                                                (2,174)            (3,085,131)                  -                (62,772)          (11,953,668)
Outlays, net (discretionary and mandatory)                       487,797              6,237,261              13,332                532,083             8,334,607
Distributed offsetting receipts                                 (400,260)               (92,340)                  -                      -              (552,645)
Agency outlays, net (discretionary and
    mandatory)                                         $          87,537     $       6,144,921     $         13,332      $         532,083    $        7,781,962

The accompanying notes are an integral part of these financial statements.
72     Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND (RSI - UNAUDITED)
For the year ended September 30, 2011
(Amount in thousands)                                        FUSRAP              Special Funds           Trust Funds       Borrowing Authority       Revolving Funds

Budgetary Resources
Unobligated balance brought forward,
   October 1                                           $          12,846     $            8,325      $        155,451      $                4    $          101,725
Recoveries of prior year unpaid obligation                             -                      -                     -                       -                     -
Other changes in unobligated balance                                   -                      -                     -                       -                     -
Unobligated balance from prior year budget
   authority, net                                                 12,846                  8,325               155,451                      4                101,725
Appropriations (discretionary and mandatory)                     129,740                 15,456               885,489                      -                      -
Spending authority from offsetting collections                    22,299                      -                82,388                    125              8,777,671
Total Budgetary Resources                              $         164,885     $           23,781      $      1,123,328      $             129     $        8,879,396

Status of Budgetary Resources:
Obligations incurred                                   $         160,251     $           19,423      $        935,602      $             125     $        8,643,077
Unobligated balance, end of year
   Apportioned                                                      4,634                 4,358               187,367                       -                     -
   Exempt from apportionment                                            -                     -                     -                       4               236,319
   Unapportioned                                                        -                     -                   359                       -                     -
Unobligated balance brought forward, end
   of year                                             $           4,634     $            4,358      $        187,726      $               4     $          236,319
Total Budgetary Resources                              $         164,885     $           23,781      $      1,123,328      $             129     $        8,879,396

Change in Obligated Balance:
Unpaid obligations, brought forward,
   October 1 (gross)                                   $          82,162     $            1,602      $        296,626      $                -    $        1,603,928
Uncollected customer payments from federal
   sources, brought forward, October 1 (-)                        (9,639)                     -                     -                      -                (164,365)
Obligated balance, start of year (net)                 $          72,523 $                1,602 $             296,626 $                    - $             1,439,563
Obligations incurred                                             160,251                 19,423               935,602                    125               8,643,077
Outlays (gross) (-)                                             (156,531)               (19,150)             (959,752)                  (125)             (8,814,543)
Change in uncollected customer payments
   from federal sources (+ or -)                                   (1,051)                       -                     -                    -                (18,302)
Recoveries of prior year unpaid obligations (-)                         -                        -                     -                    -                      -
Obligated balance, end of year
   Unpaid obligations, end of year (gross)                        85,882                  1,875               272,476                       -             1,432,462
   Uncollected customer payments from
       federal sources, end of year (-)                           (10,690)                    -                     -                       -              (182,667)
Obligated balance, end of year                         $           75,192 $               1,875      $        272,476      $                -    $        1,249,795

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and
    mandatory)                                         $         152,039     $           15,456      $        967,877      $             125     $        8,777,671
Actual offsetting collections (discretionary and
    mandatory) (-)                                                (21,248)                       -                     -                (645)             (8,759,370)
Change in uncollected customer payments
    from federal sources (discretionary and
    mandatory) (+ or -)                                            (1,051)                       -                     -                    -                (18,302)
Budget authority, net (discretionary and
    mandatory)                                         $         129,740     $           15,456      $        967,877      $            (520) $                  (1)
Outlays, gross (discretionary and mandatory)                     156,531                 19,150               959,752                    125              8,814,543
Actual offsetting collections (discretionary and
    mandatory) (-)                                               (21,248)                     -                     -                   (645)             (8,759,370)
Outlays, net (discretionary and mandatory)                       135,283                 19,150               959,752                   (520)                 55,173
Distributed offsetting receipts                                        -                (58,392)                    -                      -                       -
Agency outlays, net (discretionary and
    mandatory)                                         $         135,283     $          (39,242) $            959,752      $            (520) $               55,173

The accompanying notes are an integral part of these financial statements.
                                                                                                                                            Civil Works 73
                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND (RSI - UNAUDITED)
For the year ended September 30, 2011
(Amount in thousands)                                   Contributed Funds        General Funds         FUSRAP ARRA           General ARRA          2011 Combined

Budgetary Resources
Unobligated balance brought forward,
   October 1                                           $         504,203     $      10,123,348 $                332      $         162,918     $      11,069,152
Recoveries of prior year unpaid obligation                             -               117,161                    -                     13               117,174
Other changes in unobligated balance                                   -                (2,542)                   -                      -                (2,542)
Unobligated balance from prior year budget
   authority, net                                                504,203            10,237,967                  332                162,931            11,183,784
Appropriations (discretionary and mandatory)                     504,067             3,840,649                    -                      -             5,375,401
Spending authority from offsetting collections                     3,513             3,182,486                    -                  4,144            12,072,626
Total Budgetary Resources                              $       1,011,783     $      17,261,102     $            332      $         167,075     $      28,631,811

Status of Budgetary Resources:
Obligations incurred                                   $         418,894     $       9,810,505     $            328      $         115,118     $      20,103,323
Unobligated balance, end of year
   Apportioned                                                         -             7,435,698                       -                 853              7,632,910
   Exempt from apportionment                                     592,889                14,879                       -                   -                844,091
   Unapportioned                                                       -                    20                       4              51,104                 51,487
Unobligated balance brought forward, end
   of year                                             $         592,889     $       7,450,597     $              4      $          51,957     $       8,528,488
Total Budgetary Resources                              $       1,011,783     $      17,261,102     $            332      $         167,075     $      28,631,811

Change in Obligated Balance:
Unpaid obligations, brought forward,
   October 1 (gross)                                   $         450,731     $       8,340,350     $         63,230      $       2,295,976     $      13,134,605
Uncollected customer payments from federal
   sources, brought forward, October 1 (-)                           (11)           (2,664,104)                    -              (227,286)            (3,065,405)
Obligated balance, start of year (net)                 $         450,720 $           5,676,246 $              63,230 $           2,068,690 $           10,069,200
Obligations incurred                                             418,894             9,810,505                   328               115,118             20,103,323
Outlays (gross) (-)                                             (395,754)          (10,781,015)              (50,191)           (1,538,236)           (22,715,297)
Change in uncollected customer payments
   from federal sources (+ or -)                                         7            (160,903)                      -             147,953               (32,296)
Recoveries of prior year unpaid obligations (-)                          -             117,161                       -                  13               117,174
Obligated balance, end of year
   Unpaid obligations, end of year (gross)                       473,871             7,252,680               13,367                872,844            10,405,457
   Uncollected customer payments from
       federal sources, end of year (-)                               (4)            (2,825,007)                  -                (79,333)            (3,097,701)
Obligated balance, end of year                         $         473,867 $            4,427,673 $            13,367      $         793,511 $            7,307,756

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and
    mandatory)                                         $         507,580     $       7,023,135     $                 -   $           4,144     $      17,448,027
Actual offsetting collections (discretionary and
    mandatory) (-)                                                 (3,519)           (2,927,517)                     -            (152,096)           (11,864,395)
Change in uncollected customer payments
    from federal sources (discretionary and
    mandatory) (+ or -)                                                  7            (160,903)                      -             147,953                (32,296)
Budget authority, net (discretionary and
    mandatory)                                         $         504,068     $       3,934,715     $              -      $               1     $       5,551,336
Outlays, gross (discretionary and mandatory)                     395,754            10,781,015               50,191              1,538,236            22,715,297
Actual offsetting collections (discretionary and
    mandatory) (-)                                                (3,519)            (2,927,517)                  -               (152,096)           (11,864,395)
Outlays, net (discretionary and mandatory)                       392,235              7,853,498              50,191              1,386,140             10,850,902
Distributed offsetting receipts                                 (504,067)              (133,940)                  -                      -               (696,399)
Agency outlays, net (discretionary and
    mandatory)                                         $        (111,832) $          7,719,558     $         50,191      $       1,386,140     $      10,154,503

The accompanying notes are an integral part of these financial statements.
74   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report




                                       [This page left intentionally blank.]
                                                                                                                  Civil Works 75
                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report




                                                  INSPECTOR GENERAL
                                                DEPARTMENT OF DEFENSE
                                                  400 ARMY NAVY DRIVE
                                             ARLINGTON, VIRGINIA 22202-4704



                                                                                                                   November 15, 2012


MEMORANDUM FOR COMMANDING GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

SUBJECT: 	Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil Works, FY 2012 and FY 2011
	         Basic Financial Statements (Report No. DODIG-2013-023)

We contracted with the independent certified public accounting firm of KPMG LLP to audit the financial statements of U.S. Army
Corps of Engineers, Civil Works (USACE CW), as of September 30, 2012 and 2011, for the years then ended. The contract required
that KPMG LLP, conduct the audit in accordance with U.S. generally accepted government auditing standards, Office of Management
and Budget audit guidance, and the Government Accountability Office/President’s Council on Integrity and Efficiency, “Financial
Audit Manual,” July 2008. KPMG LLP’s audit resulted in an unqualified opinion. The results of KPMG LLP’s audit are presented in
the attached report.

KPMG LLP concluded that the financial statements were presented fairly, in all material respects, in conformity with U.S. generally
accepted accounting principles. KPMG LLP’s report identified no material weaknesses and three significant deficiencies related to
USACE CW internal controls. KPMG LLP’s report also identifies two instances of non-compliance with laws and regulations and a
possible Anti-deficiency Act violation that USACE CW management self-reported.

We reviewed KPMG LLP’s report and related documentation and discussed audit results with KPMG LLP representatives. Our review,
as differentiated from an audit in accordance with U.S. generally accepted government auditing standards, was not intended to enable
us to express, and we do not express, an opinion on USACE CW’s financial statements, conclusions about the effectiveness of internal
controls, conclusions on whether USACE CW’s financial management systems substantially complied with the “Federal Financial
Management Improvement Act of 1996,” or conclusions on compliance with laws and regulations. KPMG LLP is responsible for the
attached auditor’s report and the conclusions expressed in the report. However, our review disclosed no instances where KPMG LLP
did not comply, in all material respects, with U.S. generally accepted government auditing standards.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8938 (DSN 664-8938).




                                                      Richard B. Vasquez, CPA
                                                  Acting Assistant Inspector General
                                                Financial Management and Reporting
76   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
                                                                Civil Works 77
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
78   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
                                                                Civil Works 79
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
80   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
                                                                Civil Works 81
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
82   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
                                                                Civil Works 83
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
84   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
                                                                Civil Works 85
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
86   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
                                                                Civil Works 87
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
88   Fiscal Year 2012 United States Army Corps of Engineers Annual Financial Report
     We are interested in your feedback regarding the content of this report.
  Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


                   Department of the Army
               Office of the Deputy Assistant Secretary of the Army
                     (Financial Management and Comptroller)
                   Office of the Financial Reporting Directorate
                         Room 3A312, 109 Army Pentagon
                           Washington, DC 20310-0109

Additional copies of this report can be obtained by sending a written request to the
                       e-mail or mailing address listed above.

                      You may also view this document at:
                  http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
The Soldier’s Creed
I am an American Soldier.
I am a Warrior and a member of a team.
I serve the people of the United States
and live the Army Values.

I will always place the mission first.
I will never accept defeat.
I will never quit.
I will never leave a fallen comrade.

I am disciplined, physically and mentally tough,
trained and proficient in my warrior tasks and
drills. I always maintain my arms,
my equipment and myself.

I am an expert and I am a professional.

I stand ready to deploy, engage, and
destroy the enemies of the United States
of America in close combat.

I am a guardian of freedom and the
American way of life.

I am an American Soldier.

United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
